No. 21-____

In the Supreme Court of the United States
______________
SAFEHOUSE,
Petitioner,
v.
U.S. DEPARTMENT OF JUSTICE, ET AL.,
Respondents.
______________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit
______________
PETITION FOR A WRIT OF CERTIORARI
______________
Ronda B. Goldfein
Yolanda French Lollis
Adrian M. Lowe
Jacob M. Eden
AIDS LAW PROJECT OF
PENNSYLVANIA
1211 Chestnut St.,
Ste. 600
Philadelphia, PA 19107
(215) 587-9377
Seth F. Kreimer
3501 Sansom St.
Philadelphia, PA 19104
(215) 898-7447
Counsel for Petitioner

Ilana H. Eisenstein
Counsel of Record
Courtney G. Saleski
Ben C. Fabens-Lassen
DLA PIPER LLP (US)
1650 Market St.,
Ste. 5000
Philadelphia, PA 19103
(215) 656-3300
Ilana.Eisenstein
@dlapiper.com
Peter Goldberger
LAW OFFICE OF PETER
GOLDBERGER
50 Rittenhouse Place
Ardmore, PA 19003
(610) 649-8200

QUESTION PRESENTED
In the midst of the opioid and overdose crises ravaging the nation and causing the death of more than
3,214 people over the last three years in the City of
Philadelphia, petitioner Safehouse, a Philadelphia
non-profit organization, seeks to establish an overdose prevention site that will offer medically supervised consumption services—a public-health intervention employed to prevent overdose deaths by providing
immediate access to opioid reversal agents and urgently needed medical care at the time and place they
are required, which is at the moment of consumption.
A divided panel of the Third Circuit reversed the
grant of a declaratory judgment in favor of Safehouse
and held that the proposed facility would violate 21
U.S.C. § 856(a)(2)—a provision of the Controlled Substances Act (CSA) that Congress passed to target
“crack houses” and “rave parties.” Section 856(a)(2)
makes it unlawful (in relevant part) to “manage or
control any place, whether permanently or temporarily, . . . and knowingly and intentionally . . . make
available for use, with or without compensation, the
place for the purpose of unlawfully manufacturing,
storing, distributing, or using a controlled substance.”
The question presented is:
Does 21 U.S.C. § 856(a) make it a felony to offer
medically supervised consumption services for the
purpose of preventing opioid overdose deaths?

(i)

ii
PARTIES TO THE PROCEEDINGS
Petitioner Safehouse, a non-profit corporation, was
the Defendant and Counterclaim-Plaintiff in a civil declaratory action brought by the United States Department of Justice (DOJ) in the United States District
Court for the Eastern District of Pennsylvania.
Safehouse’s co-founder and president of its board of directors, José Benitez, was also named as a Defendant
in the declaratory action brought by DOJ.
Respondents are DOJ; Merrick Garland, in his official capacity as the Attorney General of the United
States; and Jennifer Arbittier Williams, in her official
capacity as the Acting United States Attorney for the
Eastern District of Pennsylvania.

iii
TABLE OF CONTENTS
Opinions Below ......................................................... 1
Jurisdiction ............................................................... 2
Statutory Provision Involved ................................... 2
Introduction .............................................................. 3
Statement of the Case .............................................. 5
A.

The Safehouse Proposal ........................... 7

B.

Procedural History ................................... 9

Reasons for Granting the Writ............................... 13
I.

The Interpretation of Section 856(a)
Is of National and Paramount
Importance in the Midst of the
Nation’s Opioid Crisis and a
Question on which Courts of Appeals
Are Divided ............................................. 13

II.

The Court of Appeals’ Interpretation
of Section 856(a) Is Inconsistent with
Its Text, Purpose, and History ............... 18
A. Section 856(a)’s Text and
Structure Demonstrate that
Criminal Liability Only Applies
Where the Defendant, Not a
Third-Party Visitor, Acts with
Unlawful Purpose ............................. 18
B. The History of Section 856(a)
Shows No Congressional Intent to
Regulate Public Health Facilities
Like Safehouse ................................. 21

iv
C. The Court of Appeals Failed to
Consider Lenity and the Clear
Statement Rule, Resulting in
Unintended Criminalization of
Those that Operate Facilities
Serving People Suffering from
Addiction............................................ 23
III. The Court of Appeals Should Have
Interpreted Section 856(a) to Avoid
the Federalism and Commerce
Clause Concerns Posed by Federal
Regulation of a Local, NonCommercial Public Health
Intervention ............................................ 26
IV. This Case Is an Ideal Vehicle to
Resolve this Question, which
Warrants this Court’s Immediate
Attention ................................................. 29
CONCLUSION ....................................................... 31
Appendix A: Court of appeals opinion ................... 1a
Appendix B: Court of appeals order..................... 68a
Appendix C: District court Feb. 25, 2020
memorandum opinion .......................................... 68a
Appendix D: District court Feb. 25, 2020
order granting summary judgment ..................... 68a
Appendix E: District court Oct. 2, 2019
memorandum opinion .......................................... 79a

v
TABLE OF AUTHORITIES
Page
Cases:
Adamo Wrecking Co. v. United States,
434 U.S. 275 (1978)........................................... 24
Bond v. United States,
572 U.S. 844 (2014)..................................... 27, 29
Burrage v. United States,
571 U.S. 204 (2014)........................................... 24
Gonzales v. Oregon,
546 U.S. 243 (2006)..................................... 27, 29
Gonzales v. Raich,
545 U.S. 1 (2005) ........................................ 27. 29
Hillsborough Cty. v. Automated Med. Labs., Inc.,
471 U.S. 707 (1985)........................................... 27
Jones v. United States,
529 U.S. 848 (2000)..................................... 23, 29
Kelly v. United States,
140 S. Ct. 1565 (2020) ................................ 18, 29
Nat’l Fed’n of Indep. Bus. v. Sebelius,
567 U.S. 519 (2012)........................................... 28
Solid Waste Agency v. U.S. Army Corps of Eng’rs,
531 U.S. 159 (2001)........................................... 23
Standing Akimbo, LLC v. United States,
141 S. Ct. 2236 (2021) ...................................... 28
Sullivan v. Stroop,
496 U.S. 478 (1990)........................................... 20
Taylor v. United States,
136 S. Ct. 2074 (2016) ...................................... 28

vi
TABLE OF AUTHORITIES--CONTINUED
Cases—continued:
United States v. Bass,
404 U.S. 336 (1971)........................................... 24
United States v. Chen,
913 F.2d 183 (5th Cir. 1990) ............................ 20
United States v. Church,
970 F.2d 401 (7th Cir. 1992) ............................ 17
United States v. Lancaster,
968 F.2d 1250 (D.C. Cir. 1992) ......................... 16
United States v. Lopez,
514 U.S. 549 (1995)............................... 27. 28, 29
United States v. Morrison,
529 U.S. 598 (2000)..................................... 27, 28
United States v. Russell,
595 F.3d 633 (6th Cir. 2010) ............................ 16
United States v. Santos,
553 U.S. 507 (2008)........................................... 24
United States v. Shetler,
665 F.3d 115 (9th Cir. 2011) ............................ 16
United States v. Universal C. I. T. Credit Corp.,
344 U.S. 218 (1952)........................................... 24
United States v. Verners,
53 F.3d 291 (10th Cir. 1995) ............................ 16
Statutes and Regulations:
Comprehensive Addiction and Recovery
Act of 2016, Pub. L. No. 114-198, § 101, 130
Stat. 697 ................................................................ 6

vii
TABLE OF AUTHORITIES--CONTINUED
Statutes and Regulations--Continued:
Consolidated Appropriations Act of 2016,
Pub. L. No. 114-113, § 520, 129 Stat. 2652 .......... 7
21 U.S.C. § 844....................................................... 17
21 U.S.C. § 856(a) .......................................... passim
21 U.S.C. § 856(b) .................................................. 17
28 U.S.C. § 1254(1) .................................................. 2
Legislative Material:
149 Cong. Rec. 1678 (2003) ................................... 22
149 Cong. Rec. 1849 (2003) ................................... 23
149 Cong. Rec. 26474 (1986) ................................. 22
Other Sources:
Antonin Scalia & Bryan A. Garner,
Reading Law 170 (2012) .................................. 20
Betsy McKay, U.S. Drug-Overdose Deaths
Soared Nearly 30% in 2020, Driven by
Synthetic Opioids, Wall Street Journal
(July 14, 2021), https://tinyurl.com/pervh3fr ........................................... 13
CDC, National Center for Health Statistics,
Provisional Drug Overdose Death Counts,
https://www.cdc.gov/nchs/nvss/vsrr/drugoverdose-data.htm#dashboard ......................... 13
HUD, Housing First in Permanent Supporting Housing (July 2014) ................................... 26

viii
Purpose, Black’s Law Dictionary
(11th ed. 2019) .................................................. 18

IN THE
Supreme Court of the United States
______________
No. 21______________
SAFEHOUSE,
Petitioner,
v.
U.S. DEPARTMENT OF JUSTICE, ET AL.,
Respondents.
______________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit
______________
PETITION FOR A WRIT OF CERTIORARI
______________
Petitioner Safehouse respectfully petitions for a writ
of certiorari to review the judgment of the United
States Court of Appeals for the Third Circuit in this
case.
OPINIONS BELOW
The opinion of the court of appeals is reported at
985 F.3d. 225 and reprinted in the Appendix to the Petition (“Pet. App.”) at 1a-52a. The order of the court of
appeals denying rehearing en banc and the accompanying dissent from denial of rehearing en banc are reported at 991 F.3d 503 and reprinted at Pet. App. 53a67a.

(1)

2
The order of the District Court on the motion for
judgment on the pleadings is reported at 408 F. Supp.
3d 583 and reprinted at Pet. App. 79a-151a. The order
of the District Court on the parties’ cross-motions for
summary judgment is not published in the Federal
Supplement but is available at 2020 WL 906997, and
reprinted at Pet. App. 68a-75a.
JURISDICTION
The judgment of the court of appeals was entered
on January 12, 2021. Safehouse’s timely petition for
rehearing was denied on March 24, 2021. Pet. App.
54a. This Court’s March 19, 2020 order extended the
deadline to file any petition for a writ of certiorari to
150 days from the date of an order denying a timely
petition for rehearing. The jurisdiction of this Court
is invoked under 28 U.S.C. § 1254(1).
STATUTORY PROVISION INVOLVED
This petition centers on whether Safehouse’s proposed overdose prevention site would violate 21 U.S.C.
§ 856(a), which provides as follows:
Except as authorized by this subchapter, it shall
be unlawful to—
(1) knowingly open, lease, rent, use, or
maintain any place, whether permanently
or temporarily, for the purpose of
manufacturing, distributing, or using any
controlled substance;
(2) manage or control any place, whether
permanently or temporarily, either as an
owner, lessee, agent, employee, occupant, or
mortgagee, and knowingly and intentionally
rent, lease, profit from, or make available for
use, with or without compensation, the place

3
for
the
purpose
of
unlawfully
manufacturing, storing, distributing, or
using a controlled substance.
INTRODUCTION
This Court should grant review to determine
whether federal criminal law, 21 U.S.C. § 856(a), prohibits non-commercial, non-profit social service agencies, such as petitioner Safehouse, from establishing
an overdose-prevention site that includes medically
supervised consumption—a lifesaving intervention
that medical and public-health experts deem crucial to
preventing overdose deaths and to providing pathways to drug treatment in the midst of this nation’s
opioid and overdose crises.
Congress enacted Section 856(a) as an amendment
to the Controlled Substances Act to target so-called
“crack houses” and promoters of drug-fueled “rave parties.” Pet. App. 41a, 95a. The statute makes it a 20year felony to “manage or control any place, . . . and
knowingly and intentionally . . . make available for
use, with or without compensation, the place for the
purpose of unlawfully . . . using a controlled substance.” 21 U.S.C. § 856(a)(2). In 2018, respondents
sought a declaratory judgment that Safehouse’s proposed services would violate Section 856(a)(2);
Safehouse counterclaimed for a declaration that its
proposed overdose prevention model did not violate
that federal criminal law. The district court issued a
declaratory judgment that Safehouse’s proposed supervised consumption services—established for the
purpose of saving lives by providing immediate access
to opioid reversal agents and urgent medical care—
would not violate Section 856(a)(2). Pet. App. 76a-78a;
see also id. at 79a-151a.

4
Over a powerful dissent by Senior Circuit Judge
Jane R. Roth, the court of appeals reversed that determination based on an incorrect interpretation of Section 856(a)(2) that imposes criminal liability on property owners and operators based on the unlawful purpose of third-party visitors, rather than based on the
defendant’s own purpose. To avoid the illogical results
of this interpretation, the panel announced a new,
atextual exception for “incidental” drug-use under
subsection (a)(2) that is untethered to the statute’s
purpose element and that would trigger Section
856(a)(2) liability for the property owner or manager
based on the undefined prevalence of others’ drug use
at the property. This ill-defined standard will turn
otherwise law-abiding citizens into criminals. In so
doing, the majority’s opinion creates substantial uncertainty and confusion about Section 856(a)’s reach
by creating a division among the courts of appeals
about the standard for Section 856(a) liability. It does
so while establishing a federal criminal bar to an important measure to combat the opioid crisis advocated
by state and local governments, medical and public
health experts, religious and community leaders of
conscience, and families and loved ones of those suffering from addiction.
Because this case was decided through a declaratory
judgment based on undisputed facts, this case presents an ideal vehicle to decide the application of Section 856(a) to supervised consumption services, while
resolving the division among the circuits on the scope
of Section 856(a) created by the court of appeals’ erroneous and sweeping interpretation of that provision.
This question is a matter of life or death for thousands
of Philadelphians and many thousands more throughout the country. Tragically, while respondents have

5
been pursuing this declaratory judgment against
Safehouse, more than 3,200 people died in Philadelphia of drug overdoses—many of which could have
been prevented if medical care had been immediately
available through supervised consumption services.
Underscoring the vital need for resolution and the importance of this question, in the courts below, amicus
briefs representing 160 organizations and individuals
were filed in support of Safehouse’s position. These
briefs included 8 states’ Attorneys General, one of
whom, Xavier Becerra, is now the Secretary of the U.S.
Department of Health and Human Services; 14 municipalities; prominent national public-health and medical organizations; social service providers; current and
former law enforcement officers; religious leaders; and
the family and friends of those who have lost loved
ones to opioid overdose.
As Judge Theodore McKee, Judge Jane Roth, and
Judge L. Felipe Restrepo stated in dissent from the
denial of Safehouse’s petition for rehearing en banc,
the court of appeals’ interpretation of Section 856(a) is
not only gravely erroneous, but also, in light of the immediate importance of this issue, “few other cases will
merit en banc review as much as this one.” Pet. App.
56a (emphasis added). These same considerations
warrant this Court’s intervention to resolve this critical legal question.
STATEMENT OF THE CASE
The opioid epidemic, and the overdose crisis that accompanies it, is a national public health emergency as
declared in 2017 by the U.S. Department of Health
and Human Services, and in January 2018, the Governor of Pennsylvania similarly declared a statewide
emergency. Every day, an average of three people die

6
of overdose in Philadelphia, where Safehouse seeks to
provide its services. Pet. App. 22a.
The overdose crisis has been fueled by potent new
opioids like fentanyl, which have infiltrated the nation, and can lead to an overdose within seconds of
consumption, resulting in rapid loss of respiratory
function. When breathing stops, even a brief delay
while waiting for medical help to arrive may result in
an otherwise preventable overdose death or irreversible injury. As a result, every second counts when responding to an opioid overdose; as more time elapses,
the greater the risk of serious injury and death. Ensuring proximity to medical care and opioid reversal
agents like the drug Naloxone at the time of consumption is therefore a critical component of efforts to prevent fatal opioid overdose.1 When administered
quickly and in sufficient dose, Naloxone will reverse an
opioid overdose with medical certainty.2
In 2016, Congress recognized the critical importance
of combating opioid addiction and overdose that includes affirmative authorization and funding of other
harm-reduction measures including syringe exchange
services and efforts to enhance the availability of overdose
reversal
agents
like
Naloxone.
See
Comprehensive Addiction and Recovery Act of 2016
1 Although Naloxone is designed to be easily administered as
an intra-nasal spray, a person experiencing an overdose (and
thus losing consciousness) cannot self-administer it. In the event
of an overdose, Naloxone can work only if someone is close by to
administer it.

That is why in over 120 supervised consumption sites operating for over 30 years worldwide, not a single person has reportedly died of overdose death. See, e.g., Thomas Kerr et al., Drugrelated overdoses within a medically supervised safer injection facility, 17(5) INT’L J. OF DRUG POLICY, 436–41 (2006).
2

7
(“CARA”), Pub. L. No. 114-198, § 101, 130 Stat. 697;
Consolidated Appropriations Act of 2016, Pub. L. No.
114-113, § 520, 129 Stat. 2652.
A.

The Safehouse Proposal

Safehouse was founded in 2018 by a former mayor
of Philadelphia and governor of Pennsylvania, leading
public health practitioners, and prominent religious
leaders to establish an overdose prevention site in
Philadelphia, at the recommendation of a task force of
public health and medical experts convened by the
current Mayor of Philadelphia.3 Safehouse declares in
its mission statement that “[a]t the core of our faith is
the principle that preservation of human life overrides
any other considerations,” and that its “mission is to
save lives by providing a range of overdose prevention
services.”4
Safehouse’s overdose prevention model builds upon
federally approved and funded methods for fighting
the national opioid epidemic and includes the provision of clean injection equipment to reduce disease
transmission and opportunities to encourage and facilitate pathways into drug treatment programs and
3 Safehouse’s advisory board includes the Commissioner of
Philadelphia’s Department of Behavior Health and Intellectual
disAbility Services; the Medical Director, Division of Substance
Use Prevention and Harm Reduction, Philadelphia Department
of Health; deans of the schools of public health of prominent universities in Philadelphia and neighboring Camden, New Jersey;
a managing director of a healthcare group; an emergency room
physician and public health consultant; a neighbor activist; and
a parent who has lost a child to overdose. See Pet. App. 57a.

See About Safehouse, A nonprofit public health approach to
overdose prevention in Philadelphia, https://www.safehousephilly.org/about; The Parties’ Stipulation of Facts, No. 19-cv-519,
Dkt. Entry No. 137, Ex. A (E.D. Pa. Jan 6, 2020).
4

8
other essential social services. Pet. App. 133a. Because, in the event of an overdose, proximity is so critical to providing lifesaving medical care, Safehouse
seeks to offer, as part of its efforts to combat the opioid
crisis, medically supervised consumption services by
which trained personnel will supervise participants’
consumption and, if necessary, intervene with medical
care, including respiratory support and the administration of overdose reversal agents, such as Naloxone. Id. at 5a-6a; 73a-74a; 141a-142a.
Safehouse thus will engage in the indisputably legal
(and in some cases federally funded) acts of providing
sterile injection equipment and administering
emergency medical care. Id. at 94a n.8, 133a. Under
no circumstance will Safehouse provide, administer,
or dispense any controlled substances. See id. at 5a,
82a. Nor will Safehouse manufacture, sell, or administer unlawful drugs, or permit the distribution or sale
of drugs at its site. Id. at 32a. The district court thus
properly recognized that Safehouse’s overdose prevention site “ultimately seeks to reduce unlawful drug
use” while preventing the tragic loss of life from opioid
overdose. Id. at 142a.
The medical and public-health measures that
Safehouse proposes, including supervised consumption services, have been recognized and endorsed by
local elected officials in Philadelphia (including the
Mayor and District Attorney), its Director of Public
Health, and by prominent national and international
medical and public health associations including the
American Medical Association, the American Public
Health Association, AIDS United, the European
Monitoring Center for Drugs and Drug Addiction, the
Infectious Diseases Society of America, the HIV
Medical Association, the International Drug Policy

9
Consortium, and scores of public health experts,
physicians, and addiction researchers. See id. at 148a
n.49.
B.

Procedural History

1. In February 2019, the DOJ filed a complaint
under 21 U.S.C. § 856(e) seeking a declaratory judgment that Safehouse’s medically supervised consumption services would violate 21 U.S.C. § 856(a)(2). Pet.
App. 83a-84a. Safehouse filed a counterclaim seeking
a declaration that its overdose prevention model is not
prohibited by Section 856(a). Id.5 DOJ moved for
judgment on the pleadings, and Safehouse opposed the
motion. Id. at 84a.
a.
In a detailed 56-page memorandum opinion,
the district court denied DOJ’s motion for judgment on
the pleadings, holding that Section 856(a) does not
apply to Safehouse’s proposed overdose prevention
services because Safehouse “plans to make a place
available for the purposes of reducing the harm of
drug use, administering medical care, encouraging
drug treatment, and connecting participants with social services,” and does not intend to make its facility
available “for the purpose of” facilitating unlawful
“drug use.” Id. at 141a.

Safehouse also asserted counterclaims seeking a declaration
that application of Section 856(a) to Safehouse would violate the
Commerce Clause of the U.S. Constitution by criminalizing entirely local, noncommercial activities and would violate the Religious Freedom and Restoration Act (RFRA), 42 U.S.C. § 2000bb
et seq., by subjecting Safehouse and its founders to criminal
penalties for exercising their sincerely held religious beliefs that
they have an obligation to do everything possible to preserve life
and to provide shelter and care to the vulnerable, including those
suffering from addiction. See Pet. App. 84a.
5

10
The parties stipulated to the facts material to the
district court’s decision on the pleadings and then
cross-moved for summary judgment. Id. at 69a.
b. The district court granted Safehouse’s motion
for a summary judgment and issued a declaratory
judgment in Safehouse’s favor. Id. at 68a-78a.6 As the
court explained, its prior analysis of the statute in its
memorandum opinion “applies with equal validity to
the expanded record.” Id. at 74a-75a. Based on that
analysis, the court concluded that Safehouse was entitled to judgment as a matter of law on its counterclaim concerning the proper interpretation of Section
856(a). Id. The court thus issued a declaration “that
the establishment and operation of [Safehouse’s] overdose prevention services model, including supervised
consumption in accordance with the parties’ stipulated facts, does not violate 21 U.S.C. § 856(a). Id. at
77a-78a ¶ 4 (citation omitted).
2. DOJ appealed this pure question of law—
whether Section 856(a) prohibits Safehouse’s proposed
overdose prevention services.
a. A divided three-judge panel of the court of appeals reversed. Pet. App. 1a-52a. In so doing, the majority’s interpretation of Section 856(a)(2) broadly expanded criminal liability under that provision. The
majority disagreed with the district court’s construction of the statute and held that the phrase “for the
purpose of ”—as used in paragraph (a)(2)—looks not to
the defendant’s purpose (i.e., that of Safehouse), but
rather, to the purpose of third parties (i.e., those who
Because the district court concluded that the CSA “does not
criminalize Safehouse’s proposed actions,” it dismissed without
prejudice Safehouse’s alternative counterclaim seeking the same
relief for violations of RFRA as moot. Pet. App. 70a n.1, 77a.
6

11
come to Safehouse for supervision and treatment). See
id. at 10a–14a. The majority explained that “[t]o get
a conviction under (a)(2), the government must show
only that the defendant’s tenant or visitor had a purpose to manufacture, distribute, or use drugs,” and the
defendant had knowledge of that fact. Id. at 10a (emphasis in original). Under that expansive view of the
“purpose” element of the statute, the majority held
that Safehouse’s supervised consumption services
would violate Section 856(a)(2), because those seeking
treatment will come to Safehouse with the purpose of
using illegal drugs. Id. at 18a–19a.
b. Judge Roth dissented. As she explained, the
majority’s interpretation of Section 856(a) is inconsistent with its text, purpose, and history, which is devoid of any reference to the purpose of any third party
and instead targets those who control and operate
property for the purpose of unlawful drug activity. Id.
at 31a–39a (Roth, J., dissenting). The majority’s contrary interpretation of the purpose requirement was
unprecedented, she observed, as neither DOJ nor the
majority “identified a single statute that criminalizes
otherwise innocent conduct—here, lawfully making
your property ‘available for use’—solely because of the
subjective thoughts of a third party not mentioned in
the statute.” Id. at 34a–35a. And “if Safehouse’s ‘purpose’ were the relevant standard,” Judge Roth reasoned, “Safehouse does not have the requisite purpose” and thus would not be violating Section 856(a)
by opening its overdose prevention site. Id. at 31a.
Judge Roth further explained various reasons why
the majority’s “construction also violates the ‘deeply
rooted rule of statutory construction’ that we must
avoid ‘unintended or absurd results.’” Id. at 39a (citations omitted). For instance, “under the majority’s

12
construction, parents could violate the statute by allowing their adult child suffering from addiction “to
live and do drugs in their home even if their only purpose in doing so was to rescue him from an overdose.”
Id. And “[t]he Majority would also criminalize homeless shelters where the operators know that their clients will use drugs on the property.” Id. at 42a. Relevant here, under the majority’s unreasonable view of
Section 856(a), Safehouse’s medical staff (or, for that
matter, loving parents and other family members, concerned roommates, dedicated social workers, or good
Samaritans) would be prohibited from furnishing
these crucial medical interventions at the time and
place they are required—the moment of consumption—and must instead force those suffering from addiction into the street and out of their sight and care
at that crucial moment. All of this is because “the government’s construction of the statute, adopted by the
Majority here, is intolerably sweeping.” Id. at 43a. By
contrast, “Safehouse’s construction avoids these absurd results.” Id. at 45a.
3. Safehouse filed a petition for rehearing en banc.
The court of appeals denied Safehouse’s petition, see
Pet. App. 54a, over the dissent of Judges McKee, Restrepo, and Roth. Id. at 55a-67a (McKee, J., dissenting from denial of rehearing en banc). Judge McKee’s
dissent disagreed with the panel majority’s interpretation of Section 856(a) and its application to
Safehouse, finding that the panel majority’s textual
reading was incorrect. While recognizing that “a court
must give effect to a statute’s unambiguous plain language,” Judge McKee critiqued the majority’s imposition of the non-textual limitation that “exclud[es]
criminal liability where drug use is ‘merely incidental’

13
to occupancy,” and thereby “read words into the statute that simply are not there in order to avoid the very
troubling consequences that naturally result from
their rigid insistence on a strictly literal interpretation.” Pet. App. 56a (internal quotation marks omitted).
Judge McKee opined “[e]ven if the Majority’s analysis is [correct], this declaratory judgment action is too
important to deny en banc review by the entire court,”
since it “will be studied by other jurisdictions around
the country where entities like Safehouse are considering similar therapeutic responses to the life-threatening opioid epidemic that is engulfing so many communities and destroying so many lives.” Id. at 55a.
REASONS FOR GRANTING THE WRIT
I. The Interpretation of Section 856(a) is of National and Paramount Importance in the
Midst of the Nation’s Opioid Crisis and a
Question on which Courts of Appeals Are Divided.
The nationwide opioid and overdose crises have led
to the loss of tens of thousands lives nationwide each
year—losses that have tragically increased with the
proliferation of fentanyl into the drug supply and with
the curtailment of services and treatment for those
suffering from addiction brought on by COVID-19. Recently released data by the Centers for Disease Control and Prevention (CDC) show that drug overdose
deaths reached a record high of 93,331 in 2020.7

See CDC, National Center for Health Statistics, Provisional
Drug Overdose Death Counts, https://www.cdc.gov/nchs/nvss/
vsrr/drug-overdose-data.htm#dashboard; see also Betsy McKay,
U.S. Drug-Overdose Deaths Soared Nearly 30% in 2020, Driven
7

14
To address these crises, state, local, and public
health leaders across the nation have moved to establish supervised consumption sites, like those
Safehouse proposes, to prevent overdose deaths in
their communities.8 This is an important measure
that would prevent overdose deaths, mitigate the
harms from the opioid epidemic, and encourage and
enable pathways to drug treatment.
But the court of appeals’ misreading and improper
extension of Section 856(a) would make it a federal
crime to do so. Intervention by this Court is warranted to make clear that the federal law does not
criminalize this essential public health and medical
intervention designed to save lives from preventable
overdose death.
The district court was the first in the country to address the specific question of whether Section 856(a)
prohibits the establishment of a medically supervised
consumption site. Of the six federal judges who have
opined on whether Section 856(a) prohibits supervised
consumption services, only two have determined that
the supervised consumption services proposed by
Safehouse are illegal, while four would have held that
they are not. Given this stark disagreement among
by Synthetic Opioids, Wall Street Journal (July 14, 2021),
https://tinyurl.com/pervh3fr.
Amicus briefs filed by 8 State Attorneys General and 14 municipalities underscore the national interest in employing supervised consumption services to prevent overdose death. See, e.g.,
Brief for State Attorneys General, United States v. Safehouse,
985 F.3d. 225 (2021) (Dkt. No. 165); Brief for Fourteen Cities and
Counties, United States v. Safehouse, 985 F.3d. 225 (2021) (Dkt.
No. 168); see also RI Gen. L. § 23-12.10-1 (2021) https://tinyurl.com/p2a4n3sw (newly enacted Harm Reduction Center Advisory Committee and Pilot Program).
8

15
respected and reasonable jurists as to the proper interpretation of Section 856(a)—and given the critical
importance of the issues raised in this proceeding—review by this Court is warranted to clarify the interpretation of Section 856(a) and its application to
Safehouse’s proposed overdose prevention services
and comparable services that are being proposed
across the nation.
But the court of appeals also created a broader division regarding the scope of Section 856(a)(2). By misinterpreting Section 856(a)(2)’s purpose element to depend on third party’s subjective intentions and by establishing a new, undefined standard for the prevalence of others’ drug use sufficient to trigger criminal
liability, the court of appeals introduced grave uncertainty as to when property owners could be penalized
under that statute and put itself at odds with the
standard for liability established by its sister circuits.
Under the court of appeals’ interpretation of Section
856(a)(2), the boundary between lawful and criminal
conduct is hopelessly confused and will be judged differently depending on the circuit court.
In contrast to the Third Circuit, other circuits uniformly have held that knowledge or participation in
“casual” or “personal” consumption of drugs is insufficient to establish Section 856 liability; rather, the prohibited purpose must be the primary purpose (or “significant purpose,” as the District Court concluded) to
which the property is put. Unlike the court of appeals’
majority, which had to read in a stand-alone “incidental” use exception into the statute when none textually appears, other courts of appeals have found a
proper limitation on criminal liability embedded in the
statutory requirement that the putative defendant
bear the illicit purpose. Because the court of appeals

16
incorrectly found that it is third-party visitors’ purpose that controls, it read in an “incidental” use exception to avoid the absurd results that its interpretation
would otherwise entail. By creating a separate, undefined standard for “incidental” use divorced from the
defendant’s own purpose, the court of appeals departs
from the interpretation advanced in the other circuits
in a manner that introduces confusion and uncertainty into the law.
For example, the D.C. Circuit starkly stated that, in
light of Section 856(a)’s limitation to open or maintain
“any place for the purpose of manufacturing, distributing, or using controlled substances,” that the statute
“cannot reasonably be construed . . . to criminalize
simple consumption of drugs in one’s home.” United
States v. Lancaster, 968 F.2d 1250, 1253 (1992).
In United States v. Verners, 53 F.3d 291 (1995), the
Tenth Circuit likewise held that “manufacturing, distributing, or using drugs must be more than a mere
collateral purpose,” and “[t]hus, ‘the casual’ drug user
does not run afoul of this prohibition because he does
not maintain his house for the purpose of using drugs
but rather for the purpose of residence, the consumption of drugs therein being merely incidental to that
purpose.” Id. at 296 (quoting Lancaster, 968 F.2d at
1253).
The Ninth Circuit similarly found—based on “the
statutory language, which proscribes only those drug
activities that are ‘the purpose’ to which the property
is put”—that “in the residential context, the manufacture (or distribution or use) of drugs must be at least
one of the primary or principal uses.” United States v.
Shetler, 665 F.3d 1150, 1162 (2011) (quoting Verners,
53 F.3d at 296) (emphasis original); see also United

17
States v. Russell, 595 F.3d 633, 642–43 (6th Cir. 2010)
(noting uniformity of circuit law to exclude personal
use of drugs from Section 856(a) and holding that “the
defendant’s drug-related purpose for maintaining a
premises be ‘significant or important’”); United States
v. Church, 970 F.2d 401, 406 (7th Cir. 1992) (assuming
that “casual drug users” do not risk violating 856”).
While these cases involved residential use, the cabining of Section 856(a) liability should apply a fortiori
to simple drug use that occurs at a medical and public
health facility for the purpose of providing essential
and urgent medical care. In fact, throughout this litigation, DOJ has not identified a single prior prosecution under Section 856(a) involving owners who make
their property available with knowledge only that
drug “use” will occur on the premises. Pet. App. 129a
n.39. And although the court of appeals recognized
these rulings, the outcome of its decision cannot be
reconciled with the decisions from its sister circuits
that simple possession of drugs at a premises does not
subject the property owner to liability under Section
856(a) because it fails to meet the purpose element.
The conflict over the meaning of Section 856(a) has
significant consequences: People convicted under Section 856(a) can face up to twenty years in prison or a $2
million fine. 21 U.S.C. § 856(b). Meanwhile, simple
possession of drugs is a seldom-prosecuted federal misdemeanor, and “use” alone is not defined as a crime in
the CSA. See, e.g., 21 U.S.C. § 844. The statute was
never intended to impose these harsh punishments on
innocent and altruistic actors such as Safehouse. But
the court of appeals’ decision does just that, whereas
other circuits would find simple possession of drugs at
a property insufficient to establish Section 856(a) liability.

18
II. The Court of Appeals’ Interpretation of Section 856(a) Is Inconsistent with Its Text, Purpose, and History.
The interpretation of Section 856(a) adopted by the
court of appeals is not supported by the statutory text,
settled canons of statutory interpretation, its history,
or Congressional purpose. That is demonstrated in
the three opinions issued below rejecting that interpretation—the district court’s opinion, the dissent’s
opinion, and opinion sur denial of rehearing. See Pet.
App. 31a-52a, 54a-67a, 79a-151a.
A. Section 856(a)’s Text and Structure
Demonstrate that Criminal Liability Only
Applies Where the Defendant, Not a ThirdParty Visitor, Acts with Unlawful Purpose.
Since it is unlawful under both Section 856(a)(1) and
(a)(2) to maintain or make available a “place . . . for
the purpose of . . . using a controlled substance,” interpreting the term “purpose” is critical. “Purpose”
means “one’s objective, goal, or end,” as the district
court and court of appeals explained. Pet. App. 18a
(quoting Purpose, Black’s Law Dictionary (11th ed.
2019)); see id. at 125a–126a (citing dictionary definitions). The purpose for which a place is opened, maintained, or made available refers to the objective of such
activity, not the means by which that objective is
achieved. See Kelly v. United States, 140 S. Ct. 1565,
1573 & n.2 (2020) (distinguishing between “the objective of the [deceitful] scheme” and a “byproduct of it”).
Applying that straightforward interpretation of Section 856(a)’s text, Safehouse—and similar overdose
prevention services—will operate “for the purpose of”
providing necessary, urgent, lifesaving medical care

19
and treatment to people with opioid and substance use
disorder, not to facilitate the unlawful use of drugs.
But the court of appeals’ decision makes Safehouse’s
purpose in opening the facility irrelevant under its incorrect reading of Section 856(a)(2). What matters under the court of appeals’ reasoning is not Safehouse’s
purpose, but rather, the purpose of people that come
to Safehouse’s overdose prevention site seeking treatment and medical supervision. Pet. App. 10a–14a.
The court of appeals’ interpretation was based on the
incorrect premise that Safehouse would violate the
statute because Safehouse would know its participants unlawfully use controlled substances in its facility. That conflates the potential criminal liability of
people who use drugs (who may come to Safehouse in
possession of small quantities of drugs obtained before
their arrival), with the entirely legal, and indeed vital,
medical services proposed by Safehouse and its staff.
This is incorrect under the plain language of the
statute. As the district court rightly noted, “[a]t no
point has the Government presented a compelling textual reason why the structure of (a)(2) dictates that
the purpose requirement must refer to the purpose of
the third party.” Id. at 102a n.14. Indeed, Section
856(a) is devoid of any reference to the purpose of any
third party (i.e., a Safehouse participant). Id. at 31a
(Roth, J., dissenting). And it would not make sense for
a putative defendant’s serious criminal liability to
hinge on a third party’s mental state and motivations.
Id. at 34a–37a.
The court of appeals’ reading also rests on the counter-textual premise that the phrase “place for the purpose” should be given an entirely different and far
more expansive meaning in Section 856(a)(2) than in

20
Section 856(a)(1). But both subsections 856(a)(1) and
(a)(2) use the identical phrase “for the purpose of” in
the same manner. And the court of appeals opinion
acknowledged that, as used in Section 856(a)(1), “for
the purpose of” refers to the defendant’s state of mind.
Pet. App. 11a. But the court read precisely the same
phrasing and structure in Section 856(a)(2) entirely
differently to instead depend on the purpose of unknown third parties, i.e., the purpose of the people who
will use Safehouse’s overdose prevention facility. Id.
at 11a–14a. This violates the basic tenet of statutory
interpretation that a word or phrase in a statute is
presumed to bear the same meaning throughout the
statutory text. See id. at 34a (Roth, J., dissenting); id.
at 105a; Antonin Scalia & Bryan A. Garner, Reading
Law 170 (2012); see, e.g., Sullivan v. Stroop, 496 U.S.
478, 484–85 (1990).
Courts that have made this interpretive mistake
have done so to avoid purported surplusage that does
not exist. But avoidance of surplusage does not support the court of appeals’ reading because Section
856(a)(1) and 856(a)(2) prohibit different activities.
Section 856(a)(1) targets those who “open,” “lease,”
rent,” “use” or “maintain,” property, i.e., typically the
non-owner operator of the property; whereas Section
856(a)(2) targets those who “manage or control any
place” and who then “rent, lease, profit from, or make
available for use” the property, i.e., typically the owner
landlord or manager. Pet. Appx 34.9 Cf. United States
v. Chen, 913 F.2d 183, 190 (5th Cir. 1990).

In (a)(1), noscitur a sociis suggests that “rent” and “lease” are
used to refer to the actions of a tenant, while in (a)(2) those same
ambiguous terms are used to refer to the actions of a landlord.
Thus, there is no redundancy. The declaratory judgment action
9

21
The court of appeals’ interpretation of Section 856(a)
would result in a dramatic expansion of criminal liability that is not faithful to its statutory text or structure. It puts at risk of federal criminal liability an indeterminate array of non-commercial property owners
who know of a guest's “purpose” to use drugs. Cf. Van
Buren v. United States, 141 S. Ct. 1648, 1661 (2021)
(“[T]he Government’s interpretation of the statute
would attach criminal penalties to a breathtaking
amount of commonplace computer activity . . . the fallout underscores the implausibility of the Government’s interpretation.”).
B. The History of Section 856(a) Shows No
Congressional Intent to Regulate Public
Health Facilities Like Safehouse.
Legislative evidence confirms that Congress intended Section 856(a) to impose liability on landlords
or property-owners who make their properties available for unlawful purposes, and never contemplated its
application to an overdose prevention site—or any
similar public health facility. Pet. App. 80a–81a;
134a–141a; see id. at 60a (McKee, J., dissenting from
denial of rehearing en banc). Although this “focus on
making places available for such illicit purposes does
not limit the provision’s applicability to only crack
houses and raves”—as the district court recognized—
“it does caution against extending the statute too far
beyond similar circumstances.” Id. at 140a.

underlying this petition, however, did not turn on an understanding that Safehouse would “rent” or “lease” in either sense, but
rather that it would “manage or control” a facility and “make [it]
available for use” that the government contended had an unlawful “purpose.”

22
Congress enacted Section 856 to target “crack
houses,” promoters of drug-fueled “raves,” and other
predatory actors and promoters of drug activity—not
to criminalize the services proposed by Safehouse designed to prevent overdose death, stop drug use, and
mitigate its harms. Id. at 95a (explaining that “[t]he
impetus for § 856(a) initially was a concern about
crack houses, and a similar concern about drug-fueled
raves motivated the 2003 amendment”); see id. (quoting statement of Senator Chiles, 132 Cong. Rec. 26474
(1986), that Congress enacted Section 856(a) to “[o]utlaw operation of houses or buildings, so-called ‘crack
houses’, where ‘crack’, cocaine and other drugs are
manufactured and used”). Congress never contemplated that Section 856(a) would be used to prosecute
property owners and operators based on the acts of
third parties, much less overdose prevention services,
or any comparable medical or public-health intervention designed to save lives by reducing the harms of
the opioid epidemic.
As then-Senator Joseph R. Biden stated during the
floor debates on his proposed 2003 amendments to
Section 856(a): “Let me be clear. Neither current law
nor my bill seeks to punish a promotor for the behavior
of their patrons.” Id. at 34a (Roth, J., dissenting)
(quoting 149 Cong. Rec. 1678). He further explained
that the “bill would help in the prosecution of rogue
promoters who not only know that there is drug use at
their event but also hold the event for the purpose of
illegal drug use or distribution. That is quite a high
bar.” Id. at 105a–106a (quoting 149 Cong. Rec. 9384
(daily ed. Jan. 28, 2003) (emphasis added)).
During the debates over the 2003 Amendment, Senator Charles E. Grassley stressed that the target of the
legislation was events where drugs are sold, but

23
pointed specifically “to drug reduction efforts as an example of conduct that would be inconsistent with criminal intent.” Id. at 137a (citing 149 Cong. Rec. 1849
(2003)) (emphasis added). Those statements quelled
concerns “about the Government using the existing
crack house statue, or any expanded version, to pursue
legitimate business owners.” Id. at 116a–117a & n.29.
“To read § 856(a)(2) to apply to medical purposes and
efforts to combat drug abuse would take the statute
well beyond what it aimed to criminalize.” Id. at 141a.
C. The Court of Appeals Failed to Consider
Lenity and the Clear Statement Rule, Resulting in Unintended Criminalization of
Those that Operate Facilities Serving People Suffering from Addiction.
The Court need not look beyond the text of Section
856(a) to conclude that Safehouse’s overdose prevention model would not violate that statute. But even if
the court of appeals’ strained interpretation of Section
856(a)(2) were plausible, ambiguity in its scope should
have been resolved against criminalization of
Safehouse’s overdose prevention services. That is because criminal law requires clear statements and does
not “default to criminalization.” Pet. App. 146a (citing
cases); see, e.g., Jones v. United States, 529 U.S. 848,
850 (2000); Solid Waste Agency v. U.S. Army Corps of
Eng’rs, 531 U.S. 159, 172–73 (2001). As Judge Roth
explained in dissent, the statute is “nearly incomprehensible”; even the then-U.S. Attorney for the Eastern
District of Pennsylvania conceded at argument that it
is “poorly written.” Id. at 34a (Roth, J., dissenting).
The ambiguities in Section 856 are thus “grievous.”
Ocasio v. United States, 136 S. Ct. 1423, 1434 & n.8
(2016). Ignoring that “legislatures and not courts
should define criminal activity,” see United States v.

24
Bass, 404 U.S. 336, 348 (1971), the majority incorrectly defaulted to the broadest possible reading of the
statute.
“Under a long line of [Supreme Court] decisions, the
tie must go to the defendant.” United States v. Santos,
553 U.S. 507, 514–15 (2008) (Scalia, J.) (plurality opinion) (emphasis added); see, e.g., Burrage v. United
States, 571 U.S. 204, 216 (2014); Adamo Wrecking Co.
v. United States, 434 U.S. 275, 285 (1978); United
States v. Universal C. I. T. Credit Corp., 344 U.S. 218,
221–22 (1952). The law neither “default[s] to criminalization” nor requires “Congress to clarify when it
wishes not to incarcerate citizens.” Pet. App. 146a
(emphasis added).
Ignoring these bedrock principles, the court of appeals’ interpretation eviscerates the intended boundaries of the statute and would criminalize the operation
of legitimate businesses, charities, families, and good
Samaritans that serve and reside with those suffering
from addiction. For example, the court of appeals
simply assumed that good actors like homeless shelters and parents will not be punished under its expanded view of Section 856(a) because “[t]he drug use
in homes or shelters would be incidental to living
there.” Id. at 19a; but see id. at 42a (Roth, J., dissenting). But its finding that Safehouse would violate the
statute based only on individual acts of simple possession and use by those seeking medical supervision and
treatment renders the line between “incidental” drug
use at a property (no liability for the property owner)
and something more significant (a 20-year felony)
hopelessly unclear. As Judge Roth explained:
The Majority assumes that the son’s purpose in moving in with his parents was to

25
use the home as a residence. Not necessarily.
Although the parents likely
“maintain” their home for the purpose of
living in it, their son may be motivated
by many purposes to “use” it. If the son
could not do drugs there, would he still
move in? . . . Or suppose the son intended
to do drugs there once, steal his mother’s
jewelry and run away. If the parents
were reasonably sure he would run away
but gave him a chance anyway, have they
violated the statute . . . ? The Majority’s
construction suggests so, particularly if
this was the son’s second or third chance.
Id. at 41a (Roth, J., dissenting). The example of homeless shelters poses the same problem:
An operator of a homeless shelter may
know (or be deliberately ignorant of the
fact) that some clients will stay at the
shelter because they want a concealed
place to use drugs and to sleep off the
high. In other words, if they were prevented from using drugs there, some of
them might not go there at all.
Id. at 42a. In fact, the U.S. Department of Housing
and Urban Development’s guidance for its “Housing
First” program, which funds housing for current substance users, advises that its grant recipients “do not
consider . . . drug use in and of itself to be lease violations” and advises that, even if a property managers
knows they house people who are actively using drugs
in such locations, they should not be evicted “unless
such use results in disturbances to neighbors or is as-

26
sociated with illegal activity (e.g. selling illegal substance).” Id. at 43a (quoting HUD, Housing First in
Permanent Supportive Housing (July 2014),
https://bit.ly/3ievCzs (emphasis added)). The court of
appeals’ opinion is difficult to square with this federal
program guidance.
Underscoring these ambiguities, at oral argument
before both the district court and the court of appeals,
the then–U.S. Attorney for the Eastern District of
Pennsylvania could not provide coherent or consistent
answers as to whether the statute would apply to such
everyday scenarios that parents, business owners, social service providers, and medical providers will face.
See, e.g., id. at 42a-43a. Yet the court of appeals
adopted DOJ’s untenable and expansive view of Section 856(a).
III. The Court of Appeals Should Have Interpreted Section 856(a) to Avoid the Federalism
and Commerce Clause Concerns Posed By
Federal Regulation of Local, Non-Commercial Public Health Interventions.
The refusal of the court below to interpret Section
856(a) narrowly raises constitutional and federalism
concerns relating to the exercise of federal Commerce
Clause authority to regulate a non-commercial, entirely local medical intervention. These provide additional reasons for this Court to grant the petition and
consider the exceptionally important issues presented
in this case.
The court of appeals’ expansive interpretation of
Section 856(a) would exceed the constitutional limits
on Congress’s Commerce Clause authority, which does
not permit Congress to adopt freestanding regulation

27
of Safehouse’s free medical and public health services—entirely local activities that would not increase
the interstate market for controlled substances and
which fall within the traditional province of state and
local police powers.
According to the court of appeals, by enacting Section 856(a), Congress criminalized every local property owner who has “knowledge” that drugs are used
on her premises and rendered it a felony to provide local medical services to prevent those visitors from
overdosing on those drugs. Principles of federalism
weigh against interpreting Congress’s Commerce
Clause authority in a manner that converts it into a
“general police power of the sort retained by the
states.” United States v. Lopez, 514 U.S. 549, 567
(1995); see United States v. Morrison, 529 U.S. 598,
618–19 (2000). Although “[t]he States have broad authority to enact legislation for the public good”
through their “police power,” the “Federal Government, by contrast, has no such authority.” Bond v.
United States, 572 U.S. 844, 854 (2014); see Gonzales
v. Oregon, 546 U.S. 243, 270 (2006). “[T]he regulation
of health and safety matters is primarily, and historically, a matter of local concern.” Hillsborough Cty. v.
Automated Med. Labs., Inc., 471 U.S. 707, 719 (1985);
see Oregon, 546 U.S. at 271–72.
Section 856 lacks any jurisdictional element limiting
the reach of the law to a discrete set of activities that
affect interstate commerce. And making a property
available on an entirely local, non-commercial basis
for drug “use” is not part of an economic class of activities that have a substantial effect on interstate commerce—even when viewed in the aggregate. See 21
U.S.C. § 801(3)–(6) (Congressional findings that local

28
manufacture, distribution, and possession may affect
commerce, but not mentioning drug “use”). Any “link
between” that conduct and “interstate commerce”
(Morrison, 529 U.S. at 612), can be imagined only by
creating a speculative chain of contingencies and
“pil[ing] inference upon inference.” Lopez, 514 U.S. at
567.
This Court’s decision in Gonzales v. Raich, 545 U.S.
1 (2005), does not foreclose consideration of these substantial Commerce Clause concerns. In Raich, the
Court held that the CSA’s prohibitions on intrastate
possession and manufacture of marijuana constituted
a valid exercise of congressional authority. This Court
has repeatedly stressed since Raich that its holding
depended on Congress’s judgment that prohibiting intrastate possession and manufacture of marijuana
would affect the national market for marijuana. See,
e.g., Taylor v. United States, 136 S. Ct. 2074, 2077–78
(2016); Nat’l Fed’n of Indep. Bus. v. Sebelius, 567 U.S.
519, 560–61 (2012) (Roberts, C.J.).10 Congress made
no such findings with respect to simple drug “use.” 21
U.S.C. § 801(3)–(6).
Cf. Standing Akimbo, LLC v. United States, 141 S. Ct. 2236,
2238 (2021) (Thomas, J., respecting denial of certiorari) (“Suffice
it to say, the Federal Government’s current approach to marijuana bears little resemblance to the watertight nationwide prohibition that a closely divided Court found necessary to justify the
Government's blanket prohibition in Raich. If the Government is
now content to allow States to act “as laboratories” “‘and try novel
social and economic experiments,’” Raich, 545 U.S. at 42, (O’Connor, J., dissenting), then it might no longer have authority to intrude on “[t]he States’ core police powers ... to define criminal law
and to protect the health, safety, and welfare of their citizens.”
Ibid. A prohibition on intrastate use or cultivation of marijuana
may no longer be necessary or proper to support the Federal Government’s piecemeal approach.”).
10

29
In addition, like the non-commercial possession of
weapons in Lopez, Section 856(a) is “not an essential
part of a larger regulation of economic activity, in
which the regulatory scheme could be undercut unless
the intrastate activity were regulated.” Raich, 545
U.S. at 24 (quoting Lopez, 514 U.S. at 561). Rather,
Section 856(a) regulates the use of property; it is a single-subject statutory provision with a non-economic
objective removed from the core of the CSA’s broader
regulatory regime. DOJ has not identified a single
prior prosecution under Section 856 of owners who
make their property available with knowledge that
“use” will occur on the premises. It is therefore difficult to conclude that such a construction is “an essential part” of the CSA. Id. And were this Court “to
adopt the Government’s expansive interpretation” of
Section 856(a), “hardly a building in the land would
fall outside the federal statute’s domain.” Jones, 526
U.S. at 241.
The court of appeals should have accorded weight to
these constitutional question and federalism concerns
by adopting the construction of Section 856(a) urged
by Safehouse. See, e.g., Kelly, 140 S. Ct. at 1573; Bond,
572 U.S. at 858–59; Oregon, 546 U.S. at 270.
IV. This Case is an Ideal Vehicle to Resolve this
Question, Which Warrants this Court’s Immediate Attention.
Because this case is a declaratory judgment action
resolved on stipulated and undisputed facts, it presents a pure question of law for this Court to resolve
the confusion and conflict over the scope of Section
856(a) and decide its application to overdose prevention sites that seek to offer supervised consumption

30
services. This case is therefore an ideal vehicle to decide the important question presented.
That the court below, after reversing the declaratory
judgment, remanded to allow litigation of the petitioners’ conditionally dismissed RFRA claim does not
make the case in its present posture any less suitable
for immediate review. Safehouse intends to pursue its
rights to advance its religious beliefs that it should do
everything possible to preserve life and take care of
those suffering from addiction. Nonetheless, now is
the time for this Court’s intervention.
States, cities, public health entities like Safehouse,
and caring good Samaritans are seeking to take action
to stop the preventable loss of life from the opioid crisis
that relentlessly continues. Public health and medical
experts, including those who founded and guide
Safehouse, predict that supervised consumption services can help save lives. Meanwhile, although Congress evinced no intent to regulate this public health
intervention, the court of appeals’ decision bars
Safehouse and others from proceeding. This Court
should not wait; it should grant the petition and correct the court of appeals’ fundamental misinterpretation of federal criminal law.

31
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
Ronda B. Goldfein
Yolanda French Lollis
Adrian M. Lowe
Jacob M. Eden
AIDS LAW PROJECT OF
PENNSYLVANIA
1211 Chestnut St.,
Ste. 600
Philadelphia, PA 19107
(215) 587-9377
Seth F. Kreimer
3501 Sansom St.
Philadelphia, PA 19104
(215) 898-7447

Ilana H. Eisenstein
Counsel of Record
Courtney G. Saleski
Ben C. Fabens-Lassen
DLA PIPER LLP (US)
1650 Market St.,
Ste. 5000
Philadelphia, PA 19103
(215) 656-3300
Ilana.Eisenstein
@dlapiper.com
Peter Goldberger
LAW OFFICE OF PETER
GOLDBERGER
50 Rittenhouse Place
Ardmore, PA 19003
(610) 649-8200

Counsel for Petitioner
AUGUST 23, 2021

APPENDIX

TABLE OF CONTENTS
Appendix A:

Court of appeals opinion,
Jan. 12, 2021 ..................................... 1a

Appendix B:

Court of appeals order,
Mar. 24, 2021 .................................. 53a

Appendix C:

District court memorandum
opinion,
Feb. 25, 2020 ................................... 68a

Appendix D: District court order granting
summary judgment,
Feb. 25, 2020 ................................... 76a
Appendix E:

District court memorandum
opinion,
Oct. 2, 2019 ..................................... 79a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-1422
UNITED STATES OF AMERICA
v.
SAFEHOUSE, a Pennsylvania nonprofit corporation;
JOSÉ BENITEZ, as President and Treasurer of
Safehouse
*******************
SAFEHOUSE, a Pennsylvania nonprofit corporation
v.
U.S. DEPARTMENT OF JUSTICE;
WILLIAM P. BARR, in his official capacity
as Attorney General of the United States; and
WILLIAM M. MCSWAIN, in his official capacity as
U.S. Attorney for the Eastern District of
Pennsylvania
United States of America, U.S. Department of
Justice, United States Attorney General William P.
Barr, and the United States Attorney for the Eastern
District of Pennsylvania William M. McSwain,
Appellants

(1a)

2a

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. No. 2:19-cv-00519)
District Judge: Honorable Gerald A. McHugh
Argued: November 16, 2020
Before: AMBRO, BIBAS, and ROTH, Circuit Judges
(Filed: January 12, 2021)
OPINION OF THE COURT
BIBAS, Circuit Judge.

Though the opioid crisis may call for innovative solutions, local innovations may not break federal law.
Drug users die every day of overdoses. So Safehouse, a
nonprofit, wants to open America’s first safe-injection
site in Philadelphia. It favors a public-health response
to drug addiction, with medical staff trained to observe
drug use, counteract overdoses, and offer treatment.
Its motives are admirable. But Congress has made it a
crime to open a property to others to use drugs. 21
U.S.C. § 856. And that is what Safehouse will do.
Because Safehouse knows and intends that its visitors will come with a significant purpose of doing
drugs, its safe-injection site will break the law. Although Congress passed § 856 to shut down crack
houses, its words reach well beyond them. Safehouse’s
benevolent motive makes no difference. And even
though this drug use will happen locally and

3a
Safehouse will welcome visitors for free, its safe-injection site falls within Congress’s power to ban interstate commerce in drugs.
Safehouse admirably seeks to save lives. And many
Americans think that federal drug laws should move
away from law enforcement toward harm reduction.
But courts are not arbiters of policy. We must apply the
laws as written. If the laws are unwise, Safehouse and
its supporters can lobby Congress tocarve out an exception. Because we cannot do that, we will reverse
and remand.
I. BACKGROUND
A. The federal drug laws
Drug addiction poses grave social problems. The opioid crisis has made things worse: more than a hundred
Americans die every day of an overdose. Dep’t of Health
& Human Servs., Office of the Surgeon General, Facing
Addiction in America: The Surgeon General’s Spotlight
on Opioids 1 (2018). People of good will disagree about
how to tackle these enormous problems. Lawmakers
and prosecutors have traditionally used criminal prosecution to try to stem the flow, targeting the supply and
hoping to curb demand. Others emphasize getting users into rehab. Harm-reduction proponents favor treating drug users without requiring them to abstain first.
Still others favor decriminalizing or even legalizing
drugs. There is no consensus and no easy answer.
But our focus is on what Congress has done, not
what it should do. Congress has long recognized that
illegal drugs “substantial[ly]” harm “the health and
general welfare of the American people.” 21 U.S.C. §
801(2). Indeed, half a century ago, Congress tackled
this national problem by consolidating scattered drug

4a
laws into a single scheme: the Comprehensive Drug
Abuse Prevention and Control Act of 1970. Pub. L. 91513, 84 Stat. 1236 (codified as amended at 21 U.S.C.
§§ 801– 971); see Gonzales v. Raich, 545 U.S. 1, 10–12
(2005). To this day, this scheme governs the federal approach to illegal drugs. Title II of that law, the Controlled Substances Act, broadly regulates illegal drugs.
The Act spells out many crimes. A person may not
make, distribute, or sell drugs. 21 U.S.C. § 841. He may
not possess them. § 844. He may not take part in a drug
ring. § 848. He may not sell drug paraphernalia. § 863.
He may not conspire to do any of these banned activities. § 846. And he may not own or maintain a “druginvolved premises”: a place for using, sharing, or producing drugs. § 856.
This last crime—the one at issue—was added later.
At first, the Act said nothing about people who opened
their property for drug activity. Then, the 1980s saw
the rise of crack houses: apartments or houses (often
abandoned) where people got together to buy, sell, use,
or even cook drugs. See United States v. Lancaster, 968
F.2d 1250, 1254 n.3 (D.C. Cir. 1992). These “very dirty
and unkempt” houses blighted their neighborhoods,
attracting a stream of unsavory characters at all
hours. Id. But it was hard to shut crack houses down.
To go after owners, police and prosecutors tried to cobble together conspiracy and distribution charges. See,
e.g., United States v. Jefferson, 714 F.2d 689, 691–92
(7th Cir. 1983), vacated on other grounds, 474 U.S. 806
(1985). But no law targeted the owner or maintainer of
the premises.
To plug this gap, Congress added a new crime: 21
U.S.C. § 856. Anti-Drug Abuse Act of 1986, Pub. L. No.
99-570, § 1841, 100 Stat. 3207, 3207–52. This law
banned running a place for the purpose of

5a
manufacturing, selling, or using drugs. Congress later
extended this crime to reach even temporary drug
premises and retitled it from “Establishment of manufacturing operations” to “Maintaining drug-involved
premises.” Compare 21 U.S.C. § 856(a) & caption
(2003) with 21 U.S.C. § 856(a) & caption (1986). After
all, the statute covers much more than manufacturing
drugs.
B. Safehouse’s safe-injection site
The parties have stipulated to the key facts:
Safehouse wants to try a new approach to combat the
opioid crisis. It plans to open the country’s first safeinjection site. Safehouse is headed by José Benitez,
who also runs Prevention Point Philadelphia. Like
Prevention Point and other sites, Safehouse will care
for wounds, offer drug treatment and counseling, refer
people to social services, distribute overdose-reversal
kits, and exchange used syringes for clean ones.
But unlike other sites, Safehouse will also feature
a consumption room. Drug users may go there to inject
themselves with illegal drugs, including heroin and
fentanyl. The consumption room is what will make
Safehouse unique—and legally vulnerable.
When a drug user visits the consumption room, a
Safehouse staffer will give him a clean syringe as well
as strips to test drugs for contaminants. Staffers may
advise him on sterile injection techniques but will not
provide, dispense, or administer any controlled drugs.
The user must get his drugs before he arrives and bring
them to Safehouse; he may not share or trade them on
the premises. The drugs he consumes will be his own.
After he uses them, Safehouse staffers will watch
him for signs of overdose. If needed, they will

6a
intervene with medical care, including respiratory
support and overdose-reversal agents. Next, in an observation room, counselors will refer the visitor to social services and encourage drug treatment.
Safehouse hopes to save lives by preventing diseases, counteracting drug overdoses, and encouraging
drug treatment. It believes that visitors are more likely
to accept counseling and medical care “after they have
consumed drugs and are not experiencing withdrawal
symptoms.” App. 685.
C. Procedural history
The Government sought a declaratory judgment
that Safehouse’s consumption room would violate
§ 856(a)(2). Safehouse counterclaimed for a declaratory judgment that it would not and that applying the
statute to Safehouse would violate either the Commerce Clause or the Religious Freedom Restoration
Act (RFRA). U.S. Const. art. I, § 8, cl. 3; 42 U.S.C.
§§ 2000bb–2000bb-3.
The Government moved for judgment on the pleadings, and the District Court denied the motion. It held
that § 856(a)(2) does not apply to Safehouse’s proposed
consumption room. United States v. Safehouse, 408 F.
Supp. 3d 583, 587 (E.D. Pa. 2019). Rather, it held that
someone violates § 856(a)(2) only if his purpose is for
others to manufacture, distribute, or use illegal drugs
on the premises. Id. at 595, 605. And it found that
Safehouse’s purpose was to offer medical care, encourage treatment, and save lives, not to facilitate drug use.
Id. at 614. Because the statute did not apply, the court
did not need to reach Safehouse’s Commerce Clause or
RFRA defenses. After the parties stipulated to a set of
facts, the court entered a final declaratory judgment for
Safehouse. The Government now appeals. On appeal,

7a
Safehouse renews its Commerce Clause defense but
reserves its RFRA defense for remand.
We have jurisdiction to hear this appeal. The District Court’s declaratory judgment has “the force and
effect of a final judgment.” 28 U.S.C. § 2201. “Once [the]
district court has ruled on all of the issues submitted to
it, either deciding them or declining to do so, the declaratory judgment is complete, final, and appealable.”
Henglein v. Colt Indus. Operating Corp., 260 F.3d 201,
211 (3d Cir. 2001). So it does not matter that the court
did not reach the affirmative defenses. We review the
court’s reading of the statute and application of the
statute to Safehouse de novo. Rotkiske v. Klemm, 890
F.3d 422, 424 n.2 (3d Cir. 2018) (en banc), aff’d, 140 S.
Ct. 355 (2019).
II. SAFEHOUSE WILL VIOLATE 21 U.S.C.
§ 856(A)(2) BY KNOWINGLY AND DELIBERATELY LETTING VISITORS USE DRUGS
Section 856(a)(2) makes it illegal to “manage or
control” a property and then “knowingly and intentionally” open it to visitors “for the purpose of . . . using
a controlled substance”:
(a) Unlawful acts
Except as authorized by this subchapter, it shall be
unlawful to—
(1) knowingly open, lease, rent, use, or maintain any place, whether permanently or
temporarily, for the purpose of manufacturing, distributing, or using any controlled
substance; 
(2) manage or control any place, whether permanently or temporarily, either as an owner,

8a
lessee, agent, employee, occupant, or mortgagee, and knowingly and intentionally rent,
lease, profit from, or make available for use,
with or without compensation, the place for
the purpose of unlawfully manufacturing,
storing, distributing, or using a controlled
substance.
21 U.S.C. § 856(a) (emphasis added). This case turns on
how to construe and apply §856(a)(2)’s last phrase: “for
the purpose of … .” Safehouse insists that, to violate that
paragraph, Safehouse itself would need to have the purpose that its visitors use drugs. The Government disagrees. It argues that only the visitors need that purpose;
Safehouse just needs to intentionally open its facility to
visitors it knows will use drugs there.
We agree with the Government. To break the law,
Safehouse need only “knowingly and intentionally”
open its site to visitors who come “for the purpose of . . .
using” drugs. The text of the statute focuses on the third
party’s purpose, not the defendant’s. Even if we read
paragraph (a)(2) as Safehouse does, its purpose is that
the visitors use drugs. That is enough to violate paragraph (a)(2).
A. Under §856(a)(2), the defendant must
knowingly and deliberately let another
person use his property for drug activity.
Before getting to the disputed requirement of “purpose,” we must first discuss the statute’s two other mental states, neither of which is really in dispute. To violate (a)(2), a defendant must “knowingly and intentionally . . . make [his property] available for use” by a third
party for that person’s illegal drug use. The first two
phrases of (a)(2) focus on the voluntary conduct or

9a
knowledge of the defendant. The first phrase requires
the defendant to “manage or control [a] place.” And the
second phrase requires the defendant to “knowingly
and intentionally rent, lease, profit from, or make [the
place] available for use” for illegal drug activity. The adverbs “knowingly” and “intentionally” introduce this
second phrase, modifying the defend-ant’s making the
place available to a third party. In practice, this means
three things.
First, the defendant must know that other(s) are or
will be manufacturing, storing, distributing, or using
drugs on his property. See United States v. Barbosa,
271 F.3d 438, 457–58 (3d Cir. 2001). For instance, the
owner of a building cannot be prosecuted if he does not
know that others are selling drugs out of his building.
But the defendant cannot just turn a blind eye to rampant drug activity. See United States v. Ramsey, 406
F.3d 426, 431–32 (7th Cir. 2005). Other courts hold
that the owner’s willful blindness or deliberate ignorance can suffice. See, e.g., United States v. Chen, 913
F.2d 183, 192 & n.11 (5th Cir. 1990).
Second, the defendant need know only that his tenants or customers are selling or using heroin, fentanyl,
cocaine, or the like. He does not need to know that they
are violating the law or intend for them to do so. See
Bryan v. United States, 524 U.S. 184, 192–93 (1998);
Barbosa, 271 F.3d at 457–58. “[I]gnorance of the law
generally is no defense to a criminal charge.” Ratzlaf v.
United States, 510 U.S. 135, 149 (1994). Of course, Congress can make it a defense. Id. But it does so sparingly,
almost exclusively for tax and regulatory crimes. See
Cheek v. United States, 498 U.S. 192, 199–200 (1991)
(tax crimes); Liparota v. United States, 471 U.S. 419,
426 (1985) (misusing food stamps). And when Congress
does require knowledge of the law, it uses the word

10a
“willfully.” Bryan, 524 U.S. at 191–92 & n.13; Ratzlaf,
510 U.S. at 141–42 (equating willfulness with “a purpose to disobey the law”). It did not do so here.
Finally, the defendant must make the place available to others “intentionally.” That means deliberately,
not accidentally or by mistake. Barbosa, 271 F.3d at
458. Because paragraph (a)(2) predicates liability on a
third party’s drug activities, it adds this extra intent
requirement to shield owners who are not complicit.
An owner is not liable, for instance, if he knows that
trespassers are doing drugs but did not invite them
and does not want them.
B. Under § 856(a)(2), the defendant need not
have the purpose of drug activity
While (a)(2) requires the defendant to act knowingly
and intentionally, it does not require him to also have
another mental state: “purpose.” Paragraph (a)(2) requires someone to have a “purpose”—but not the defendant. To get a conviction under (a)(2), the government must show only that the defendant’s tenant or visitor had a purpose to manufacture, distribute, or use
drugs. This conclusion follows from the law’s language
and grammar. It avoids making paragraph (a)(2) redundant of (a)(1). It also avoids making (a)(2)’s intent
requirement redundant. And it is the conclusion
reached by every circuit court to consider the issue.
1. The plain text requires only that the third party
have the purpose of drug activity. Section 856’s text
makes it clear that (a)(2)’s “purpose” is not the defendant’s. We see this from the way that paragraphs (a)(1)
and (a)(2) are written and structured.
i. Paragraph (a)(1). The Government does not
chargeSafehouse with violating paragraph (a)(1). But

11a
to understand its sibling, paragraph (a)(2), we must
start with (a)(1):
[I]t shall be unlawful to—
(1) knowingly open, lease, rent, use, or maintain
any place, whether permanently or temporarily,
for the purpose of manufacturing, distributing, or using any controlled substance.
21 U.S.C. § 856(a)(1) (line break added; mens rea terms
italicized). This paragraph requires just one actor and
two sets of actions. The actor is the defendant. He
“open[s], lease[s], rent[s], use[s], or maintain[s] [the]
place.” He also has “the purpose of manufacturing, distributing, or using” the drugs. These actions do not require a third party. A person can “maintain” an apartment or “manufactur[e]” drugs all by himself. Yet this
paragraph does not forbid third parties. A defendant
does not have to act alone; he can “us[e]” drugs with a
friend or “man-ufactur[e]” them with a business partner. He can even have his employees do that work for
him; a kingpin can run a drug empire without ever
touching the drugs himself. But even if no one joins
him in his drug activities, he still falls under (a)(1).
The inquiry turns on the purpose of the defendant.
So paragraph (a)(1) bars a person from operating a
place for his own purpose of illegal drug activity. On
this, the parties, the District Court, and our sister circuits all agree. For instance, a person may not use his
bedroom as the base of his drug dealing operation. See
United States v. Verners, 53 F.3d 291, 296– 97 (10th Cir.
1995). He may not manufacture meth in his garage and
regularly invite others over to use meth in that garage.
See United States v. Shetler, 665 F.3d 1150, 1163–64

12a
(9th Cir. 2011). And he certainly may not rent houses to
serve as drug distribution centers by day and house his
street-level drug dealers by night. See United States v.
Clavis, 956 F.2d 1079, 1083– 85, 1090–94 (11th Cir.
1992).
ii. Paragraph (a)(2). Now we turn to paragraph
(a)(2):
[I]t shall be unlawful to—
...
(2) manage or control any place, whether permanently or temporarily, either as an
owner, lessee, agent, employee, occupant, or
mortgagee, and
knowingly and intentionally rent, lease,
profit from, or make available for use, with
or without compensation, the place
for the purpose of unlawfully manufacturing, storing, distributing, or using a controlled substance.
21 U.S.C. § 856(a)(2) (line breaks added; mens rea
terms italicized). The District Court read this paragraph, like paragraph (a)(1), to require that the defendant act for his own purpose of illegal drug activity. But
paragraph (a)(2) does not require such a high mental
state (mens rea). Instead, the defendant need only deliberately make his place available to another, knowing
that this other person has the purpose of illegal drug
activity.
Unlike paragraph (a)(1), paragraph (a)(2) contemplates at least two actors: a defendant and a third
party. The defendant “manage[s] or control[s]” the
place, whether “as an owner, lessee, agent, employee,

13a
occupant, or mortgagee.” He could be a landlord, a
business owner, or a renter.
The second actor is some third party: a tenant, a
customer, or a guest. She is the one who uses or occupies the place. The law does not mention this third
party, but its verbs require her. The landlord must
“rent” or “lease” the place out to a tenant. For the business owner to “profit from” the place, customers must
pay him. If a defendant “make[s] [the place] available
for use,” someone must be there to use it.
In turn, that third party engages in the drug activity. Paragraph (a)(2) lays out three sets of actions, corresponding to the three phrases broken out separately
above. The defendant does the first two: he “manage[s]
or control[s]” the place, and he “rent[s], lease[s],
profit[s] from, or make[s] [it] available for use.” The
third party does the last set of actions: she “manufacture[s], stor[es], distribut[es], or us[es] a controlled
substance” (or at least has the purpose to do so). For
instance, the tenant, not the landlord, sells drugs out
of the apartment.
This third party, we hold, is the one who must act
“for the purpose of” illegal drug activity. The parties
vigorously contest this point. But this reading is logical.
Paragraph (a)(1) requires just the defendant. He must
have the purpose of drug activity, whether he engages
in it by himself or with others. Paragraph (a)(2) requires at least two people, adding the third party. She
performs the drug activity. The phrase “for the purpose
of” refers to this new person.
Thus, a defendant cannot let a friend use his house
to weigh and package drugs, even if the defendant himself is not involved in the drug ring. See United States
v. McCullough, 457 F.3d 1150, 1157–58, 1161 (10th Cir.

14a
2006). He cannot tell his son to stop selling drugs from
his trailer, yet let him stay even when he keeps selling.
See Ramsey, 406 F.3d at 429, 433. And he cannot lease
storefronts to known drug dealers just because he needs
the money. See United States v. Cooper, 966 F.2d 936,
938 (5th Cir. 1992).
2. Safehouse’s interpretation would make paragraph (a)(2) and “intentionally” redundant. Together,
paragraphs (a)(1) and (a)(2) compose a coherent package, forbidding different ways of “[m]aintaining [a]
drug-involved premises.” 21 U.S.C. § 856 (caption).
Each paragraph sets out a distinct crime, separated
by a paragraph number, spacing, and a semicolon.
United States v. Rigas, 605 F.3d 194, 209 (3d Cir.
2010) (en banc). Each requires a different actor to
have the required purpose.
Safehouse’s reading, by contrast, would make paragraph (a)(2) redundant of (a)(1). In each, Safehouse
says, the defendant himself must have the purpose of
drug activity. It concedes that the paragraphs partly
overlap. But it argues that (a)(1) covers the crack
house’s operator, while only (a)(2) covers a “distant
landlord.” Oral Arg. Tr. 63. This distinction does not
hold. If each paragraph required just one actor who
has the purpose of drug activity, the distant landlord
would fall under either. Safehouse admits that he violates (a)(2). He is guilty under (a)(1) too, because he
has “rent[ed]” and “maintain[ed]” a place for drug activity. Nothing would differentiate (a)(2) from (a)(1).
Safehouse’s other example to distinguish the two
paragraphs fares no better. It postulates an owner
who lets her boyfriend run a crack ring from her apartment while she is at work. It says she would violate
only (a)(2). Not so. If she does not have the purpose of

15a
using the apartment for drug sales, Safehouse’s reading would exclude her from either paragraph. But if
she does have that purpose, she would be liable under
both.
Thus, on Safehouse’s reading, (a)(2) would do no independent work. Recall that a defendant can just as
easily violate (a)(1) while working with someone else.
Both paragraphs would require the defendant to have
the requisite purpose, so (a)(2) would add nothing.
That redundancy is fatal. Though statutes sometimes
overlap, we try to avoid reading one part of a statute
to make another part surplusage. Yates v. United
States, 574 U.S. 528, 543 (2015). That is especially
true of two paragraphs nestled in the same subsection.
Id. We will not collapse the two into one.
Safehouse’s reading would also make paragraph
(a)(2)’s intent requirement redundant of its purpose
requirement. Congress added the word “intentionally”
to paragraph (a)(2) but not (a)(1). Intention, like purpose, is a volitional mental state; it requires the defendant to will something. One cannot have a purpose
of unlawful drug activity without intending that activity. In paragraph (a)(2), the intent requirement would
make no sense layered on top of requiring the defendant to have the purpose. But it makes sense to require
the defendant’s intent on top of the third party’s purpose. That protects defendants against liability for
mistaken, accidental, or involuntary use of their property.
3. Other circuits read § 856(a) similarly. Finally, six
other circuits agree with our reading of the two paragraphs. See United States v. Wilson, 503 F.3d 195, 197–
98 (2d Cir. 2007) (per curiam); United States v. Chen,
913 F.2d 183, 189–90 (5th Cir. 1990); United States v.

16a
Banks, 987 F.2d 463, 466 (7th Cir. 1993); United States
v. Tebeau, 713 F.3d 955, 959–61 (8th Cir. 2013); United
States v. Tamez, 941 F.2d 770, 774 (9th Cir. 1991);
United States v. Verners, 53 F.3d 291, 296–97 & n.4
(10th Cir. 1995). No circuit has held otherwise.
True, as Safehouse notes, no other circuit has addressed a safe-injection site. The other circuits’ cases
involved egregious drug activity. But these cases all
recognize the textual difference between the defendant’s own purpose under paragraph (a)(1) and the third
party’s purpose under (a)(2). Safehouse has much better intentions. But good intentions cannot override the
plain text of the statute.
4. Safehouse’s other arguments are unpersuasive.
Safehouse raises three objections to the plain reading of
the text, but they all fail. First, it responds that “for the
purpose of” cannot mean two different things in the
two sister paragraphs. It does not. We presume that
“purpose” means the same thing in both. Env’t Def. v.
Duke Energy Corp., 549 U.S. 561, 574 (2007). But we
do not presume that the “purpose” belongs to the same
actor in each paragraph.
The difference in phrasing draws that distinction.
For instance, paragraph (a)(1) forbids a defendant’s
“use” of a place “for the purpose of” drug activity. Paragraph (a)(2) forbids a defendant’s “mak[ing] [a place]
available for use . . . for the purpose of” drug activity.
In each subsection, “for the purpose of” refers back to
“use,” its nearest reasonable referent. See Antonin
Scalia & Bryan A. Garner, Reading Law: The Interpretation of Legal Texts 152–53 (2012). Whoever “use[s]”
the property is the one who must have the purpose.
Since the third party is the actor who “use[s]” the place
in paragraph (a)(2), it is her purpose that matters.

17a
Those two phrases are worded differently because they
target use by different actors.
Second, Safehouse fares no better by citing the rule
of lenity. We interpret ambiguities in criminal statutes
in favor of the defendant. Liparota, 471 U.S. at 427. Before we do, though, we must exhaust the traditional
tools of statutory construction. Shular v. United States,
140 S. Ct. 779, 787 (2020). And once we do that, this
statutory text is clear enough, not “grievous[ly] ambigu[ous].” United States v. Castleman, 572 U.S. 157,
173 (2014) (quoting Barber v. Thomas, 560 U.S. 474,
488 (2010)).
Finally, Safehouse objects that it would be “extremely odd” to tie a defendant’s liability to a third
party’s state of mind. Oral Arg. Tr. 61. That is not so
strange. When a robber holds up a cashier with a toy
gun, the prosecution must prove that the cashier had a
real “fear of injury.” 18 U.S.C. § 1951(b)(1). Or in a kidnapping case, to show that the defendant acted “unlawfully,” the prosecution must prove that the victim did
not consent to come along. 18 U.S.C. § 1201(a). And
when one member of a drug ring goes astray and kills
someone, his coconspirators can still be liable for murder. Pinkerton v. United States, 328 U.S. 640, 645–47
(1946). Though only the killer has the requisite specific
intent to kill, it is enough that his partners in crime
could reasonably foresee that he would kill in furtherance of the conspiracy. United States v. Gonzales, 841
F.3d 339, 351–52 (5th Cir. 2016); United States v. Alvarez, 755 F.2d 830, 848–49 (11th Cir. 1985).
In sum, all that paragraph (a)(2) requires is that
the third party, not the defendant, have the purpose of
drug activity. Still, the defendant must have a mental
state: he must knowingly and willingly let others use

18a
his property for drug activity. Now we apply this statute to Safehouse.
C. Section 856(a)(2) applies to Safehouse because its visitors will have a significant
purpose of drug activity
Everyone agrees that Safehouse satisfies the first
two phrases of paragraph (a)(2). First, it will “manage
[and] control” the site. Second, it will “intentionally . .
. make [its consumption room] available for [visitors’]
use,” knowing that they will use drugs there. But visitors will come for other reasons too, including
Safehouse’s medical and counseling services. So the
question is whether the visitors’ use of the consumption room will satisfy the third phrase: (a)(2)’s purpose
requirement. It will.
A person’s purpose is his “objective, goal, or end.”
Purpose, Black’s Law Dictionary (11th ed. 2019). It is
something he “sets out to do.” Purpose (def. 1a), Oxford
English Dictionary (3d ed. 2007).
People often have multiple purposes. A parent
might scold a screaming child both to silence her and
to teach her how to behave in public. But not every
purpose satisfies the statute. The statute requires the
actor to act “for the purpose of” drug activity, not just
a purpose of drug activity. 21 U.S.C. § 856(a) (emphasis added). That choice of “the” rather than “a” means
that not just any purpose will do. The actor’s purpose
must be more than “merely incidental.” Lancaster, 968
F.2d at 1253. But it need not be his “sole purpose.”
Shetler, 665 F.3d at 1161. Otherwise, Congress would
have said “for the sole purpose,” as it has elsewhere.
E.g., 18 U.S.C. § 48(d)(2)(B); 15 U.S.C. § 62; 17 U.S.C.
§ 1201(d)(1).

19a
Since the actor’s purpose must fall somewhere between an “incidental” and a “sole” purpose, we think
the District Court and our sister circuits have it right:
the actor need have only a “significant purpose” of
drug activity. United States v. Russell, 595 F.3d 633,
643 (6th Cir. 2010). If he has a “significant purpose” of
drug use, he violates the statute, even if he also has
other significant purposes. United States v. Soto-Silva,
129 F.3d 340, 342, 347 (5th Cir. 1997).
Safehouse’s visitors will have the significant purpose
of drug activity. True, some people will visit Safehouse
just for medical services or counseling. Even so,
Safehouse’s main attraction is its consumption room.
Visitors will bring their own drugs to use them there.
And many of Safehouse’s services will revolve around
the visitors’ drug use there. The clean syringes and
fentanyl strips will let them inject drugs more securely. The respiratory support and overdose-reversal
agents will reduce their chances of dying of an overdose. And the medical and counseling care will be offered after they have used drugs. When a visitor comes
to Safehouse to prevent an overdose, that reason is
bound up with the significant purpose of doing drugs.
That satisfies the statute.
Safehouse worries that our reading will punish parents for housing their drug-addicted children, or
homeless shelters for housing known drug users. It
will not. People use these places to eat, sleep, and
bathe. The drug use in homes or shelters would be incidental to living there. But for most people, using
drugs at Safehouse will not be incidental to going
there. It will be a significant purpose of their visit.

20a
D. In any event, Safehouse has a significant
purpose that its visitors do drugs
Even if paragraph (a)(2) looked to Safehouse’s own
purpose, Safehouse would violate the statute. For
Safehouse itself has a significant purpose that its visitors use heroin, fentanyl, and the like.
Safehouse vigorously contests this point. As it
stresses, one of Safehouse’s purposes is to stop overdoses and save lives. Other purposes include preventing
disease and providing medical care. But as Safehouse
conceded at oral argument, “there can be multiple purposes” that a defendant pursues at once. Oral Arg. Tr.
53. Plus, motive is distinct from mens rea. A defendant
can be guilty even if he has the best of motives. A child
who steals bread to feed his hungry sister has still
committed theft. The son who helps his terminally ill
mother end her life has still committed murder.
One of Safehouse’s significant purposes is to allow
drug use. Start with the facility’s name: Safehouse
calls it a “consumption room” or “safe-injection site.”
App. 683–84. It expects visitors to bring heroin, fentanyl, or the like with them to use on-site. It will offer
visitors clean syringes and fentanyl strips and advise
visitors on how to inject heroin or fentanyl safely.
Safehouse even foresees a benefit to this on-site drug
use: it thinks visitors will be more likely to accept drug
treatment “after they have consumed drugs and are
not experiencing withdrawal symptoms.” App. 685.
In short, Safehouse will offer visitors a space to inject themselves with drugs. Even on its own reading of
purpose, that is enough to violate the statute.

21a
E. We cannot rewrite the statute to exclude
the safe-injection site
Finally, Safehouse asks us to look beyond the statute’s text to consider Congress’s intent. The publicpolicy debate is important, but it is not one for courts.
If the text of a criminal statute “is plain . . . the sole
function of the courts is to enforce it according to its
terms.” Caminetti v. United States, 242 U.S. 470, 485
(1917).
1. We apply the plain text, not Congress’s expectations. First, Safehouse objects that Congress targeted
crack houses, but never expected the law to apply to
safe-injection sites. That is true but irrelevant. See Pa.
Dep’t of Corrs. v. Yeskey, 524 U.S. 206, 212 (1998). Statutes often reach beyond the principal evil that animated
them. Oncale v. Sundowner Offshore Servs., Inc., 523
U.S. 75, 79 (1998). For instance, though Congress
meant RICO to target mobsters, it reaches far beyond
them to legitimate businesses as well. Sedima, S.P.R.L.
v. Imrex Co., 473 U.S. 479, 499 (1985) (analyzing the
Racketeer Influenced and Corrupt Organizations Act,
18 U.S.C. §§ 1961–68).
A court’s job is to parse texts, not psychoanalyze lawmakers. “[W]e do not inquire what the legislature
meant; we ask only what the statute means.” Epic Sys.
Corp. v. Lewis, 138 S. Ct. 1612, 1631 (2018) (internal
quotation marks omitted) (quoting Justice Jackson
quoting Justice Holmes). At least when the text is clear,
we will not look beyond it to lawmakers’ statements, because “legislative history is not the law.” Id.; accord Pellegrino v. TSA, 937 F.3d 164, 179 (3d Cir. 2019) (en
banc). The words on the page, not the intent of any legislator, go through bicameralism and presentment and

22a
become law. Here, the statute’s plain text covers safeinjection sites. We look no further.
2. Congress’s recent efforts to combat addiction did
not revoke the statute. Next, Safehouse and its amici
claim that our reading of the statute is bad policy. On
average, nearly three Philadelphians die of drug overdoses each day. A consumption room, they argue, could
save those lives. And the Government has spent lots of
time and money fighting the opioid crisis. In 2016, Congress passed the Comprehensive Addiction and Recovery Act, which creates federal grants to treat drug addiction and prevent overdoses. Pub. L. No. 114-198,
§ 103, 130 Stat. 695, 699–700 (codified at 21 U.S.C.
§ 1536). Since then, it has banned federal funding of
syringe-exchange programs but authorized an exception. Consolidated Appropriations Act of 2016, Pub. L.
No. 114-113, § 520, 129 Stat. 2242, 2652.
Safehouse asks us to read the Act to “[h]armonize[]”
it with these federal efforts. Appellees’ Br. 38. But to do
that, we would have to rewrite the statute. These laws
say nothing about safe-injection sites, and § 856(a)(2)’s
plain text forbids them. If that ban undermines Congress’s current efforts to fight opioids, Congress must
fix it; we cannot.
III.

APPLYING § 856(a)(2) TO SAFEHOUSE IS A
VALID EXERCISE OF CONGRESS’S POWER
OVER INTERSTATE COMMERCE

Having held that Safehouse’s safe-injection site
would violate § 856(a)(2), we turn to its affirmative defense under the Commerce Clause. Safehouse argues
that Congress lacks the power to criminalize its local,
noncommercial behavior. After all, it will not charge
visitors to use the consumption room. But the Supreme

23a
Court foreclosed that argument in Gonzales v. Raich,
rejecting a Commerce Clause challenge to a different
section of the Controlled Substances Act. 545 U.S. 1, 9
(2005). Raich clarifies that Congress can regulate local, noncommercial activity when that activity will affect a national market. Even though Safehouse’s consumption room will be local and free, the Act bans it as
part of shutting down the national market for drugs.
The Commerce Clause, together with the Necessary
and Proper Clause, gives Congress the power to do
that. U.S. Const. art. I, § 8, cl. 3, 18.
A. Congress can regulate local activities either (1) if they are economic and, taken
together, substantially affect interstate
commerce, or (2) as part of a comprehensive regulatory scheme
Using its commerce power, Congress can regulate
the “channels of interstate commerce”; “instrumentalities,” people, and “things in interstate commerce”;
and “activities that substantially affect interstate
commerce.” United States v. Lopez, 514 U.S. 549, 558–
59 (1995). That last category can cover local activity
and thus risks blurring the line “between what is truly
national and what is truly local.” Id. at 567–68. To
hold that line, we demand that the local activity Congress regulates be either (1) economic or else (2) covered by a broader scheme to regulate commerce. See
id. at 559–61. Either route suffices.
1. Congress can regulate local economic activities
that substantially affect interstate commerce. Federal
law may regulate local activities if they are economic
and, as a “class of activities,” they substantially affect
interstate commerce. Raich, 545 U.S. at 17 (quoting Perez v. United States, 402 U.S. 146, 151 (1971)); Lopez,

24a
514 U.S. at 559–60. A court does not decide for itself
that a class of activity has substantial economic effects.
We ask only whether Congress had a rational basis to
think so. Raich, 545 U.S. at 22.
Activities can count as economic even if they are not
commercial. Raich, 545 U.S. at 18. That is because,
even without buying or selling, some local activities
can collectively affect national supply and demand.
Thus, in Wickard v. Filburn, the Supreme Court upheld a law capping how much wheat a farmer could
grow to feed his own livestock, bake his own bread, and
plant his next year’s crop. 317 U.S. 111, 114, 127–28
(1942). In the aggregate, it reasoned, excess homegrown
wheat could lower demand, compete with wheat on the
market, and so substantially affect interstate commerce. Id.
2. Congress can regulate noneconomic activities only
as part of a larger regulatory scheme. Congress’s power
to regulate noneconomic activities, like many traditionally local crimes, is more limited. “Congress may [not]
regulate noneconomic, violent criminal conduct based
solely on that con-duct’s aggregate effect on interstate
commerce.” United States v. Morrison, 529 U.S. 598,
617 (2000). For instance, Congress cannot ban possessing guns near schools just because violent crime
might raise insurance rates, hinder education, and
thus dampen economic production. Lopez, 514 U.S. at
563–64. Nor can it ban violence against women based
on how it might harm employment and the economy.
Morrison, 529 U.S. at 614–15. That is the job of state
and local legislatures, not Congress.
But Congress can regulate traditionally local, noneconomic activities as part of a larger regulatory
scheme. The laws in Lopez and Morrison were single-

25a
subject statutes, not part of regulating interstate markets. By contrast, Congress can reach local, noneconomic activities (like simple possession) as “part of a
larger regulation of economic activity, in which the regulatory scheme could be undercut unless the intrastate
activity were regulated.” Lopez, 514 U.S. at 561. For
example, when this Court faced a federal ban on possessing certain machine guns, we upheld it. United
States v. Rybar, 103 F.3d 273, 274 (3d Cir. 1996). That
law, unlike the one in Lopez, sought to halt interstate
gun trafficking. Id. at 282–83. To shut down the interstate market in machine guns, it had to reach intrastate
possession too. Id. By the same token, Congress can ban
even intrastate possession of child pornography. United
States v. Rodia, 194 F.3d 465, 479 (3d Cir. 1999).
When Congress regulates local noneconomic activities as part of a scheme, it need only choose means
that are “‘reasonably adapted’ to the attainment of a
legitimate end under the commerce power.” Raich,
545 U.S. at 37 (Scalia, J., concurring) (quoting United
States v. Darby, 312 U.S. 100, 121 (1941)).
Having discussed the two bases for regulating local
activities, we can now apply them. As the next two sections explain, both the comprehensive-scheme and aggregate-economic-effect rationales independently justify § 856’s ban.
B. Congress can ban local drug-involved
premises as part of a comprehensive regulatory scheme
Whether providing drug-involved premises counts
as economic activity or not, Congress can regulate it.
The drug market is national and international. Congress has found that this trade poses a national threat.
Thus, it passed the Controlled Substances Act, a

26a
scheme to suppress or tightly control this market. The
Act properly seeks to shut down the market for Schedule I and unprescribed Schedule II–V drugs. Because
Congress passed a valid scheme to regulate the interstate drug trade, § 856 is constitutional as long as it is
“reasonably adapted” to that scheme. Raich, 545 U.S.
at 37 (Scalia, J., concurring) (quoting Darby, 312 U.S.
at 121). And it is. To bolster the Act’s scheme, Congress can reach local premises where drug activities
happen.
The Controlled Substances Act is a scheme to tightly
control the interstate drug market. Drugs are big business. In 2016 alone, Americans spent $146 billion on
cannabis, cocaine, heroin, and methamphetamine.
Gregory Midgette et al., RAND Corp., What America’s
Users Spend on Illegal Drugs, 2006–2016, at xiv tbl. S.2
(2019). Congress has recognized that much of this traffic
flows in interstate and international commerce. 21
U.S.C. § 801(3). It addressed that market in the Act.
To control drug manufacture, sale, and possession,
the Act creates a “closed regulatory system.” Raich, 545
U.S. at 13. Because Schedule I drugs have no accepted
medical use, the Act bans them entirely. See 21 U.S.C.
§ 812(b)(1). For other drugs that have some accepted
uses but a “potential for abuse” (those in schedules II–
V), the Act requires a prescription. §§ 812(b)(2)(A),
(3)(A), (4)(A), (5)(A), 844(a). This scheme seeks to shut
down the markets in Schedule I and unprescribed
Schedule II–V drugs. See Raich, 545 U.S. at 19, 24.
That goal is valid, as the power to regulate a market
includes the power to ban it. Id. at 19 n.29.
Congress can serve this goal by reaching intrastate activities. The national drug market is bound up with local
activities. Drugs produced locally are often sold

27a
elsewhere; drugs sold or possessed locally have usually
been imported from elsewhere. § 801(3). Even local possession and sale “contribute to swelling the interstate
market.” § 801(4). So to control the interstate market,
the Act reaches intrastate activities. Raich confirms
that Congress can do that. Raich upheld the Act’s ban
on local production and possession of marijuana for
personal medical use. 545 U.S. at 9. Unlike the laws in
Lopez and Morrison, this ban was part of a comprehensive regulatory scheme to shut down the interstate
market in marijuana. Id. at 19, 23–24. Drugs are fungible. Id. at 18. Local drugs are hard to distinguish
from imported ones and can be diverted into the interstate market. Id. at 22. Congress rationally believed
that failing to regulate intrastate drugs “would leave a
gaping hole in the [Act].” Id. So it was necessary and
proper to enact a flat ban, with no intrastate exception.
Id.; id. at 34 (Scalia, J., concurring).
3. Section 856 is a key part of the Act’s comprehensive
regulatory scheme. At oral argument, Safehouse sought
to distinguish consuming drugs from providing a place
to consume them. But just as Congress regulates the
drug activities, it can also regulate places where those
activities are likely to flourish. Congress added § 856 to
plug a “gaping hole” in the Act that made it harder to
stop drug use and dealing at crack houses and the like.
Raich, 545 U.S. at 22.
Section 856 is reasonably adapted to control drug
manufacture, sale, and possession. Consider state laws
that forbid BYOB restaurants to let minors drink alcohol on-site. See, e.g., N.J. Rev. Stat. § 2C:33-27(a)(3). Of
course, minors themselves may not drink in public. Id.
§ 2C:33-15(a). And the restaurants would not be
providing the alcohol, only the space and glasses. Yet
states still punish them if the minors drink there. Why?

28a
Because the ban makes it harder for minors to drink. If
restauranteurs know that they could face steep fines
for tolerating underage drinking, they will prevent it
from happening. So too here. Just as local drug possession “swell[s] the interstate [drug] traffic,” clamping down on local drug use helps restrict that market.
21 U.S.C. § 801(3), (4).
We could stop here. Because § 856 is part of the
Act’s comprehensive regulatory scheme, Congress has
the power to ban even local, noneconomic activity that
would undercut that scheme. But another ground independently supports the Act: it regulates economic
activity that could, in the aggregate, substantially affect interstate commerce.
C. Congress had a rational basis to believe
that making properties available for drug
use will have substantial economic effects
Even if § 856 were not part of a comprehensive regulatory scheme, Congress could still regulate the activities it covers. Safehouse argues that making a local
safe-injection site available for free is noneconomic.
But Raich forecloses that argument.
1. Making properties available for drug use is economic activity. Raich defined “economics” broadly as
“the production, distribution, and consumption of commodities.” 545 U.S. at 25–26 (quoting Webster’s Third
New International Dictionary 720 (1966)) (emphasis
added). These are all activities that affect national
supply and demand and thus interstate commerce. So
producing, distributing, and consuming drugs are
“quintessentially economic” activities. Id. Even intrastate growing of marijuana for home consumption is
economic, because it could substantially affect the national marijuana market. Id. at 19, 25–26.

29a
To be sure, Safehouse will not itself consume drugs.
But it will create a “consumption room,” a dedicated
space for streams of visitors to use drugs. “[T]here is
an established, and lucrative, interstate market” for
those drugs. Id. at 26. Opening a space for consuming
drugs will encourage users to come do so. Making consumption easier and safer will lower its risk and so
could increase consumption. More drug consumption
would create more market demand. Just as “home consumption [of] a fungible commodity” is economic activity that can substantially affect the national market,
so too is hosting consumption. See Raich, 545 U.S. at
7.
It makes no difference that Safehouse will let its
visitors come for free. Wickard grew wheat to feed his
own livestock and bake his own bread. 317 U.S. at 114.
And though one of the drug users in Raich grew her
own marijuana and another was given it as a gift, that
did not matter. 545 U.S. at 7. Economic activity is
broader than commercial activity; it need not involve
buying and selling. Congress validly banned these
noncommercial uses to control supply and demand in
the drug market. Raich, 545 U.S. 22–23; Wickard, 317
U.S. at 127–28. That was necessary and proper. Congress had the power to regulate the whole class of drug
activities, and courts cannot “excise” individual cases
from that class just because they are “trivial.” Raich,
545 U.S. at 23 (quoting Perez v. United States, 402
U.S. 146, 154 (1971)).
2. Congress has a rational basis to believe that this
activity, as a class, substantially affects interstate commerce. Congress could find that maintaining drug-involved premises, as a class, substantially affects commerce. Drug dealers may well congregate near
Safehouse, increasing the drug trade and arguably

30a
drug demand. True, Safehouse argues that its site will
not increase drug demand, as visitors must buy their
drugs before arriving. And amici dispute whether safeinjection sites increase drug use and trafficking. That
empirical and policy debate is for Congress, not courts.
It is enough that Congress could rationally find a
causal link between drug-involved premises as a class
and commerce. Raich, 545 U.S. at 22.
Congressional findings confirm common sense. 21
U.S.C. § 801(3)–(6). Drugs typically flow through interstate markets before someone possesses them.
§ 801(3)(C). And intrastate possession helps swell the
interstate market. § 801(4). So regulating intrastate
activity is necessary and proper to clamp down on the
interstate market. To be sure, these findings in the
Act predate § 856, and they do not specifically discuss
drug-involved premises. But we may consider findings
from prior legislation. Rodia, 194 F.3d at 474 n.4;
Rybar, 103 F.3d at 281. And “Congress [need not]
make particularized findings in order to legislate.”
Raich, 545 U.S. at 21.
In short, Congress can regulate Safehouse both to
complete the Act’s comprehensive regulatory scheme
and to stop economic activity that, in the aggregate,
could substantially affect interstate commerce.
* * * * *
The opioid crisis is a grave problem that calls for
creative solutions. Safehouse wants to experiment
with one. Its goal, saving lives, is laudable. But it is
not our job to opine on whether its experiment is wise.
The statute forbids opening and maintaining any
place for visitors to come use drugs. Its words are not
limited to crack houses. Congress has chosen one rational approach to reducing drug use and trafficking:

31a
a flat ban. We cannot rewrite the statute. Only Congress can. So we will reverse and remand for the District Court to consider the RFRA counterclaim.
ROTH, Circuit Judge, dissenting in part and dissenting in judgment.
The Majority’s decision is sui generis: It concludes that 8 U.S.C. § 856(a)(2)—unlike § 856(a)(1)
or any other federal criminal statute—criminalizes
otherwise innocent conduct, based solely on the
“purpose” of a third party who is neither named nor
described in the statute. The text of section
856(a)(2) cannot support this novel construction.
Moreover, even if Safehouse’s “purpose” were the
relevant standard, Safehouse does not have the requisite purpose. For these reasons, I respectfully dissent. 1
I
Despite the ongoing public-health crisis caused
by the COVID-19 pandemic, we cannot forget that
the United States is also in the middle of an opioid
epidemic. “Safehouse intends to prevent as many
[opioid-related] deaths as possible through a medical and public health approach to overdose prevention.”2 Safehouse is prepared to provide a wide
range of services desperately needed in Philadelphia and routinely provided at Safehouse’s companion facility, Prevention Point Philadelphia, including:
I concur with the Majority’s rejection of Safehouse’s argument that Congress cannot regulate its conduct under the Commerce Clause.
1

2

Appx. 116.

32a
clean syringe exchange services, primary
medical care, an HIV clinic, a Hepatitis C clinic,
wound care and education on safer injection techniques, overdose prevention education, overdose reversal kits and distribution, housing, meals, mail
services, Medication-Assisted Treatment, and drug
recovery and treatment services. 3
The government takes no issue with any of these
services. Instead, it argues that Safehouse should
not be permitted to open its doors because of one
additional service that it will provide: A Consumption Room. Specifically, Safehouse will provide
“medically supervised consumption and observation” so that “[t]hose who are at high risk of overdose death would stay within immediate reach of
urgent, lifesaving medical care.” 4 “Medical supervision at the time of consumption ensures that opioid
receptor antagonists such as Naloxone, and other
respiratory and supportive treatments like oxygen,
will be immediately available to the drug user in the
event of an overdose.” 5 Significantly, no one is required to use the Consumption Room to be eligible
for any of Safehouse’s other services, 6 nor will
Safehouse provide, store, handle, or encourage the
use of drugs, or allow others to distribute drugs on
its property.
3

Id. at 683.

4

Id. at 116.

5

Id.

The
Safehouse
Model,
Safehousephilly.com,
https://www.safehousephilly.org/about/
the-safehouse-model
(last accessed Nov. 17, 2020) (“Upon arrival, participants may
choose to go directly to the observation room to access MAT and
other services.”).
6

33a
In other words, Safehouse is a drug treatment facility that also seeks to provide much needed overdose care to drug users. If these users are denied
access to a Consumption Room, they will still use
drugs -- and possibly die on the street. Philadelphia’s police and mobile emergency services (EMS)
already attempt to provide rescue services for users
who pass out on the streets. Often, the Police and
EMS cannot do so in a timely manner. Instead of
patrolling the streets for users who have overdosed,
Safehouse wants to save lives indoors.
At oral argument, the government conceded that
Safehouse could provide the exact same services it
plans to provide in the Consumption Room if it did
not do so indoors—if, for instance, it provided a Consumption Room inside a mobile van. Yet, according
to the Majority’s interpretation of section 856(a)(2),
Safehouse would be committing a federal crime,
punishable by twenty years’ imprisonment, if the
Consumption Room services were provided inside a
building, rather than in a mobile van, parked in
front. I cannot interpret section 856(a)(2) to reach
such a result.
II
At oral argument, the government conceded that
section 856(a) is poorly written. Indeed, it is nearly
incomprehensible. Rather than construe this ambiguous statute narrowly, however, the Majority
opts for broad criminal liability, arguing that an organization violates the statute if it makes its property available to a third party, knowing that the
third party has “the purpose of unlawfully manufacturing, storing, distributing, or using a controlled

34a
substance.” 7 I disagree with such a construction of
the statute. I know of no statute, other that section
856(a)(2), in which the “purpose” of an unnamed
third party would be the factor that determines the
mens rea necessary for a defendant to violate the
statute. This problematic construction is particularly evident here because the parties agree that the
“purpose” in section 856(a)(1) refers to the defendant’s “purpose.”
A
This divergence of interpretation violates the rules
of statutory construction: “identical words used in different parts of the same statute are generally presumed to have the same meaning.”8 The Majority offers no reason to disregard this presumption. And to
the extent that there is any ambiguity, the legislative
history goes against the Majority. This precise issue
was addressed in the floor debates of the 2003 amendments to section 856(a): Then-Senator Joseph Biden
stated that “rogue promoters” charged under the statute must “not only know that there is drug activity at
their event but also hold the event for the purpose of
illegal drug use or distribution. . . . Let me be clear.
Neither current law nor my bill seeks to punish a promoter for the behavior of their patrons.”9
The Majority also construes section (a)(2)’s mens rea
requirement unlike any other federal criminal statute.
Indeed, the Majority has not identified a single statute
that criminalizes otherwise innocent conduct—here,
lawfully making your property “available for use”—
7

18 U.S.C. § 856(a)(2) (emphasis added).

8

IBP, Inc. v. Alvarez, 546 U.S. 21, 34 (2005).

9

149 Cong. Rec. S1678 (emphasis added).

35a
solely because of the subjective thoughts of a third
party not mentioned in the statute.
At oral argument, the government suggested
that conspiracy requires proof of third-party intent.
True, but conspiracy statutes use the word “conspire,” which refers to a third party and that party’s
purpose. For centuries, “conspiracy” has had a wellaccepted common law meaning that we still use today: an “agreement,” “combination,” or “confederacy” of multiple people. 10 “When Congress uses a
common law term . . . we generally presume that it
intended to adopt the term’s widely-accepted common law meaning . . ..” 11 Moreover, conspiracy is a
specific-intent crime12 that requires a defendant to
share and agree to facilitate a co-conspirator’s illicit
purpose. 13 By contrast, the Majority’s construction
United States v. Hinman, 26 F. Cas. 324, 325 (C.C.D.N.J.
1831) (No. 15,370); accord United States v. Burr, 25 F. Cas. 187,
193 (C.C.D. Va. 1807) (No. 14,694) (“[A defendant] cannot conspire alone.”); 4 WILLIAM BLACKSTONE, COMMENTARIES 136 n.19
(“To constitute a conspiracy . . . there must be at least two persons implicated in it.”); see also State v. Buchanan, 5 H. & J. 317,
334 (Md. 1821) (“[I]f combinations for any of the purposes mentioned in the statute, were punishable at all, it could only have
been on the ground, that both the offence of conspiracy (eo nomine), and the punishment, were known to the law anterior to the
enactment of the statute . . ..”).
10

United States v. Hsu, 155 F.3d 189, 200 (3d Cir. 1998); accord
Salinas v. United States, 522 U.S. 52, 63 (1997).
11

12 Ocasio v. United States, 136 S. Ct. 1423, 1429 (2016); United
States v. Applewhaite, 195 F.3d 679, 684 (3d Cir. 1999); accord
United States v. Williams, 974 F.3d 320, 369–70 (3d Cir. 2020)
(“[T]he defendant [must] join[] the agreement knowing of its objectives and with the intention of furthering or facilitating
them.”).
13 See United States v. Tyson, 653 F.3d 192, 209 (3d Cir. 2011)
(“[T]he pertinent inquiry is whether Tyson and Morrell agreed to

36a
of section 856(a)(2) does not require a defendant to
have any particular purpose whatsoever; it is the
third party’s purpose that is unlawful. And, unlike
in a conspiracy, the government specifically argues
that intent to facilitate is not necessary.
Nor is the Majority’s construction of section
856(a)(2) similar to Pinkerton liability.14 Pinkerton
allows for liability based on a coconspirator’s completed acts, 15 not her thoughts. Moreover, those acts
must be a foreseeable part or consequence of a conspiracy that the defendant intentionally entered. 16
Finally, the penalties for conspiracy and Pinkerton
liability are usually limited to those available for
the underlying crimes. 17 By contrast, a section
856(a)(2) defendant may receive up to twenty years’

achieve the conspiracy’s ends.”); United States v. Coleman, 811
F.3d 804, 808 (3d Cir. 1987).
14

See Nov. 16, 2020 Tr. at 65:23–66:2.

See United States v. Ramos, 147 F.3d 281, 286 (3d Cir. 1998);
see also Bahlul v. United States, 840 F.3d 757, 792 (D.C. Cir.
2016) (Millett, J., concurring in per curium opinion) (“Pinkerton
liability . . . relies on the imputation of co-conspirators’ completed
offenses.”).
15

See United States v. Casiano, 113 F.3d 420, 427 (3d Cir.
1997).
16

17 See, e.g., 21 U.S.C. § 846 (“Any person who attempts or conspires to commit any offense defined in this subchapter shall be
subject to the same penalties as those prescribed for the offense,
the commission of which was the object of the attempt or conspiracy.”); United States v. Brooks, 524 F.3d 549, 557 (4th Cir. 2008).
But see 18 U.S.C. § 371 (providing for five-year maximum for conspiracies against the United States, which may be committed
without an underlying criminal object); see also United States v.
Conley, 92 F.3d 157, 163–65 (3d Cir. 1996).

37a
imprisonment, while the third party could be exposed
to as little as one year.18
B
The Majority’s construction wreaks havoc with
the rest of the statute. The Majority relies on outof-circuit decisions, beginning with United States v.
Chen, 19 holding that “under § 856(a)(2), the person
who manages or controls the building and then
rents to others, need not have the express purpose
in doing so that drug related activity take place; rather such activity is engaged in by others (i.e., others have the purpose).” 20 Chen and its progeny did
not explain their leap from the (likely correct) conclusion that the illicit “activity is engaged in by others” to their (incorrect) conclusion that the defendant need not have an illicit purpose.
Instead, Chen and its progeny stated only that a
contrary interpretation would render either section
(a)(1) or (2) “superfluous.” Unsurprisingly, Chen
and its progeny did not explain that conclusion. In
fact, they contradict each other as to which subsection would be rendered superfluous: The Chen court
stated that section (a)(2) would be superfluous,
See 21 U.S.C. § 844(a) (“Any person who [possesses a controlled substance] may be sentenced to a term of imprisonment
of not more than 1 year, and shall be fined a minimum of $1,000,
or both . . . .”).
18

19

913 F.2d 183 (5th Cir. 1990).

Chen, 913 F.2d at 190 (citing United States v. Burnside, 855
F.2d 863 (Table) (9th Cir. 1988)); accord United States v. Tebeau,
713 F.3d 955 (8th Cir. 2013); United States v. Wilson, 503 F.3d
195, 197–98 (2d Cir. 2007); United States v. Banks, 987 F.2d 463,
466 (7th Cir. 1993); United States v. Tamez, 941 F.2d 770, 773–
74 (9th Cir. 1991).
20

38a
whereas other courts of appeals have stated that
both sections would “entirely overlap” and “have no
separate meaning.” 21
In any event, the text of the statute demonstrates
that all these courts of appeals are wrong. When
Chen was decided, the only overlap between the two
sections was the phrase “for the purpose of.” 22 In
other words, Chen and its progeny decided that, to
avoid superfluity, the only words that were the
same between the two sections must have different
meanings. There is no rule of construction that supports or even permits such a reading.
Rather, the distinction between sections (a)(1)
and (2) is in their respective actus reus requirements. Section (a)(1) has one actus reus element;
section (a)(2) has two. Before 2003, those elements
did not overlap at all; the 2003 amendments created
only minor overlap by adding “rent” and “lease” to
section (a)(1). I do not see why we should twist the
text of the statute based on the potential overlap of
two words, 23 let alone why Chen did so before any
overlap existed.
In sum, the Majority construes sections 856(a)(1)
and (2)’s identical “purpose” elements differently
but holds that their different actus reus elements
are identical. That need not be the case. For example, section (a)(1) would be violated where a property owner sells drugs from his home but does not
21

Tamez, 941 F.2d at 774; accord Tebeau, 713 F.3d at 960.

Even the listed purposes are not identical: Unlike § (a)(1), §
(a)(2) includes “storing” controlled substances.
22

23 Loughrin v. United States, 573 U.S. 351, 358 n.4 (2014) (explaining that even “substantial” overlap between sections of a
criminal statute “is not uncommon”).

39a
let others use it; section (a)(2) would not. Section
(a)(2) would be violated where a rave operator encourages drug dealers to attend events to increase
attendance; section (a)(1) would not. Because
Safehouse’s construction better comports with the
statute’s text and does not render either section
completely superfluous, I would adopt it.
C
The Majority’s construction also violates the
“deeply rooted rule of statutory construction” that
we must avoid “unintended or absurd results.” 24
i
As Safehouse correctly argues, under the Majority’s construction, parents could violate the statute
by allowing their drug-addicted adult son to live and
do drugs in their home even if their only purpose in
doing so was to rescue him from an overdose. Conceding that its reading of section (a)(2) cannot be
taken literally, the Majority concludes that a defendant cannot be guilty where drug use is merely
“incidental” to the guest’s other purposes. Thus, the
hypothetical parents would not violate the statute
because their son’s drug use was incidental to his
use of the home as a residence. By trying to assure
us that the hypothetical parents would not violate
the statute, the Majority implicitly acknowledges
that such a result would be impermissibly absurd.
Although I agree that incidental purposes do not
24 United States v. Hodge, 321 F.3d 429, 434 (3d Cir. 2003) (Ambro, J.); accord United States v. Bankoff, 613 F.3d 358, 369 n.10
(3d Cir. 2010) (Ambro, J.) (explaining that assuming Congress
was unaware of the terms used in one statute when enacting another statute “would lead to an absurd result”).

40a
trigger the statute, absurd results are unavoidable
under the Majority’s construction.
The Majority relies on the consensus of other
courts of appeals that a defendant’s “casual” drug
use in his home does not violate the original version
of section 856(a)(1) because the drug use was incidental to the purpose for which he maintained the
property, i.e., as a residence. 25 Neither the Majority
nor the cases it cites define “incidental.” Fortunately, we have. In United States v. Hayward, 26 we
adopted an incidental-purpose test for 18 U.S.C. §
2423(b), which made it unlawful to “travel in foreign
commerce for the purpose of engaging in sex with a
minor.” We held that illicit sexual activity must be
“a significant or motivating purpose of the travel
across state or foreign boundaries,” rather than
merely “incidental” to the travel. 27 Even assuming
that other courts of appeals’ gloss on “maintain” in
section (a)(1) survived the 2003 amendment 28 and
25 E.g., United States v. Lancaster, 968 F.2d 1250, 1253 (D.C.
Cir. 1992).
26

359 F.3d 631 (3d Cir. 2004) (Garth & Ambro, J.).

Hayward, 359 F.3d at 638 (emphasis added); accord United
States v. Vang, 128 F.3d 1065, 1071 (7th Cir. 1997). Although “for
the purpose of” in § 2434(b) was later amended explicitly to “with
a motivating purpose,” the legislative history does not indicate
that Congress intended to increase the government’s burden of
proof.
27

28 That amendment added “use” to § 856(a)(1). Other circuits
have continued to assume—correctly, I think—that using drugs
in one’s own home still does not violate § (a)(1). See United States
v. Shetler, 665 F.3d 1150, 1164 n.8 (9th Cir. 2011) (“The amendments increase the possibility that § 856(a)(1) would be unconstitutionally vague if construed expansively. What is meant by ‘use’
of ‘any place ... temporarily’ is, for example, certainly far from
clear.”).

41a
comports with Hayward, it does not neatly apply to
a guest’s purpose in “us[ing]” property under section
(a)(2) or avoid the absurd results inherent in the Majority’s construction.
The Majority assumes that the son’s purpose in
moving in with his parents was to use the home as a
residence. Not necessarily. Although the parents likely
“maintain” their home for the purpose of living in it,
their son may be motivated by many purposes to “use”
it. If the son could not do drugs there, would he still
move in? Alternatively, the son might already have a
home (or be indifferent to being homeless) but begrudgingly accepted his parents’ invitation to move in with
them because he shared their concern about overdosing. Like Safehouse’s participants, the son would ‘use”
the home because he was motivated by an “unlawful”
purpose (supervised drug use) that was not incidental
to his residency in the home, and the parents knew it.
Under the Majority’s construction, the parents were operating a crack house. That cannot be what the statute
intends to say. Or suppose the son intended to do drugs
there once, steal his mother’s jewelry, and run away. If
the parents were reasonably sure that he would run
away but gave him a chance anyway, have they violated the statute under Chen’s deliberate-ignorance
standard? The Majority’s construction suggests so, particularly if this was the son’s second or third chance.
And under the Majority’s construction, the parents
would certainly violate section (a)(2) if they invited
their son to do drugs in their home under supervision
but not live there; this result is far afield from the crack
houses and raves targeted by the statute.
Even apart from the hypothetical parents, absurd
results abound under the Majority’s construction. For
example, the Majority would criminalize a vacationing

42a
homeowner who pays a house sitter but also allows the
sitter to smoke marijuana in his home. If the homeowner knew that the sitter cared less about the pay
than about having a place to smoke marijuana,
housesitting is the incidental use. At oral argument,
the government contended that drug use in these
circumstances would still be an “incidental” purpose
because violating the statute somehow depended on
the number of people that the defendant allowed to
use the property. The statute does not mention a
numeric threshold. The Majority does not explain
why a guest’s purpose depends on the number of
persons sharing that purpose, and any threshold
would necessarily involve arbitrary line-drawing.
The Majority would also criminalize homeless
shelters where the operators know their clients will
use drugs on the property. Although the government argues that the shelter, like the parents,
would be protected by the incidental-purpose test, it
again just assumes that “the people who stay [at the
shelter] have housing as their primary purpose.” 29
Again, not necessarily. An operator of a homeless
shelter may know (or be deliberately ignorant of the
fact) that some clients will stay at the shelter because they want a concealed place to use drugs and
to sleep off the high. In other words, if they were
prevented from using drugs there, some of them
might not go there at all.
Throughout these proceedings the government
has followed the statute’s text only selectively. As
yet another example, the government insists that
“place” includes only “real property.” 30 Thus, the
29

Gov’t’s Reply at 15.

30

Nov. 16, 2020 Tr. at 34:4–35:7.

43a
government concedes that Safehouse could provide
a Consumption Room in a mobile van parked outside
its facility. Although that hypothetical does not directly implicate the “purpose” element, the government’s response when pressed on this hypothetical
at oral argument is significant: The government
conceded that it “ha[sn’t] thought . . . enough” about
the potential consequences of its construction of the
statute.31 As shown above, the government’s lack of
thought is self-evident. In fact, the government’s
construction of the statute, adopted by the Majority
here, is intolerably sweeping. No amount of a textual gloss will save it.
ii
The Majority’s construction also conflicts with
other federal policies. For example, HUD strongly
discourages landlords from evicting certain classes
of tenants for drug use alone. 32 The government
again invokes the incidental-purpose test, arguing
that HUD’s “guidance regarding drug use . . . aims
to connect homeless individuals to housing ‘without
preconditions and barriers to entry.’” 33 Under the
Majority’s construction, however, HUD’s purpose is
irrelevant. Nor is the landlord protected because
this is a “residential example[]” 34: Even if the landlord knows that a tenant uses the property primarily for drug binges, HUD expects the landlord to
31

Id. at 37:7–21.

HUD, HOUSING FIRST IN PERMANENT SUPPORTIVE HOUSING
at 3 (July 2014), available at https://files.hudexchange.info/resources/documents/Housing-First-Permanent-Supportive-Housing-Brief.pdf.
32

33

Gov’t’s Reply at 15 n.5.

34

Id.

44a
continue leasing the property to the tenant unless
the tenant otherwise violates the lease.
The Majority’s construction is also inconsistent
with congressional grants for sanitary syringe programs. In some instances, this funding can be used
to purchase syringes for the injection of controlled
substances, 35 and the CDC strongly encourages
these programs to “[p]rovi[de] . . . naloxone to reverse opioid overdoses.” 36 Naloxone is indicated to
reverse “opioid depression, including respiratory
depression.” 37 By explicitly acknowledging that
these programs will provide syringes for controlled
substances and encouraging them to provide medication used to treat ongoing overdoses, Congress
clearly envisioned that drug use would likely occur
on or immediately adjacent to the programs’ properties. In other words, Congress is knowingly funding conduct that, according to the Majority, is a
crime punishable by twenty years’ imprisonment.
The Majority does not dispute that this would be
anomalous. Instead, the government argues that
“Congress’s failure to speak directly to a specific
case that falls within a more general statutory rule”

See, e.g., Consolidated Appropriations Act of 2016, Pub. L.
No. 114-113, 129 Stat. 2242, § 520.
35

CDC, PROGRAM GUIDANCE FOR IMPLEMENTING CERTAIN
COMPONENTS OF SYRINGE SERVICES PROGRAMS, 2016 at 2 (2016),
available at https://www.cdc.gov/hiv/pdf/risk/cdc-hiv-syringe-exchange-services.pdf.
36

FDA, PRODUCT INSERT, NALOXONE HYDROCHLORIDE INJECSOLUTION (Sept. 9, 2020), available at https://www.accessdata.fda.gov/spl/data/5ac302c7-4e5c-4a38-93ea4fab202b84ee/5ac302c7-4e5c-4a38-93ea-4fab202b84ee.xml.
37

TION

45a
does not “create[] a tacit exception.” 38 But that begs
the question. Safehouse argues that it does not fall
under the “general statutory rule” because the statute requires it to act with a particular “purpose”
that it does not have; it does not seek to create an
“exception.” Although not dispositive, Congress’s
appropriation decisions provide further evidence
that Safehouse’s construction is correct.
iii
Safehouse’s construction avoids these absurd results. Illicit drug activity does not motivate parents
to make their home available to an adult son who is
addicted to heroin. To the contrary, they want their
son’s drug use to stop. Nor does illicit drug activity
motivate shelter operators to admit homeless people; or vacationing homeowners to look the other
way when their house sitters use drugs; or landlords
to continue leasing property to HUD recipients. In
each instance, the owners act despite their
knowledge that drug use will occur, not for the purpose that drug use occur.
By contrast, and contrary to the government’s
assertions, illicit drug activity does motivate drug
dealers to operate crack houses. They may have an
overarching motive of making money, but they specifically desire to achieve that end through drug
sales. They want the drug sales to occur. Making the
property available to customers to buy and use
drugs also facilitates the dealer’s unlawful purpose
by helping to avoid police. Similarly, drug sales and
use are part of rave operators’ business models
38 Gov’t’s Reply at 23 (quoting Bostock v. Clayton Cty., 140 S.
Ct. 1731, 1746 (2020)).

46a
because they drive up attendance. Thus, in United
States v. Tebeau,39 there was ample circumstantial
evidence that the campground owner wanted attendees to use drugs. Drug use and sales at his music festivals were so widespread that they presumably influenced attendance, for which the owner
charged a $50 admission fee. Indeed, the owner explicitly instructed security to admit dealers of marijuana and psychedelics, who openly advertised
their products.
****
In sum, despite complaining that Safehouse’s
construction is somehow inconsistent with the statute’s ambiguous text, the Majority has not identified a single inconsistency. Instead, the Majority relies on textual gloss after textual gloss, read into the
statute by other courts of appeals over the last
thirty years. The result is like a George Orwell
novel where identical words have different meanings, different words are superfluous, and two plus
two equals five. Furthermore, the Majority would
require a defendant to divine whether a third
party’s illicit purpose is “primary,” “substantial,”
“incidental,” or whatever other adjective fits the
government’s argument at a given moment. Far
from having a “well-established limiting principle,”40 the Majority does not define these terms, and
courts have had substantial difficulty pinning them
down.
I would construe section (a)(2)’s purpose element
consonant with the identical language in section
39

713 F.3d 955 (8th Cir. 2013).

40

Gov’t’s Reply at 13.

47a
(a)(1) and not contrary to virtually every other criminal statute on the books. If the government wishes
to prosecute Safehouse, it must show that
Safehouse will act with the requisite purpose. As explained below, the government has not done so.
III
I agree with the Majority that a defendant can
have multiple purposes and still be criminally liable.41 I also agree that a defendant’s intentional, unlawful acts usually are not excused merely because
they are a step to achieving some benevolent goal.
Thus, in United States v. Romano, 42 we held that a
lawful motive was not a defense to a crime requiring
the defendant to act with “an” or “any” “unlawful
purpose.” 43 Where, as here, a statute uses the
phrase “for the purpose of,” 44 however, our precedents focus on the defendant’s motivations. 45 Accordingly, I would hold that a defendant, who is not
motivated at least in part by a desire for unlawful
drug activity to occur and who in fact wants to reduce drug activity, has not acted with the requisite
purpose under section 856(a). On this record,
Safehouse has no “unlawful” motivating purposes.

41

See Hayward, 359 F.3d at 638.

42

849 F.2d 812 (3d Cir. 1988).

Romano, 849 F.2d at 812, 816 n.7 (emphasis added); accord
18 U.S.C. § 1382 (making it unlawful to “go[] upon any military
… installation, for any purpose prohibited by law or lawful regulation” (emphasis added)).
43

44

United States v. Shetler, 665 F.3d 1150, 1162 (9th Cir. 2011).

45

See Hayward, 359 F.3d at 638.

48a
A
The government concedes that Safehouse’s entire facility is the relevant “place.” 46 There is no evidence suggesting that Safehouse will admit anyone
to its facility hoping that they will use drugs. To the
contrary, it actively tries to persuade users to stop.
Unlike drug dealers and rave operators, Safehouse’s
motivating purpose is to put itself out of business.
The Majority puts undue emphasis on
Safehouse’s belief that the Consumption Room will
make participants more amenable to drug treatment. The record does not show that that belief is
the Consumption Room’s purpose. To the contrary,
increased amenability to drug treatment may be
just an incidental benefit of making Safehouse’s facility “available for use” for the purpose of providing
medical care to people who would otherwise do
drugs on the street and risk overdose—just as having an indoor place to use drugs is an incidental
benefit of “maintaining” a house for the purpose of
living there. Significantly, Safehouse does not prefer that participants choose the Consumption Room
over direct entry into rehabilitation: Participants
can always enter drug treatment at Safehouse, 47

46

Nov. 16, 2020 Tr. at 7:13–23, 8:12–23.

47 I have again “look[ed] at the factual stipulations,” as the government requested, but found nothing suggesting that it “is very
unlikely” that “somebody could come into Safehouse and not be
there to . . . ingest drugs” or that Safehouse “is not . . . set up [for]
people to come in to just get treatment.” Nov. 16, 2020 Tr. at
17:10– 18:21. To the contrary, “Safehouse intends to encourage
every participant to enter drug treatment, which will include an
offer to commence treatment immediately,” Appx. at 684, ¶ 9 (emphasis added), and Safehouse explicitly states on its website that

49a
and, for decades, defendant Benitez has tried (and
continues to try) to have drug users enter into rehabilitation through PPP.
Even if just the Consumption Room, not the full
Safehouse premises, were the relevant “place,” the
government’s claim still fails. In effect, the Majority
is trying to put yet another gloss on the statute: Section 856(a)(2) requires the defendant to make a
place “available for use” for the purpose of “using a
controlled substance,” not, as the Majority would
have it, “using a controlled substance [in the place].”
Because Safehouse requires participants to bring
their own drugs, Safehouse likely believes that participants would use drugs regardless of whether the
Consumption Room is available. Safehouse’s desire
for participants to use drugs in the Consumption
Room, as opposed to the street, does not imply that
Safehouse desires that they use drugs at all.
Moreover, and significantly, the record does not
suggest that participants must use drugs to enter to
the Consumption Room. For example, they could go
to the Consumption Room to receive fentanyl testing or safe-injection education for drugs they intend
to ingest elsewhere, or Naloxone to treat an ongoing
overdose that began outside the facility. Nor is
there any evidence that the Consumption Room will
facilitate drug use or that Safehouse believes that it
will do so. 48 Making the Consumption Room
participants can access its other services withing using the Consumption Room.
48 Although the government is correct that § 856(a)(2) does not
include the word “facilitate,” it is hard to imagine how an action
can be taken “for” a particular “purpose” if it does not facilitate
that purpose. Courts routinely use “purpose” and “facilitate” interchangeably. See, e.g., Abuelhawa v. United States, 556 U.S.

50a
available may make drug use safer, but the record
does not show that safer drug use is easier than unsafe drug use or causes more drug use to occur.
In conclusion, the government has not met its
burden of showing that drug use will be one of
Safehouse’s
motivating
purposes.
Rather,
Safehouse is trying to save people’s lives.
B
Even if “drug use” were Safehouse’s purpose,
Safehouse still does not violate the statute. Moreover, to the extent that the Majority holds that
Safehouse does, the statute is unconstitutional.
“Using a controlled substance” is not “unlawful” under federal law; possessing it is. At oral argument,
it was suggested that using drugs is unlawful under
state law. Not so. Pennsylvania law criminalizes the

816, 824 (2009) (“The Government does nothing for its own cause
by noting that 21 U.S.C. § 856 makes it a felony to facilitate ‘the
simple possession of drugs by others by making available for use
. . . a place for the purpose of unlawfully using a controlled substance” even though the crime facilitated may be a mere misdemeanor.”); United States v. Durham, 902 F.3d 1180, 1193 (10th
Cir. 2018); United States v. McGauley, 279 F.3d 62, 76 (1st Cir.
2002); United States v. Bolden, 964 F.3d 283, 287 (4th Cir. 2020);
United States v. Petersen, 622 F.3d 196, 208 (3d Cir. 2010);
United States v. Cole, 262 F.3d 704, 709 (8th Cir. 2001); United
States v. Ellis, 935 F.2d 385, 390–91 (1st Cir. 1991); see also
Rewis v. United States, 401 U.S. 808, 811 (1971); Fed. Ins. Co. v.
Mich. Mut. Liab. Co., 277 F.2d 442, 445 (3d Cir. 1960) (“Removing and replacing the rear wheels was to facilitate unloading, not
for the purpose of preserving an existing state or condition . . . .”).

51a
use of drug paraphernalia in certain circumstances, 49 but not the use of drugs itself. 50
Moreover, because “drug use” is not unlawful in
some states but is unlawful in others, we are faced
with situations where property possessors in different states may be treated differently by section
856(a)(2). In situations where the only “unlawful”
purpose of an establishment is “drug use,” section
856(a)(2) would allow someone in one state to use
his property in ways that someone in another state
could not. 51 The Equal Protection Clause has long
been applied to the federal government 52 and prohibits discrimination that is not “rationally related

49

See 35 PA. CONS. STAT. § 780-113(a)(32);

Commonwealth v. Rivera, 367 A.2d 719, 721 (Pa. 1976) (“The
m[e]re possession of such drugs, however, is not an offense under
the law . . . .”). The government argues that using drugs necessarily involves unlawful possession. Section 856(a) requires, however, that the defendant act for the purpose of “unlawfully . . .
using” drugs; it is not enough that they act for the purpose of
using drugs coupled with some different unlawful activity such
as possession. If Congress meant “possessing,” it certainly knew
how to say so; instead, it said “using.” Although proof of use can
serve as proof of unlawful possession, “the terms ‘possession’ and
‘use’ are by no means synonymous or interchangeable.” United
States v. Blackston, 940 F.2d 877, 883 (3d Cir. 1991). The same
is true of using drug paraphernalia for the purpose of ingesting
drugs: The operative unlawful conduct is the use of drug paraphernalia for the purpose of using drugs; § 856(a) requires the
drug use itself, however, to be unlawful.
50

See Hurtado v. United States, 410 U.S. 578, 595 (1973)
(Brennan, J. concurring in par) (“My conclusion that the majority
has misconstrued the statute is fortified by the conviction that
the statute, as interpreted by the Court, would be invalid under
the Due Process Clause of the Fifth Amendment.”).
51

52

See Bolling v. Sharpe, 347 U.S. 497, 499 (1954).

52a
to a legitimate governmental interest.” 53 I cannot
conceive of any rational basis for prosecuting those
who manage or control property in a state where
“drug use” is illegal and not doing so in a state
where “drug use” has not been made illegal.54
IV
In sum, I cannot agree with the Majority’s interpretation of section 856(a)(2). Because Safehouse
does not have any of the purposes prohibited by section 856(a)(2), I would affirm the District Court’s
holding that Safehouse’s conduct will not violate the
CSA. For the above reasons, I respectfully dissent.

U.S. Dep’t of Agric. v. Moreno, 413 U.S. 528, 533 (1973); cf.
Soto-Lopez v. N.Y. City Civ. Serv. Comm’n, 755 F.2d 266, 275–76
(2d Cir. 1985).
53

54 That is not to say that Congress can never incorporate state
law into a federal criminal statute if it does not discriminate based
on the location of property or has a rational basis for doing so. See,
e.g., United States v. Titley, 770 F.3d 1357, 1360–62 (10th Cir.
2014).

53a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________
No. 20-1422
________________
UNITED STATES OF AMERICA
v.
SAFEHOUSE, a Pennsylvania nonprofit corporation; JOSÉ BENITEZ, as President and Treasurer of
Safehouse
************************
SAFEHOUSE, a Pennsylvania nonprofit corporation
v.
U.S. DEPARTMENT OF JUSTICE;
WILLIAM P. BARR, in his official capacity
as Attorney General of the United States; and
WILLIAM M. MCSWAIN, in his official capacity as
U.S. Attorney for the Eastern District of
Pennsylvania
United States of America, U.S. Department of
Justice, United States Attorney General William
P. Barr, and the United States Attorney for the
Eastern District of Pennsylvania William M.
McSwain,
Appellants

54a
________________
(E.D. Pa. No. 2:19-cv-00519)
________________
SUR PETITION FOR REHEARING
________________
Present:

SMITH, Chief Judge, and McKEE, AMBRO,
CHAGARES,
HARDIMAN,
GREENAWAY, JR., SHWARTS, RESTREPO, BIBAS, MATEY, PHIPPS, and
ROTH1, Circuit Judges

The petition for rehearing filed by Appellees in
the above-captioned case having been submitted to
the judges who participated in the decision of this
Court and to all the other available circuit judges of
the circuit in regular active service, and no judge
who concurred in the decision having asked for rehearing, and a majority of the judges of the circuit
in regular service not having voted for rehearing,
the petition for rehearing by the panel and the
Court en banc is DENIED. Judges McKee, Restrepo, and Roth would have granted the petition.
By the Court,
s/ Stephanos Bibas
Circuit Judge
Dated: March 24, 2021
Lmr/cc: All Counsel of Record

1

Judge Roth’s vote is limited to panel rehearing only.

55a
OPINION SUR DENIAL OF PETITION FOR
REHEARING
McKee joined by Restrepo and Roth
Ultimately, the meaning of 21 U.S.C. § 856(a)(2)
must be decided by Congress. However, that is no
reason for us not to hear this case en banc. Until
Congress acts, Safehouse and others who attempt
the kind of therapeutic response that is at issue
here will continue to risk substantial prison sentences.
The District Court was the first in the country to
interpret 21 U.S.C. § 856(a)(2) and numerous jurisdictions around the country are considering the
same kind of therapeutic intervention that now
places Safehouse in prosecutorial crosshairs. Even
if the Majority’s analysis is correct, this declaratory
judgment action is too important to deny en banc
review by the entire court. The Majority opinion will
be studied by other jurisdictions around the country
where entities like Safehouse are considering similar therapeutic responses to the life-threatening
opioid epidemic that is engulfing so many communities and destroying so many lives. 2
2 Examples of innovative programs were brought to the Court’s
attention in amicus briefs submitted on behalf of interested cities
and states. As of 2018, 44 states have enacted Good Samaritan
legislation offering limited immunity from drug-related charges
for bystanders and other drug-users seeking help for those experiencing overdose. See Brief of the District of Columbia, and the
States of Delaware, Illinois, Michigan, Minnesota, New Mexico,
Oregon, Vermont, and Virginia as Amici Curiae in Support of the
Petition for Rehearing En Banc at 6-9, United States v.
Safehouse, 985 F.3d 225 (3d Cir. 2021) (No. 20-1422) (hereinafter
States’ Amicus). See also Brief of Fourteen Cities and Counties
as Amici Curiae in Support of Appellees’ Petition for Rehearing

56a
Yet, by denying the Petition for Rehearing that has
been filed, we declare that the issue is not sufficiently
important for the entire court to consider en banc.
Hopefully, legislation will clarify the meaning of 21
U.S.C. § 856(a)(2), but until that day comes, we owe it
to these parties and to communities within our jurisdiction to adjudicate this matter en banc. Moreover,
for the reasons so cogently set forth in Judge Roth’s
dissent, which I will briefly elaborate upon, I believe
there are problems with the Majority’s analysis. Independent of the sweeping importance of this matter,
those problems counsel rehearing. However, whether
the Majority or Dissent is correct, few other cases will
merit en banc review as much as this one. I therefore
dissent from the denial of the Petition for Rehearing.
I.
The Majority proceeds as if this statute is so clear
and unambiguous that resort to legislative history and
canons of statutory construction is not appropriate;
that simply is not so. Four judges have now examined
the language of 21 U.S.C. § 856(a)(2). Two interpret it
one way and two interpret it another. In a very thorough and well-reasoned opinion, the District Court
painstakingly examined the statutory text as well as
several doctrines of statutory construction and explained why § 856(a)(2) is ambiguous. In resolving that
ambiguity, the District Court explained why the statute cannot reasonably be interpreted as an expression
of congressional intent to criminalize what all agree is
a therapeutic intervention by Safehouse. Judge Roth’s
En Banc at 4, United States v. Safehouse, 985 F.3d 225 (3d Cir.
2021) (No. 20-1422). Additionally, California, New Mexico, and
Utah have all introduced bills seeking to open safe injection sites.
See States’ Amicus at 11.

57a
dissent explains why she believes the District Court’s
interpretation of § 856(a)(2) is correct. The Majority
reaches the opposite conclusion based upon its interpretation of that same language. My colleagues in the
Majority claim that their conclusion is based solely on
the text of the statute devoid of any and all policy considerations. That is not true. They must read words
into the statute that simply are not there in order to
avoid the very troubling consequences that naturally
result from their rigid insistence on a strictly literal
interpretation.
Safehouse is an entity whose Board of Directors is
comprised of a former Governor of Pennsylvania, an
academician, and prominent evangelists and theologians. The Advisory Committee includes the Commissioner of Public Health of the City of Philadelphia,
deans of the schools of public health of prominent universities in the city, a managing director of a
healthcare group, and an emergency room physician.
Given the Majority’s interpretation of this statute,
each of them could theoretically be prosecuted under
21 U.S.C. § 856(a)(2) and exposed to a period of incarceration of up to 20 years.3
Of course, neither status nor professional achievement should ever immunize one from prosecution for
criminal conduct. If community leaders, university
deans, theologians, and clinicians have actually engaged in conduct that Congress intended to criminalize, their status in the community and their good intentions is relevant, if at all, only to sentencing. As the
Majority correctly notes, “[G]ood intentions cannot
3 See 18 U.S.C. § 2 (imposing liability as a principal on anyone
who aids, abets, counsels or procures the commission of a federal
crime).

58a
override the plain text of [a] statute.”4 But the forceful
argument of the Dissent and the very well-reasoned
District Court opinion illustrate that we are not dealing with “plain text.” As Judge Roth explains, the statute is “nearly incomprehensible,” and the Government
conceded at argument that it is “poorly written.”5
All agree that 21 U.S.C. § 856(a)(2) makes it illegal
to “manage or control” a property and “knowingly and
intentionally” open it to visitors “for the purpose of . . .
using a controlled substance.” As the Majority explains, “[t]his case turns on how to construe and apply
§ 856(a)(2)’s last phrase: ‘for the purpose of.’”6 The Majority believes that “[t]o get a conviction under (a)(2),
the government must show only that the defendant’s
tenant or visitor had a purpose to . . . use drugs.”7 They
conclude that this “follows from the law’s language and
grammar,” and that “[i]t avoids making paragraph
(a)(2) redundant of (a)(1).”8 But, of course, there is a
problem. As the Dissent explains, such an interpretation imposes criminal liability on a property owner
based upon the conduct of a third party.9 Judge Roth
correctly hypothesizes that this would subject parents
to substantial criminal sanctions—including lengthy
imprisonment—if they allow their addicted child to

4

United States v. Safehouse, 985 F.3d 225, 236 (3d Cir. 2021).

5

Id. at 244 (Roth, J., dissenting).

6

Id. at 232.

7

Id. at 233 (emphasis in original).

8

Id.

9

Id. at 245 (Roth, J., dissenting).

59a
live at home and consume drugs there in order to minimize the chances of a fatal overdose.10
The Majority nevertheless insists that the language of § 856 controls: as “the statute’s plain text covers safe-injection sites[, w]e look no further.”4 By looking “no further,” my colleagues put on blinders and
thereby avoid the uncomfortable and troubling consequences of their interpretation. If the statute were
clear, I would agree. It is well established that a court
must “give effect to a statute’s unambiguous plain language unless it produces a result demonstrably at odds
with the intentions of the drafters ... or an outcome so
bizarre that Congress could not have intended it.”11
Both considerations are present here. Given the ambiguities of the statute and the logical consequences of
our holding, we should be exceedingly reluctant to assume Congress intended this statute to sweep as
broadly as the Majority holds.
As a purely textual matter, Judge Roth’s hypothetical about parents who allow their addicted son or
daughter to return home to “shoot up” certainly does
fall squarely within the text of the statue. The Majority
concludes that “[t]he plain text requires only that the
third party [i.e. the child] have the purpose of drug activity,” and “Section 856’s text makes it clear that
(a)(2)’s ‘purpose’ is not the defendant’s [i.e. the parents’].”12 According to the Majority, this result follows
not only from the text of the statute, but “from the way

Other hypotheticals abound, but for the sake of brevity, I
focus on this one. For other examples of the reach of the Majority’s holding, see id. at 238, 247-48.
10

11

In re Visteon Corp., 612 F.3d 210, 231 (3d Cir. 2010).

12

Safehouse, 985 F.3d at 233.

60a
that paragraphs (a)(1) and (a)(2) are written and structured.”13
II.
Congress did not historically enact legislation targeted at owners or managers of property where drugs
were used. However, after “very dirty and unkempt
houses blighted . . . neighborhoods, attracting a stream
of unsavory characters at all hours,”14 Congress found
it necessary to legislate. Initially, the statute passed by
Congress was “effectively used to shut down crack
houses.”15 However, legislation before enactment of 21
U.S.C. § 856(a)(2) did not reach club promoters and
“rave” organizers who profited from drug use at their
events. As Judge Roth explains, then-Senator Joseph
Biden introduced an amendment to § 856(a)(2) in 2003
to reach “rogue [club] promoters” who “not only know
that there is drug activity at their event[s] but also hold
the event[s] for the purpose of illegal drug use or distribution.”16 Senator Biden made it clear that this was a
targeted extension of criminal liability focused on the
actions of the “few promoters out there who are taking
steps to profit from drug activity at their events.”17 He
even cautioned that § 856(a)(2) had not been—and
should not be—used to “prosecute legitimate” businesses.18 Subjecting Safehouse to criminal prosecution
13

Safehouse, 985 F.3d at 233 (emphasis added).

14

Id. at 230.

15

149 Cong. Rec. S1679 (2003).

Safehouse at 245 (Roth, J., dissenting). See also 149 Cong.
Rec. S1679. Section 856 was later adopted as part of the 2003
Prosecutorial Remedies and Other Tools to end the Exploitation
of Children Today (PROTECT) Act.
16

17

149 Cong. Rec. S1678 (2003).

18

Id.

61a
under that statute is far worse than prosecuting a legitimate business. It is prosecution of an entity engaged in the struggle against the very evil that the Bill
was intended to combat. It is the polar opposite of the
evil then-Senator Biden had in mind when this legislation was proposed.19
As I suggested earlier, even the Majority appreciates that a purely textual reading of this statute
achieves a result that conflicts with congressional
intent. They explain that under the statute, criminal liability attaches when drug activity is a “significant” purpose of the third-party visitor. 20 Though
there has been no relevant finding or stipulation,
they assert that § 856(a)(2) is violated in this case
because “for most people, using drugs at Safehouse
. . . will be a significant purpose of their visit.”21
To avoid the problem of parental liability in
Judge Roth’s hypothetical, my colleagues in the majority insist that parents could not be prosecuted
based on a child’s drug use in their home because
such use would merely be “incidental” to him/her
living there.22 They state that, instead, “[p]eople use
these places to eat, sleep, and bathe.” 23 Excluding
criminal liability where drug use is “merely incidental” to occupancy is necessary to avoid the absurd results of Judge Roth’s hypothetical. But, of
course, there is no such textual limitation in 18
U.S.C. § 856(a)(2). Moreover, the creative limiting
19

See Safehouse, 985 F.3d at 251 (Roth, J., dissenting).

20

Id. at 237.

21

Id. at 238.

22

Id.

23

Id.

62a
language that the Majority reads into the statute
does not preclude criminal liability of parents if an
addicted child is not very concerned about eating,
sleeping or bathing at home as long as s/he can use
drugs there. In such a scenario, the child’s significant purpose would be using drugs in the home.
Given the tenacity of the craving occasioned by addiction and the distorted priorities that accompany
addiction, that is not only possible, it is quite probable. The purpose of such addicted persons would be
no different than the purpose the Majority assigns
to visitors to Safehouse. The text of § 856(a)(2) does
not allow for any distinction.
Their parsing of the statutory text alone purports to inform my colleagues in the Majority that
“the actor’s purpose must be more than ‘merely incidental.’” 24 We are told this adherence to the text
avoids the evil of judges making policy and that a
contrary holding would be judicial-policy-making. 25
As I have already suggested, the problem is that
this interpretation is not based solely on clear text
despite the Majority’s assertions to the contrary.
Rather, it is based on nothing more than the need
to avoid the uncomfortable absurdity that flows directly from a literal interpretation of the statute.
Where is the language that is needed to exclude
situations where the actor’s purpose is “merely incidental” to the drug usage? Nowhere does the text of
the statute require the use to be incidental to avoid
criminalization and nowhere does the Majority assist in defining these terms. The Majority adds that,
while it is the visitors who are required to, and do,
24

Safehouse, 985 F.3d at 237.

25

See id. at 243.

63a
have the significant purpose of using drugs, “[i]n
any event, Safehouse [itself] has a significant purpose that its visitors do drugs.” 26 But the Majority’s
analysis fails to address the possibility that—like
Safehouse—parents may too have the “significant
purpose” of allowing loved ones to consume drugs in
their home to avoid a fatal overdose. In fact, given
all of the agony of living with someone afflicted with
severe drug addiction, it is highly likely that a significant (and possibly the only) parental purpose for
keeping an addicted adult “child” at home would be
ensuring a lifeline in the event of an overdose.
The Majority takes the absurd results one step
further in making a finding that Safehouse’s own
significant purpose is for third parties to use drugs
at its facility.27 However, no visitor is “required to
use the Consumption Room to be eligible for any of
Safehouse’s other services, nor will Safehouse provide, store, handle, or encourage the use of drugs,
or allow others to distribute drugs on its property.” 28
III.
Nearly everyone here agrees that Congress did
not envision the situation posed by Safehouse’s Consumption Room when it enacted 21 U.S.C.
§ 856(a)(2). The District Court explained:
[T]here is no support for the view that
Congress meant to criminalize projects
such as that proposed by Safehouse.
Although the language, taken to its
26

Id. at 238.

Id. (“For Safehouse itself has a significant purpose that its
visitors use heroin, fentanyl, and the like.”).
27

28

Id. at 244 (Roth, J., dissenting) (emphasis in original).

64a
broadest extent, can certainly be interpreted to apply to Safehouse’s proposed
safe injection site, to attribute such
meaning to the legislators who adopted
the language is illusory. Safe injection
sites were not considered by Congress
and could not have been, because their
use as a possible harm reduction strategy among opioid users had not yet entered public discourse. 29
The Majority concedes that Congress could not
have conceived that operations such as Safehouse
would be criminalized by enacting the statute but
cites Pa. Dep’t of Corrections v. Yeskey to argue that
should not influence our statutory inquiry. 30 But of
course, Yeskey did not involve the kind of creative
judicial amendment that the Majority slips into the
statute. Rather, there, the Court simply held that a
prisoner could sue a state penal institution under
the ADA because “[s]tate prisons fall squarely
within the statutory definition of ‘public entity,’
which includes ‘any . . . agency . . . or other instrumentality of a State . . . or local government.” 31 It
was therefore irrelevant that Congress did not intend to subject prisons to such claims. The plain
text authorized them.
It is, of course, correct to observe that “[s]tatutes
often reach beyond the principal evil that animated
them[,]” as my colleagues do in citing Sedima,
United States v. Safehouse, 408 F. Supp. 3d 583, 585-86 (E.D.
Pa. 2019).
29

30

Safehouse, 985 F.3d at 238.

31

524 U.S. 212, 210 (1998).

65a
S.P.R.L. v. Imrex Co.32 They correctly remind us
that “though Congress meant RICO to target mobsters, it reaches far beyond them to legitimate business as well.” 33 The analogy does not advance our
inquiry. Congress clearly intended to reach individuals who operate a criminal “enterprise” through a
pattern of racketeering when it enacted RICO.
Courts did not have to read any language into the
statute to hold that legitimate businesses could constitute an enterprise if persons other than traditional “mobsters” conducted their affairs through a
pattern of racketeering activity.
As Judge Roth notes in dissent, none of the examples relied upon by the Majority include imposing criminal sanctions on someone based upon
someone else’s “purpose.” Neither she nor I “know
of . . . [a] statute, other [than] § 856(a)(2), in which
the ‘purpose’ of an unnamed third party would . . .
determine[] the mens rea necessary for a defendant
to violate the statute.” 34 There is little comfort in the
argument that this is required in order to avoid the
evil of judicial-policy-making.
At oral argument, the Government confidently
proclaimed that Safehouse’s Consumption Room “is
exactly the type of thing that Congress was concerned about, even though they didn’t specifically
know about injection sites.” 35 That is simply wrong.
Not surprisingly, no authority was offered to
32

Safehouse, 985 F.3d at 238.

Id. (citing Sedima S.P.R.L v. Imrex Co., 473 U.S.479, 499
(1985)).
33

34

Id. at 245 (Roth, J., dissenting).

Transcript of Oral Argument at 23, United States v.
Safehouse, 985 F.3d 225 (2021) (No. 20-1422).
35

66a
support that bare assertion, and none has been offered in its brief to this Court. And subsequent
events prove its fallacy. Since 21 U.S.C. § 856(a)(2)
was enacted, the federal government has adopted a
policy of overdose prevention. 36 Moreover, most
states now have Syringe Exchange Programs, which
provide clean needles to drug users to reduce the
transmission of blood-borne diseases. 37 Several of
these interventions are recommended by the Center
for Disease Control. 38 Safehouse is simply not the
type of “place” that Congress was concerned about
when the statute was enacted. One need only look
to the aforementioned statement of then-Senator
Biden to appreciate just how far off the mark the
Government’s contrary assertion was. We simply
See U.S. Dept. of Health & Human Services, Strategy to
Combat Opioid Abuse, Misuse, and Overdose (2017),
https://www.hhs.gov/opioids/about-the-epidemic/hhs-response/index.html.
36

While the federal government cannot provide funds for the
purchase of syringes, once a state has demonstrated the need for
a needle exchange program, they can get funding from the Center
for Disease Control to provide services including (but not limited
to) personnel, syringe disposal kits, and education in support of
syringe exchange programs. The prohibition on using federal
funds to purchase syringes does not prevent the CDC from extolling the benefits of such programs. See Safehouse 985 F.3d at 239;
see also States’ Amicus at 8; see also Center for Disease Control,
Federal
Funding
for
Syringe
Service
Programs,
https://www.cdc.gov/ssp/ssp-funding.html#regarding-funding.
37

38 Center for Disease Control, Summary of Information on the
Safety and Effectiveness of Syringe Services Programs (SSPS),
https://www.cdc.gov/ssp/syringe-services-programs-summary
.html (“Syringe services programs can benefit communities and
public safety by reducing needlestick injuries and overdose
deaths, without increasing illegal injection of drugs or criminal
activity.”).

67a
cannot (and should not) presume that Congress
meant to equate the efforts of Safehouse with crack
house operators and expose them to 20 years in
prison. Furthermore, as the District Court explained in its scholarly opinion, traditional rules of
statutory construction counsel against it.
IV.
I end where I began. I fully appreciate that the
final answer to this inquiry must come from Congress. Only Congress can clarify the intended scope
of 21 U.S.C. § 856(a)(2). In the interim, whether or
not the Majority’s analysis is correct, this case is
simply too important to deny en banc review. It deserves to be heard by the full court. I therefore must
respectfully dissent from our denial of the Petition
for Rehearing. Judge Restrepo joining Judge
McKee’s dissent.

68a
APPENDIX C
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF PENNSYLVANIA
Civ. No. 19-0519
UNITED STATES OF AMERICA,
Plaintiff,
v.
SAFEHOUSE, a Pennsylvania nonprofit corporation;
JOSÉ BENITEZ, as President and Treasurer of
Safehouse,
Defendants.
*******************
SAFEHOUSE, a Pennsylvania nonprofit corporation,
Counterclaim Plaintiff,
v.
U.S. DEPARTMENT OF JUSTICE,
Counterclaim Defendant,
and
WILLIAM P. BARR, in his official capacity
as Attorney General of the United States; and
WILLIAM M. MCSWAIN, in his official capacity as
U.S. Attorney for the Eastern District of
Pennsylvania,
Third-Party Defendants.

69a
Filed: February 25, 2020

MEMORANDUM
McHugh, J., District Judge.
This case arises out of Defendant Safehouse’s
proposal to open a safe injection site in Philadelphia
to mitigate the harms resulting from unlawful opioid abuse, and the Government’s determination
that opening such a site would be unlawful. Previously, I denied a motion for judgement on the pleadings filed by the United States. ECF 134. In doing
so, I concluded that, “[a]ccepting the facts in the
pleadings as true, as required under Rule 12 of the
Federal Rules of Civil Procedure, 21 U.S.C.
§ 856(a)(2) would not prohibit Safehouse from establishing and operating an overdose prevention facility that provides medically supervised consumption services.” ECF 134, at 1-2.
That ruling was a nonfinal interlocutory order
because it represented nothing more than denial of
a motion. Safehouse did not cross-move for relief,
and thus the prior order did not “end[] the litigation
on the merits and leave[] nothing for the court to do
but execute the judgment.” Catlin v. United States,
324 U.S. 229, 233 (1945). Following consultation
with the Court, the parties agreed to a stipulated
set of facts, see ECF 137, Ex. A, and filed cross-motions intended to produce a final, appealable order.
To that end, Safehouse moves for final declaratory
judgment under Federal Rules of Civil Procedure 56
and 57, ECF 137, and the Government opposes and
cross-moves for summary judgment, ECF 139.

70a
The recent filings recapitulate the arguments
previously advanced by the parties. Safehouse argues that the establishment and operation of its
overdose prevention services model, which would
include supervised consumption rooms, does not violate Section 856(a)(2), which makes it unlawful for
any person to “manage or control any place . . . and
knowingly and intentionally . . . make available for
use, with or without compensation, the place for the
purpose of unlawfully . . . using a controlled substance.” See ECF 137-3. Because Safehouse relies on
a statutory argument, it suggests that the Court
“need not reach Safehouse’s remaining claims under
the Religious Freedom Restoration Act . . . and the
Commerce Clause of the U.S. Constitution.” ECF
137, at 7 n.5. I agree that the Court can render a
final judgment on the application of Section
856(a)(2) alone. 1
In response, the Government principally restates its “core contention” that Safehouse’s
1 Safehouse requests the Court dismiss without prejudice its
counterclaim under the Religious Freedom Restoration Act as
moot, see ECF 3, at 42-43 (pleading counterclaim); ECF 137-3, ¶ 3
(proposing dismissal without prejudice), and, in doing so, seeks to
“reserve[] the right to press those claims if this Court’s declaratory judgment on the underlying statutory question were vacated, reversed, or remanded by an appellate court or if changed
circumstances otherwise established a ripe controversy as to
those claims.” Id. The Government contends that by making this
request Safehouse has “abandon[ed] its claim[s]” under RFRA
and a related claim under the Commerce Clause. ECF 139, at 1112, 12 n.8. I disagree. Given that Safehouse has won the declaratory judgment it seeks, there is no need to reach its additional
claims, and its request that this Court dismiss the RFRA and
Commerce Clause claims without prejudice is sensible. The
claims are therefore deemed to be preserved.

71a
overdose prevention model “violate[s] § 856(a)(2).”
ECF 139, at 3. To the Government, the plain text of
Section 856(a)(2) demands this result—“(1)
Safehouse would manage and control a place as either an owner or lessee, that (2) it would knowingly
and intentionally make available, (3) for the purpose of unlawfully using a controlled substance.”
ECF 139, at 5. I addressed those arguments in my
prior opinion and, even accepting an evolved standard of review, nothing warrants revisiting them
now. ECF 133, at 49-55.
The Government also seeks to inject some procedural uncertainty into the dispute. First, the Government argues that Safehouse’s motion for declaratory relief should be resolved pursuant to Rule 56
and not Rule 57 because “a motion for declaratory
judgment under [Rule] 57 would be procedurally improper.” ECF 139, at 5 n.3. To support its contention
that declaratory relief is improper, the Government
cites to Arizona v. City of Tucson, 761 F.3d 1005 (9th
Cir. 2014), for the proposition that “[r]equests for
declaratory judgment are not properly before the
court if raised . . . by motion.” ECF 139, at 5 n.3
(quoting City of Tucson, 761 F.3d at 1010). That
misreads City of Tucson. In that case and the other
cases relied upon by the Government for support,
the movants sought declaratory relief by filing a
Rule 57 motion without first seeking declaratory relief in their initial pleadings. Indeed, in City of Tucson, in the very sentence before the sentence quoted
by the Government, the Court held that a “request
for declaratory relief is properly before the court
when it is pleaded in a complaint for declaratory
judgment.” Id. Here, Safehouse sought a declaration pursuant to the Declaratory Judgment Act in

72a
its counterclaims and third-party complaint. See
ECF 3, at 41; ECF 45, at 5. A final declaratory judgment under Rule 57 is the appropriate vehicle to
conclusively resolve the immediate and actual legal
controversy on the statutory question. See Fed. R.
Civ. P. 57, Notes on Advisory Committee on Rules
(1937). The parties maintain a live and actual legal
controversy, have stipulated to all material facts,
and have moved for declaratory relief as to the
reach of Section 856(a)(2).
Such maneuvering by the Government at this
late stage is not constructive. At no point until its
latest filing did the Government suggest that consideration of a motion for declaratory judgment
would be procedurally improper. From the inception
of this case Safehouse requested a full trial on the
merits to resolve whether its proposed operation
comports with federal law, and with it the opportunity to develop a detailed factual record. And for
just as long the Government has strenuously resisted such an approach. The Government has never
argued there was a need for additional evidence, a
fact of which they were reminded at oral argument.
See ECF 133, at 6 n.4. The present motions were
filed in consultation with the Court for the express
purpose of creating a final appealable order, something sought by both sides. See ECF 137, at 3. And
the parties’ stipulation to specific facts—an approach first suggested by the Court to the parties in
late August—was intended to complete the record
to finally adjudicate a difficult and complex matter
of first impression.
The Government further contends that inferences drawn in resolving a motion to dismiss under
Rule 12 are not properly drawn in resolving the

73a
pending motions. Specifically, the Government protests that Safehouse “never said in its pleadings
that it would reduce unlawful drug use, nor do the
Stipulated Facts so state,” and that, because
Safehouse has moved affirmatively for final relief,
“the Court cannot make this factual inference in
Safehouse’s favor.” ECF 139, at 11 n.4. In advancing
this argument, the Government continues to confuse purpose with outcome. The reach of Section
856(a)(2) did not then and does not now depend to
any degree on whether Safehouse’s model actually
“would reduce unlawful drug use.” Section
856(a)(2)’s applicability turns on the objective of the
relevant actor, not on the effectiveness of a proposed
intervention model. In fact, my opinion of October
2, 2019, explicitly declined to address “whether safe
injection sites are an appropriate means of dealing
with the opioid crisis.” ECF 133, at 2.
In any case, no inference is necessary at this
stage because the parties have stipulated to various
facts as recommended by the Court. These include
that “Safehouse seeks to open the first safe injection
site in the U.S. in the City of Philadelphia and is . .
. [a] nonprofit corporation whose mission is to save
lives by providing a range of overdose prevention
services,” and that “the overdose prevention services it intends to offer are aimed at preventing the
spread of disease, administering medical care, and
encouraging drug users to enter treatment.” ECF
137, Ex. A, ¶ 1. Admittedly, that stipulation is prefaced by “according to Safehouse” or “according to
[Safehouse’s] website,” but later stipulations remove any ambiguity. The parties agree that
“Safehouse intends to offer each participant its services, which include use of supervised drug

74a
consumption and observation rooms, medical services, including wound care, onsite initiation of
Medication-Assisted Treatment, recovery counseling, HIV and HCV counseling, testing and treatment, referral to primary care, and referrals to social services, legal services and housing opportunities.” Id. ¶ 9. The parties also agree that Safehouse
“intends to encourage every participant to enter
drug treatment, which will include an offer to commence treatment immediately.” Id. Given those
stipulations, the analysis in my memorandum opinion of October 2, 2019, applies with equal validity to
the record before me, and there is nothing procedurally improper in granting the declaratory relief
sought by Safehouse.
The Government’s sudden focus on factual nuances overlooks the complexity of determining the
proper application of the law. Safehouse does not
hide that illegal substances will be used on its premises. To the Government, that alone is enough to resolve the statutory question. But that position depends upon an overly simplistic formulation of “purpose,” one that it struggled to defend at oral argument. For instance, the Government acknowledged
that Safehouse could skirt the proscriptions of Section 856(a)(2) if it operated essentially the same
overdose prevention model out of a mobile van instead of a fixed piece of real property so long as no
user “c[a]me into the mobile unit.” ECF 131, at 42:443:5. And when confronted with a hypothetical
about parents who instructed their child to use unlawful drugs in their home so that they could resuscitate the child if necessary, the Government—contrary to its previously avowed core reading of the
statute—responded that Section 856(a)(2) would

75a
not apply to that conduct. It conceded the parents
would not have an unlawful “purpose” in participating in such life-saving activity. ECF 133, at 41; see
also ECF 131, at 38:17-42:3.
The Court’s objective in encouraging the parties
to supplement the record by stipulation and agree
upon a mechanism for entering final judgment was
to eliminate any factual ambiguity and thereby facilitate appellate review of difficult and subtle issues, including the meaning of “purpose.” Such clarity and precision have particular importance here,
where it is a criminal statute that the Government
seeks to invoke in exercising its authority.
*****
Given the history of this case, and the parties’
supplementation of the record, there is nothing procedurally improper in granting the declaratory relief sought by Safehouse. The analysis in my memorandum opinion of October 2, 2019, applies with
equal validity to the expanded record. I will therefore grant Safehouse’s Motion for Final Declaratory
Judgment and deny the Government’s Motion for
Summary Judgment. An appropriate Order follows.
/s/ Gerald Austin McHugh
Gerald Austin McHugh
United States District Judge

76a
APPENDIX D
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF PENNSYLVANIA
Civ. No. 19-0519
UNITED STATES OF AMERICA,
Plaintiff,
v.
SAFEHOUSE, a Pennsylvania nonprofit corporation;
JOSÉ BENITEZ, as President and Treasurer of
Safehouse,
Defendants.
*******************
SAFEHOUSE, a Pennsylvania nonprofit corporation,
Counterclaim Plaintiff,
v.
U.S. DEPARTMENT OF JUSTICE,
Counterclaim Defendant,
and
WILLIAM P. BARR, in his official capacity
as Attorney General of the United States; and
WILLIAM M. MCSWAIN, in his official capacity as
U.S. Attorney for the Eastern District of
Pennsylvania,
Third-Party Defendants.

77a
Filed: February 25, 2020

ORDER
For the reasons set forth in the accompanying
Memorandum, and in this Court’s previous memorandum opinion of October 2, 2019, upon consideration of
Defendants’ Motion for Final Declaratory Judgment
(ECF 137), the Government’s Motion for Summary
Judgment and Opposition to Defendants’ Motion for
Declaratory Judgment (ECF 139), and Defendants’
Memorandum of Law in Opposition to the Government’s Cross-Motion for Partial SummaryJudgment
(ECF 140), this 25th day of February, 2020, it is
hereby ORDERED that Defendants’ motion is
GRANTED and the Government’s motion is DENIED, as follows:
1.

Defendants’ Motion for Declaratory Judgment is
GRANTED.

2.

JUDGMENT is ENTERED in favor of Safehouse and
Jose Benitez and against the United States of America,
U.S. Department of Justice, United States Attorney
General William P. Barr, and United States Attorney for
the Eastern District of Pennsylvania William M.
McSwain on all of Plaintiff’s claims and on Count I of
Safehouse’s counterclaim.

3.

Count II of Defendants’ counterclaim is DISMISSED
WITHOUT PREJUDICE as moot.

4.

It is DECLARED that the establishment and operation
of Defendants’ overdose prevention services model, including supervised consumption in accordance with the

78a
parties’ stipulated facts (ECF 137, Ex. A), does not violate 21 U.S.C. § 856(a).

/s/ Gerald Austin McHugh
Gerald Austin McHugh
United States District Judge

79a
APPENDIX E
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF PENNSYLVANIA
Civ. No. 19-0519
UNITED STATES OF AMERICA,
Plaintiff,
v.
SAFEHOUSE, a Pennsylvania nonprofit corporation;
JOSÉ BENITEZ, as President and Treasurer of
Safehouse,
Defendants.
*******************
SAFEHOUSE, a Pennsylvania nonprofit corporation,
Counterclaim Plaintiff,
v.
U.S. DEPARTMENT OF JUSTICE,
Counterclaim Defendant,
and
WILLIAM P. BARR, in his official capacity
as Attorney General of the United States; and
WILLIAM M. MCSWAIN, in his official capacity as
U.S. Attorney for the Eastern District of
Pennsylvania,
Third-Party Defendants.

80a
Filed: October 2, 2019

MEMORANDUM
McHugh, J., District Judge.
This is a declaratory judgment action brought by
the United States seeking to enjoin the operation of
a proposed safe injection site for opioid users in the
City of Philadelphia. The Government contends
that its operation is unlawful under the Controlled
Substances Act (CSA). As an initial matter, it is useful to delineate what is not before the Court. The
question is not whether safe injection sites are an
appropriate means of dealing with the opioid crisis,
either as a matter of public policy or a matter of
public health. Nor does this Court have jurisdiction
to address the concerns raised by residents of the
beleaguered neighborhood of Kensington in Philadelphia as to the appropriate location for the operation of such a facility, if it is lawful. It is also helpful
to observe that, although both parties globally invoke various aspects of the Controlled Substances
Act, a sprawling statute amended many times over
many years, this case focuses on a single narrow
provision of the Act, 21 U.S.C. § 856(a)(2)—colloquially known as the “Crack House” statute—as the legal basis for the injunction sought by the Government.
This narrowness of focus reflects a fundamental
underlying reality, which is that no credible argument can be made that facilities such as safe injection sites were within the contemplation of Congress either when it adopted § 856(a) in 1986, or
when it amended the statute in 2003. And that

81a
baseline reality ultimately has substantive significance in determining whether this statute is
properly applied to the safe injection site proposed
by Safehouse.
Having examined the text and employed a number of tools of statutory construction, I conclude that
the provision on which the Government relies is reasonably capable of more than one interpretation.
This supports a further conclusion that consideration of the legislative evidence surrounding passage
of this provision is appropriate. As discussed below,
courts must exercise extreme care in discerning the
objective sought by Congress in enacting a statute.
That said, having reviewed materials I consider appropriate in discerning what Congress sought to address in enacting § 856(a)(2), there is no support for
the view that Congress meant to criminalize projects such as that proposed by Safehouse. Although
the language, taken to its broadest extent, can certainly be interpreted to apply to Safehouse’s proposed safe injection site, to attribute such meaning
to the legislators who adopted the language is illusory. Safe injection sites were not considered by
Congress and could not have been, because their use
as a possible harm reduction strategy among opioid
users had not yet entered public discourse. Particularly in the area of criminal law, it is the province
of Congress to determine what is worthy of sanction.
A line of authority dating back to Chief Justice John
Marshall cautions courts against claiming power
that properly rests with the legislative branch. 1 A
1 United States v. Davis, 139 S. Ct. 2319, 2333 (2019) (quoting
United States v. Wiltberger, 18 U.S. (5 Wheat.) 76, 95 (1820)
(Marshall, C.J.)).

82a
responsible use of judicial power under those circumstances is to decline to expand the scope of criminal liability under the statute and allow Congress
to address the issue.
I. The Relevant Factual Background
Safehouse seeks to open an “Overdose Prevention Site,” which will offer a variety of services
aimed at preventing the spread of disease, administering medical care, and encouraging drug users to
enter treatment. According to Safehouse’s representations about its protocol, 2 when one arrives at
Safehouse, they will first go through a registration
process. The participant will provide certain personal information and receive a physical and behavioral health assessment. Safehouse staff will then
offer a variety of services, including medication-assisted treatment, medical care, referrals to a variety
of other services, and use of medically supervised
consumption and observation rooms. There is nothing in the protocol that suggests Safehouse will specifically caution against drug usage.
Participants who choose to use drugs in the medically supervised consumption room will receive
sterile consumption equipment as well as fentanyl
test strips once they enter the room. At no point will
Safehouse staff handle or provide controlled substances. Staff members will supervise participants’
consumption and, if necessary, intervene with
2 I base this summary of Safehouse’s proposed operation and
protocol only on the facts presented in the pleadings, including
Exhibit A to the Government’s Amended Complaint, which is a
printout of a previous version of Safehouse’s website. I have disregarded all witness testimony presented at the evidentiary
hearing held on August 19, 2019.

83a
medical care, including reversal agents to prevent
fatal overdose. Before leaving the room, participants will dispose of used consumption equipment.
After participants finish in the medically supervised consumption room, staff will direct them to
the medically supervised observation room. Nothing
in the Safehouse protocol appears to require that a
participant remain in the observation room for a
specified period of time. In the observation room,
certified peer counselors, as well as recovery specialists, social workers, and case managers will be
available to offer services and encourage treatment.
The same services will again be offered for the third
time at check out.
II. Procedural Posture
After Safehouse announced its plans, the Government engaged in some correspondence with
Safehouse’s leadership. The parties could not reach
agreement, and the United States then initiated
this action against Safehouse and its President and
Treasurer, Jose Benitez. 3 See Pl.’s Compl., ECF No.
1; Pl.’s Am. Compl., ECF No. 35. The Government
seeks a declaratory judgment that the medically supervised consumption rooms violate 21 U.S.C.
§ 856(a)(2). I commend the Government for proceeding in this manner, rather than with criminal prosecution. Defendants answered the Government’s
3 The Government initially brought the action against
Safehouse and Jeannette Bowles, whom it expected to be
Safehouse’s Executive Director. Pl.’s Compl., ECF No. 1. After it
became clear that Jeannette Bowles had severed ties with
Safehouse, the parties stipulated to her dismissal, Stipulation of
Dismissal, ECF No. 30, and the Government amended its complaint, naming Jose Benitez instead. Pl.’s Am. Compl., ECF No.
35.

84a
Declaratory Judgment Complaint with several affirmative defenses, including an argument that application of the statute to their proposed site would
be unconstitutional. Defs.’ Answer to Compl., ECF
No. 3; Defs.’ Answer to Am. Compl., ECF No. 45.
Safehouse also brought counterclaims and thirdparty claims, first seeking a declaratory judgment
that its proposed operation will not violate § 856(a)
and second seeking a declaratory judgment that the
Department of Justice’s efforts to enforce the statute, threats to prosecute Safehouse, and litigation
against Safehouse violate 42 U.S.C. § 2000bb, the
Religious Freedom Restoration Act. Id. The Government answered Safehouse’s counterclaims and
third-party complaint, Pl. & Third-Party Defs.’ Answer, ECF No. 46, and then filed a Motion for Judgment on the Pleadings as to its claim as well as the
counterclaims and third-party claims. Pl. & ThirdParty Defs.’ Mot. for J. on the Pleadings, ECF No.
47.4
4 At the outset of the case, the Government represented that
the issue was purely one of law that could be decided on a Motion
for Judgment on the Pleadings. Safehouse objected and requested a full trial. I adopted the Government’s view but sought
more detail as to the protocol under which Safehouse was to operate. Therefore, I requested an evidentiary hearing on a limited
number of issues, with the goal of having the parties amend the
pleadings to frame the issues. Safehouse provided a summary of
proposed testimony that broadly addressed issues of public policy
and public health. I declined to allow it such leeway, and attempted to provide the parties with clear guidance as to the narrow scope of the proposed hearing. The hearing was held on August 19, 2019. Safehouse presented substantial evidence that
went well beyond the scope of my guidelines. The Government
raised no objection, however, and it became clear during crossexamination that the Government also sought to use the hearing
to address a number of public policy and public health issues.

85a
After considering the pleadings, the Government’s Motion for Judgment on the Pleadings,
Safehouse’s Response, ECF No. 48, and the Government’s Reply, ECF No. 115, I have concluded that
21 U.S.C. § 856(a) does not prohibit Safehouse’s proposed medically supervised consumption rooms because Safehouse does not plan to operate them “for
the purpose of” unlawful drug use within the meaning of the statute. Accordingly, I need not consider
whether application of the statute to Safehouse’s
proposed conduct violates the Commerce Clause. As
to the Religious Freedom Restoration Act,
Safehouse’s claim that the Government’s effort to
enforce 21 U.S.C. § 856(a) violates the Religious
Freedom Restoration Act is now moot, as Safehouse
sought only prospective injunctive relief. The Government’s Motion will be denied as to its claim for
declaratory judgment, as well as Safehouse’s counterclaim for declaratory judgment.

After considering the record, I held a telephone conference on
August 23, 2019, and advised both parties that neither had
abided by my ground rules for the hearing. I then sought to secure agreement as to nine discrete factual items to be incorporated into the record by agreement. The parties were able to
reach agreement on eight of the nine points but had a vigorous
dispute as to the ninth. I then ruled that I would consider nothing
beyond the pleadings. Ironically, during oral argument, the Government repeatedly invoked portions of the testimony from Mr.
Benitez in an attempt to support is arguments. Significantly,
however, the Government has not withdrawn its Motion for
Judgment on the Pleadings or altered its original position that
no further record is necessary. I have therefore proceeded to address the pending Motion for Judgment on the Pleadings without
reference to the testimony presented at the evidentiary hearing,
as originally requested by the Government.

86a
III. The Controlling Procedural Standard
A Rule 12(c) motion for judgment on the pleadings
“is analyzed under the same standards that apply to a
Rule 12(b)(6) motion.” Revell v. Port Auth. of N.Y. &
N.J., 598 F.3d 128, 134 (3d Cir. 2010). This well-established standard requires that I view the pleadings in
the light most favorable to the non-moving party.
Leamer v. Fauver, 288 F.3d 532, 535 (3d Cir. 2002). “A
Rule 12(c) motion should not be granted unless the
moving party has established that there is no material
issue of fact to resolve, and that it is entitled to judgment in its favor as a matter of law.” D.E. v. Cent.
Dauphin Sch. Dist., 765 F.3d 260, 271 (3d Cir. 2014)
(internal quotations and citations omitted). I may consider all pleadings in ruling on a motion for judgment
on the pleadings. Id. (citing to Rule 12(c)).
IV. The Statutory Question
For purposes of this motion, the facts outlined
above are undisputed, and the sole question is one
of law.
a. The Absence of a Controlling Standard of Statutory Construction
District courts must faithfully apply the law Congress enacts. Binding precedent usually dictates or
substantially influences the way in which district
courts apply the law. But the Third Circuit has not yet
considered the proper construction of 21 U.S.C.
§ 856(a), and although other courts of appeals have
addressed that subsection, no court has yet considered

87a
its application to medically supervised consumption
sites.5
When a district judge must address a novel question of statutory construction, part of the challenge is
that “[s]tatutory interpretation does not have a defined
set of predictable rules. The doctrines of the field are
not treated as law. They do not have a theorized jurisprudence that legitimates their source, or even indicates what it might be.” Abbe R. Gluck, Justice Scalia’s
Unfinished Business in Statutory Interpretation:
Where Textualism’s Formalism Gave Up, 92 Notre
Dame L. Rev. 2053, 2054 (2017). There are instead
competing models and schools of thought, and a judge’s
choice of methodology carries a risk of dictating the
outcome of a case. For that reason, I first address the
various methods available, both because I believe
transparency is important, and because I am convinced that judges must be conscious of the inherent
limitations in all the various methods employed.
The Third Circuit has noted that a court’s “goal
when interpreting a statute is to effectuate Congress’s
intent.” S.H. ex rel. Durrell v. Lower Merion School
Dist., 729 F.3d 248, 257 (3d Cir. 2013) (quoting Hagans
v. Comm’r of Soc. Sec., 694 F.3d 287, 295 (3d Cir.
2012)). Stated differently, “[w]hen a court interprets a
statute, the court articulates the meaning of the words
of the legislative branch.” Robert A. Katzmann, Judging Statutes 8 (2014). In this endeavor, the Third Circuit has, as recently as this past August, again emphasized that “words matter” and that interpreters must
5 The Third Circuit has considered the meaning of the word
“maintained” under U.S.S.G. § 2D1.1(b)(12) and looked to other
circuit courts’ interpretations of the word “maintained” in § 856.
United States v. Carter, 834 F.3d 259, 262-63 (3d Cir. 2016).

88a
begin the process of statutory construction by looking
to the text. Pellegrino v. Transp. Sec. Admin., 937 F.3d
164, 2019 WL 4125221, at *12 (3d Cir. Aug. 30 2019)
(en banc) (Ambro, J.) (majority opinion); id. (Krause,
J., dissenting). Accordingly, where the meaning of a
provision is clear, a court need not look beyond the
statutory language.
To determine whether language is unambiguous,
the Third Circuit has instructed that one should “read
the statute in its ordinary and natural sense.” In re
Phila. Newspapers, LLC, 599 F.3d 298, 304 (3d Cir.
2010) (quoting In re Harvard Indus., Inc., 568 F.3d
444, 451 (3d Cir. 2009)). “A provision is ambiguous
only where the disputed language is ‘reasonably susceptible of different interpretations.’” Id. (quoting Dobrek v. Phelan, 419 F.3d 259, 264 (3d Cir. 2005)). In
application, however, reliance on the plain meaning of
the text is hardly as simple as its proponents contend,
as evidenced by cases where both the majority and dissent claim that the language of a statute is clear and
unambiguous while reaching opposite results. See, e.g.,
Zuni Pub. Sch. Dist. No. 89 v. Dep’t of Educ, 550 U.S.
81 (2007). I find substantial merit to the observation
that “[p]lain meaning is a conclusion, not a method.”
Victoria Nourse, Misreading Law, Misreading Democracy 5, 66, 68-69 (Harvard Univ. Press 2016) (hereinafter Nourse, Misreading Law).
Where plain meaning proves elusive or “a statute
is unclear on its face,” the Court of Appeals has recently reaffirmed that “good arguments exist that materials making known Congress’s purpose ‘should be
respected, lest the integrity of legislation be undermined.’” Pellegrino, 2019 WL 4125221 at *11 (quoting
Robert A. Katzmann, Judging Statutes 4 (2014)). In
fact, respecting Congress’s purpose is necessary to

89a
preserve both the legislative and judicial roles, and
legislative materials often provide helpful insight into
what Congress meant to accomplish with a given statute. Among the criticisms leveled at courts’ use of legislative materials is that they are cited selectively and
cited indiscriminately without recognition that different sources are entitled to different weight.6 Judges
must therefore consider legislative materials with an
accurate understanding of Congress’s rules and procedures. Katzman, supra at 49; Richard A. Posner, Statutory Interpretation—in the Classroom and in the
Courtroom, 50 U. Chi. L. Rev. 800, 802-05 (1983) (hereinafter Posner, Statutory Interpretation).
Recently, Georgetown Law Professor Victoria
Nourse7 articulated five guiding principles to facilitate
a disciplined, objective use of legislative history—
which she prefers to call “legislative evidence”—in
statutory interpretation. Nourse, Misreading Law,
Indeed, the Government at oral argument voiced the oft-repeated criticism that using legislative history is like looking over
the heads of guests at a cocktail party and choosing one’s friends.
See Tr. at 12; Conroy v. Aniskoff, 507 U.S. 511, 519 (1993). In reality, the same potential problem also pervades the realm of judicial canons of statutory construction, as judges choose which canons to employ, Anita S. Krishnakumar, Dueling Canons, 65 Duke
L.J. 909 (2016), and the realm of textual analysis, as judges select
the specific words on which to focus, Victoria Nourse, Picking and
Choosing the Text: Lessons for Statutory Interpretation from the
Philosophy of Language, 60 Fla. L. Rev. 1409 (2017). Whatever
tools judges employ, it must be with an awareness of their limitations.
6

7 I am indebted to Judge Michael Boudin, of the First Circuit,
for first acquainting me with Professor Nourse’s work. I note as
well that he has cited her scholarship in his own opinions. See,
e.g., United States v. Acosta-Joaquin, 894 F.3d 60, 63 (1st Cir.
2018) (citing Victoria Nourse, Misreading Law, Misreading Democracy (Harvard Univ. Press 2016)).

90a
supra at 68-69; see also Victoria Nourse, A Decision
Theory of Statutory Interpretation: Legislative History
by the Rules, 122 Yale L.J. 70 (2012). First, she observes that “Statutes Are Elections.” By that she
means that the legislature makes choices, and one side
prevails. Accordingly, statements of a law’s opponents
should never be cited for the authoritative meaning of
the law, much in the way that a dissenting opinion
would not be cited as authority without explanation.
Nourse, Misreading Law, supra at 68. Nourse’s second
principle emphasizes the sequential nature of how
laws develop. Just as subsequent appellate decisions
trump trial court decisions, later text or legislative evidence can trump earlier legislative evidence. Id. at 69.
One should therefore read legislative history in reverse, beginning with the last point in the decisionmaking process related to the text at issue. Id. at 7980. The third principle recognizes that Congress’s own
rules can provide meaningful interpretive guidance
when used as legislative canons. Id. at 85-88. Nourse’s
fourth principle rejects the view that any particular
“type” of legislative history will always be the most reliable. Any type of legislative history may mislead the
interpreter absent an understanding of the realities of
legislative conflict, sequence, and congressional rules.
Id. at 88-90. Finally, the fifth principle recognizes that
Congress operates with different institutional expectations and incentives than the courts, which may cause
courts to misunderstand the significance of certain
congressional language. Id. at 91-94. To the extent
that I consider legislative context, it is with these principles in mind.
Necessarily, statutory construction also requires
consideration of the “canons” of construction given new
life by the late Justice Scalia, and now widely used. See

91a
Antonin Scalia & Bryan Garner, Reading Law: The Interpretation of Legal Texts (2012). Indeed, a critical
case relied upon by the Government based its holding
on the application of a canon. See United States v.
Chen, 913 F.2d 183 (5th Cir. 1991). But like legislative
evidence, judicial canons need to be employed with an
awareness of their limitations. See, e.g., Katzmann, supra at 51-53; Posner, Statutory Interpretation, supra at
805-17. Two criticisms in particular resonate with me.
First, many canons are premised on unrealistic assumptions about how Congress creates law.
Katzmann, supra at 52-53; Abbe R. Gluck & Lisa
Schultz Bressman, Statutory Interpretation from the
Inside—An Empirical Study of Congressional Drafting, Delegation and the Canons: Part I, 65 Stan. L. Rev.
901 (2013); Posner, Statutory Interpretation, supra at
806. Second, the manipulability of canons carries the
potential for judges to rewrite statutes based on personal preferences under the guise of adherence to objective rules. Nourse, Misreading Law, supra at 10506; Posner, Statutory Interpretation, supra at 816
(“Vacuous and inconsistent as they mostly are, the
canons do not constrain judicial decision making but
they do enable a judge to create the appearance that
his decisions are constrained.”). Canons’ prevalence in
the case law requires their consideration, but with the
same caution that accompanies use of the legislative
record.
The challenge of statutory construction is such that
fidelity to method must often yield to the need to answer a specific, complex question. For example, textualists are fond of praising Justice Frankfurter’s admonition to “(1) Read the statute; (2) read the statute;
(3) read the statute!” Judge Henry J. Friendly, Mr.
Justice Frankfurter and the Reading of Statutes, in

92a
Benchmarks, 196, 202 (1967). But Justice Frankfurter more broadly recognized that “there is no table
of logarithms for statutory construction. No item of
evidence has a fixed or even average weight. One or
another may be decisive in one set of circumstances,
while of little value elsewhere.” Felix Frankfurter,
Some Reflections on the Reading of Statutes, 47
Colum. L. Rev. 527, 543 (1947), in Judges on Judging: Views from the Bench 221, 229 (David M.
O’Brien ed., 1997). In practice, therefore, most
judges do not subscribe to purely one method.
Katzman, supra at 55; Abbe R. Gluck & Richard A.
Posner, Statutory Interpretation on the Bench: A
Survey of Forty-Two Judges on the Federal Courts
of Appeals, 13 Harv. L. Rev. 1298, 1313-14 (2018);
see also Morell E. Mullins, Sr., Tools, Not Rules: The
Heuristic Nature of Statutory Interpretation, 30 J.
Legis. 1 (2003). Instead, they draw upon multiple
tools with the goal being to interpret the statute in
question “in a way that is faithful to its meaning.”
Katzmann, supra at 29. Although both parties to
this case claim the statute is clear, to resolve the
question here requires the use of multiple tools as
well.
I employ these tools of statutory construction to
illuminate the statute’s ordinary meaning. I take a
statute’s “ordinary meaning” to refer to the meaning
consistent with the undisputed, prototypical examples of circumstances in which the statute applies—
those to which legislators and members of the public
would have expected the statute to apply at the time
of enactment. See Lawrence Solan, The New Textualists’ New Text, 38 Loy. L.A. L. Rev. 2027, 2040-42,
2044 (2005). Expressing a preference for a statute’s
ordinary meaning is not to say that the statute only

93a
applies to those examples. But just as courts should
not interpret the law in a way that excludes the ordinary examples to which it undisputedly applies,
courts should hesitate to extend a statute far beyond its ordinary meaning.
Such principles reflect appropriate respect for the
role of Congress. Justice Gorsuch, writing for a majority of the Court, observed that it is fundamental that
“Congress alone has the institutional competence,
democratic legitimacy, and (most importantly) constitutional authority to revise statutes in light of new social problems and preferences. Until it exercises that
power, the people may rely on the original meaning of
the written law.” Wisconsin Cent. Ltd. v. United States,
138 S. Ct. 2067, 2074 (2018). Absent binding precedent
or some compelling rationale, courts should hesitate to
expand the reach of a statute—particularly a criminal
statute—far beyond the ordinary meaning conceived of
at the time of enactment.
b. Interpretation of 21 U.S.C. § 856(a)
The sole question in this case is one of statutory
construction. Specifically, the Court is tasked with
construing 21 U.S.C. § 856(a), the most relevant portion of which makes it unlawful for any person to
“manage or control any place . . . and knowingly and
intentionally . . . make available for use, with or without compensation, the place for the purpose of unlawfully . . . using a controlled substance.” § 856(a)(2). I
must then determine whether Safehouse’s planned activity, specifically the operation of the consumption

94a
room, falls within the scope of the statute’s criminal
prohibition.8
Section 856(a) was enacted in 1986 as part of the
Anti-Drug Abuse Act and subsequently amended in
2003 as part of the PROTECT Act. The full text reads:
Except as authorized by this subchapter, it shall
be unlawful to-(1) knowingly open, lease, rent, use, or maintain any place, whether permanently or
temporarily, for the purpose of manufacturing, distributing, or using any controlled
substance;
(2) manage or control any place, whether permanently or temporarily, either as an
owner, lessee, agent, employee, occupant, or
mortgagee, and knowingly and intentionally
rent, lease, profit from, or make available for
use, with or without compensation, the place
for the purpose of unlawfully manufacturing, storing, distributing, or using a controlled substance.
Some aspects of the statute’s application to these
facts are clear. Safehouse will manage or control a
place and make that place available to participants.
Safehouse participants undisputedly will use drugs on
Safehouse’s property. The remaining question is
8 Neither party disputes that the other aspects of Safehouse’s
operation—providing sterile consumption equipment, naloxone,
respiratory support, medical care, and addiction treatment referrals—do not violate the CSA. See Pl.’s Reply at 10. In fact, the
Government conceded at oral argument that even mobile vans
parked near public places to provide the same services offered
inside Safehouse would not violate the statute. Tr. at 38.

95a
whether Safehouse will knowingly and intentionally
make its property available “for the purpose of unlawfully . . . using drugs” within the meaning of the statute. In the parties’ view, this is a simple question. I
disagree.
The impetus for § 856(a) initially was a concern
about crack houses, and a similar concern about drugfueled raves motivated the 2003 amendment. The
question is how far beyond those undisputedly covered
activities the statute reaches. While I agree that, taking each of the statute’s words literally, it might be
possible to read § 856(a) to apply to Safehouse, I am
not convinced that a plain or ordinary reading of the
statute allows that application.
The Government argues that (a)(2) prohibits
Safehouse’s medically supervised consumption rooms
because the purpose requirement there applies to the
third party using the property, not the actor charged
with violating the statute. That is, in the Government’s view, only the third party must act “for the purpose of unlawfully . . . using drugs.” The Government
further contends that, even if the relevant purpose under the statute is that of Safehouse, Safehouse is necessarily acting for the purpose of unlawful drug use.
Safehouse disagrees, arguing that the relevant purpose is the purpose for which the property itself is
used and contending that its site is not “for the purpose of unlawfully . . . using drugs.” Safehouse also
asserts that § 856(a) does not prohibit safe consumption rooms because the CSA authorizes their operation and because the statute does not define “unlawfully . . . using.”
I reject Safehouse’s latter two arguments for reasons explained more fully below. With respect to the

96a
purpose requirement, I conclude that the relevant
purpose is that of the actor, not the third party or the
property. However, “for the purpose of unlawfully
manufacturing, storing, distributing, or using a controlled substance” remains ambiguous, susceptible to
multiple interpretations. Consistent with the common
understanding of purpose to refer to one’s end or goal,
along with the statutory scheme and legislative context, I interpret that provision to require that the actor have a significant, but not sole, purpose to facilitate drug activity. Because Safehouse does not plan to
make its facility available “for the purpose of” facilitating unlawful drug use, I ultimately conclude that §
856(a) does not criminalize Safehouse’s proposed conduct.
i. Authorization
Safehouse contends that its proposed conduct is
“authorized by” the Controlled Substances Act (CSA)
and therefore falls within the “[e]xcept as authorized
by this subchapter” exemption of § 856(a). According
to Safehouse, this follows not from any express authorization, but from the fact that medically supervised consumption sites constitute a legitimate medical practice “which the CSA does not regulate and Section 856 does not prohibit.” Defs.’ Resp. to Pl.’s Mot. J.
on the Pleadings at 28, ECF No. 48 (hereinafter
Safehouse Response). As a logical matter, Safehouse
advances an argument that is both simplistic and circular: because the proposed conduct is not prohibited
or regulated by the CSA, it is therefore necessarily authorized by the statute and excluded from the reach of
§ 856 of the CSA. I reject the premise that Congress’s
failure to prohibit activity constitutes an affirmative
authorization. Rather, I am confident that the statute
neither expressly prohibits nor authorizes the sites for

97a
the same reason—the legislature simply never contemplated them when enacting the law. Granted, if §
856 does not prohibit Safehouse’s medically supervised consumption sites—a matter explored further
below—additional express authorization would of
course be unnecessary. That may make the sites “authorized” in the colloquial sense that they are not illegal, but it does not render them “authorized by this
subchapter” within the meaning of the statute.
Safehouse relies heavily on Gonzales v. Oregon,
546 U.S. 243 (2006), in support of its contention that
the Controlled Substances Act allows for safe consumption sites. See Safehouse Response at 30;
Transcript of Oral Argument, ECF No. 131, at 4950. Specifically, Safehouse contends that its medically supervised consumption rooms are authorized
because the Attorney General lacks the power to
“promulgate rules ‘based on his view of legitimate
medical practice’” and the CSA does not regulate the
legitimate practice of medicine. Safehouse Response
at 30 (quoting Gonzales, 546 U.S. at 260, 270). Gonzales involved a federal challenge to an Oregon statute, passed through a voter ballot initiative, allowing physicians to assist with suicide. 546 U.S. at
250. The statute in question established a detailed
protocol for physicians to follow under the supervision of the Oregon Department of Human Services.
Or. Rev. Stat. § 127.800 et seq. (2003). The Attorney
General of the United States later published an “Interpretative Rule” that physician-assisted suicide
was not a legitimate medical purpose, with the result that prescribing, dispensing, or administering
drugs to facilitate it could be deemed a violation of
federal law and lead to the suspension or revocation

98a
of a physician’s registration under the CSA. 546
U.S. at 254.
Although the Supreme Court ruled against the
Government, Gonzales does not control on the facts
of the current case for several reasons. As a preliminary matter, the proposed activities of Safehouse
here are not analogous to the detailed state-regulated scheme at issue in Gonzales. Safe injection
sites are recognized as a legitimate harm reduction
strategy among some public health experts and recognized medical authorities such as the American
Medical Association, see Defs.’ Answer at 31, but as
Safehouse concedes, no state medical board has issued standards governing their operation. Tr. at 52.
It is clear that the Supreme Court in Gonzales was
also concerned with issues of federalism, which are
not present in a case where the conduct in question
is not formally endorsed by any state or local governmental entity.9 See 546 U.S. at 270.
Furthermore, an important concern of the Court
in Gonzales was the Attorney General exceeding the
bounds of his authority by interpreting a specific
regulation governing the issuance of prescriptions
by physicians. 546 U.S. at 266 (interpreting 21
C.F.R. § 1306.04). Similar concerns do not exist here
where the Government seeks no more than direct
enforcement of the statute.
Finally, as to Safehouse’s argument that because
“Congress does not regulate the legitimate practice
of medicine” under Gonzales, the CSA does not prohibit safe consumption sites, Tr. at 49, I again find
9 I do not recognize the support of individual public officials as
the formal support of a governmental entity.

99a
the facts of this case distinguishable. Although
medication-assisted treatment, which requires the
involvement of a physician, is part of the Safehouse
protocol, medical practitioners are not directing
that participants make use of safe consumption
rooms as part of any formal course of treatment.
Even if they were, Gonzales cannot be read so
broadly as to exempt all legitimate medical practices from all provisions of the CSA. Gonzales may
shed some light on the proper interpretation of the
statute—a matter I address further below—but it
does not by itself prohibit a criminal prosecution
simply because the conduct in question is related to
medical practice. 10
ii. Meaning of “unlawfully . . . using”
Safehouse also suggests that, because the statute does not offer a technical definition of “unlawfully . . . using,” the meaning of that phrase is indecipherable, and § 856 cannot apply where the drug
activity in question is consumption or use. With this
argument, Safehouse advocates a problematic isolationist approach to statutory interpretation that
can lead courts to conclusions far from the legislature’s meaning. I decline to isolate “using” and read
that term out of the text when the statutory and
10 Safehouse also cites several cases for the proposition that, to
convict a practitioner, the Government must prove the practitioner acted outside the course of professional practice and without a legitimate medical purpose. But the cases cited exclusively
concern distribution under 21 U.S.C. § 841(a) and its implementing regulation concerning prescriptions, 21 C.F.R. § 1306.04.
These cases might be relevant if the Government were accusing
Safehouse of distributing medication, but they offer no insight
into the question about § 856(a)(2)’s applicability to the facts at
hand.

100a
legislative context easily clarify the meaning of “unlawfully . . . using.” Although the CSA does not
criminalize “use” alone, the statute criminalizes
possession, which, as the Government points out, is
a necessary predicate to use. 11 By definition, a person cannot lawfully use or consume 12 a substance
that the person cannot even lawfully possess. In the
context of the statute, a reader can fairly understand “unlawfully . . . using” to refer to use of a substance the person cannot lawfully possess. This
view is consistent with the legislative evidence,
which refers to “using illegal drugs.” See Joint Explanatory Statement of the Committee of Conference, H.R. Conf. Rep. No. 108-66, 108th Cong., 1st
Sess. 49, at 68 (2003) (hereinafter Joint Explanatory Statement). 13 In a case where the illegality of
the controlled substances involved is undisputed,
the use of the term “unlawfully using” is not ambiguous. The question remains whether Safehouse
plans to knowingly and intentionally make a place
available for the purpose of unlawfully using drugs.
The hypothetical used by Safehouse to advance its position
at oral argument—one who unlawfully consumes a prescription
they initially lawfully possessed for another, Tr. at 55, simply has
no relevance to the issues here.
11

Neither party seems to dispute that the term “using” unambiguously refers to consumption in this context.
12

13 The joint explanatory statement to a conference report offers
explanations of how conferees resolved disputes between the
House and Senate versions of a bill or why any new language was
added to the final bill text, which is embodied in the conference
report. See Nourse, Misreading Law, supra at 80; Christopher M.
Davis, Conference Reports and Joint Explanatory Statements,
Congressional Research Service (2015). The statements are
therefore helpful and proximate evidence of the meaning of text,
particularly text added or modified in conference committees

101a
iii. To whose purpose (a)(2) refers
With respect to the purpose requirement, the
first dispute concerns whose purpose is at issue. The
text of (a)(2) requires that the actor charged with
violating the statute “knowingly and intentionally
rent, lease, profit from, or make available for use,
with or without compensation, the place for the purpose of unlawfully manufacturing, storing, distributing, or using a controlled substance.” 21 U.S.C.
§ 856(a)(2). The Government contends that the actor in (a)(2) simply needs to have knowingly made a
place available to others who have the purpose of engaging in drug activity. Pl. & Third-Party Defs.’
Mot. for J. on the Pleadings at 9. Safehouse argues
that the relevant purpose is that of the place itself.
I reject both constructions and conclude that the
statute requires that the actor have acted for the
proscribed purpose.
A natural reading of the text indicates that, for
a person to knowingly and intentionally make a
place available for use for the purpose of unlawful
drug activity, that person—the actor—must make
the place available with the proscribed purpose.
Section 856(a)(2) applies only when a person knowingly and intentionally makes a place available for
use or rents the place “for the purpose of” unlawful
drug activity, not when he knowingly makes it
available for use or rents it to others who have the
purpose of engaging in drug activity. In the most
natural reading of the sentence, the “for the purpose
of” clause refers to the mental state of the actor.
The context of the whole statute supports this
reading. Sections 856(a)(1) and (a)(2) both contain
the requirement that one engage in the prohibited

102a
conduct “for the purpose of” drug activity. No
party—and no court, for that matter—disputes that
the actor in (a)(1) must act “for the purpose of” drug
activity. The same requirement exists in (a)(2)
structured in precisely the same way. Both provisions have the same subject, identified in § 856(b)
as “any person.” Both further identify a knowledge
requirement—“knowingly” or “knowingly and intentionally”— followed by a set of verbs and a direct
object—“place”—and conclude with the “for the purpose of” clause. In both provisions, the purpose requirement applies to the person who acts knowingly—an elaboration of the requisite mental state.
The text suggests no reason to read the requirement
differently in (a)(2) than in (a)(1). 14
The substantive difference between the two provisions, as the Government agrees, Tr. at 9, and as
many courts have recognized, is that (a)(1) targets
actors who themselves use or maintain the place in
question to engage in drug activity, whereas (a)(2)
encompasses actors who manage or control a space
and then make the place available to others who
14 The Government at oral argument made much of the fact
that (a)(2) begins with “manage and control” as opposed to “knowingly open” in (a)(1) and that “knowingly and intentionally” appears later in (a)(2). Tr. at 24-27. But the introductory clause in
(a)(2) simply adds that one must first “manage and control” the
place and then “knowingly and intentionally” make it available
for use for the purpose of drug activity. Although “knowingly and
intentionally” appears later in (a)(2), it precedes several verbs
and the “for the purpose of” clause, just as in (a)(1). Moreover,
the verbs in (a)(1) and (a)(2) share the same subject—“any person,” as indicated in § 856(b). At no point has the Government
presented a compelling textual reason why the structure of (a)(2)
dictates that the purpose requirement must refer to the purpose
of the third party.

103a
engage in drug activity. The legislative context confirms as much. Joint Explanatory Statement at 68
(explaining that the 2003 amendment to § 856
aimed to make “clear that anyone who knowingly
and intentionally uses their property, or allows another person to use their property, for the purpose
of distributing or manufacturing or using illegal
drugs will be held accountable”). But that distinction does not mean that in (a)(2) the actor need not
have the proscribed purpose. One can still make a
place available to others for the purpose of those
people manufacturing, distributing, or using illicit
substances there. 15 Reading § 856(a) naturally, the
purpose requirement applies to the actor in both
(a)(1) and (a)(2) on its face, and absent evidence that
it should apply differently in each, I decline to assign (a)(2) a lower mental state than its text requires.
Legislative evidence confirms that the purpose
requirement applies to the actor in both provisions.
When Congress most recently considered § 856, in
2003, it amended the statute, including (a)(2). 16 The
15 At oral argument, the Government referred to this reading
of the statute as “nonsensical and self-defeating” because it
would allow “a stone-cold crack dealer” to claim a benign purpose
of making money to support his family. Tr. at 19. That argument
erroneously merges two distinct issues. Whose purpose is at issue
is a distinct question from whether the proscribed purpose must
be the sole purpose. I address the latter question below and conclude that the proscribed purpose may be one of multiple purposes for which the actor makes the space available.
16 Although the “for the purpose of” language was also in the
original version of § 856, the legislative evidence from 2003 carries no less weight simply because the language was not entirely
new in 2003. Congress revisited the language in question in 2003
and decided to enact the modified provision with the “for the

104a
amendment to § 856, originally introduced as the Illicit Drug Anti-Proliferation Act, was added to the
PROTECT Act in the Conference Committee, an Act
aimed at preventing child abuse and facilitating
prosecution of crimes against children. Then-Senator Joseph Biden sponsored the Illicit Drug AntiProliferation Act and was a conferee at the Conference Committee on the PROTECT Act. 17 His remarks during the subsequent debate on the Conference Report offer strong evidence that § 856’s meaning requires the actor or defendant to act with the
purpose of drug use. The remarks were made just
prior to Congress’s collective decision to agree to the
Conference Report, which represented the final decision about the text at issue. Because these comments were made by a sponsor of the original bill
containing the amendment, who was also a conferee
to the Conference Committee, they carry weight as
evidence of the text’s meaning. See Nourse, Misreading Law, supra at 69. Biden stated explicitly
that the actor must make the place available for the
purpose of drug activity: “My bill would help in the
prosecution of rogue promoters who not only know
that there is drug use at their event but also hold
purpose of” language. The context surrounding that decision constitutes evidence of the most recent legislative decision about the
relevant text and can therefore shed light on its meaning. See
Nourse, Misreading Law, at 69, 80.
17 In the Senate, a conferee is also called a “manager” and is
appointed to serve on a conference committee, typically from the
committee or committees that reported the legislation. Conferees
“are expected to try and uphold the Senate’s position on measures
when they negotiate with conferees from the other body” about
the text of a bill. Conferees, United States Senate Glossary,
available at https://www.senate.gov/reference/glossary_term/
conferees.htm (last visited Oct. 1, 2019).

105a
the event for the purpose of illegal drug use or
distribution. That is quite a high bar.” 149 Cong.
Rec. 9384 (emphasis added). He further commented
that “[t]he bill is aimed at the defendant’s predatory
behavior,” which points to the requirement of purposeful action on the part of the person accused of
violating the statute. 149 Cong. Rec. 9383. Coupled
with the text of the statute, the legislative context
makes clear that, to be liable under (a)(2), an actor
must make the place in question available for the
specific purpose of drug activity.
A deeper textual analysis, tested by application
of judicial canons, leads to the same conclusion. On
the face of (a)(2), “for the purpose of” modifies the
preceding verbs (rent, lease, profit from, make
available for use), the subject of which is the actor
accused of violating the statute. 18 The “grammar
canon” therefore supports the view that the purpose
applies to the actor, rather than an unspecified
third party. See Scalia & Garner, supra at 140. The
“presumption of consistent usage” likewise encourages this view. That canon holds that, if a phrase
has a clear meaning in one portion of a statute, but
the meaning is less clear in a related section, courts
should presume that the phrase carries the same
meaning in both. Id. at 170; see Si Min Cen v.
18 Safehouse asks the Court to read “for the purpose of” to
modify the place itself rather than any person’s action with respect to the place. As a technical matter, I read “for the purpose
of” to modify the verbs, rather than the direct object. One acts for
a purpose; a place does not carry an inherent purpose separate
from a person’s intentions for its use. Because any “purpose” of a
place is simply the purpose a person or group has given it, there
is little meaningful difference between referring to the purpose
of a place and the purpose of the actor controlling it.

106a
Attorney General, 825 F.3d 177, 193 (3d Cir. 2016).
Though canons must be applied with caution, the
presumption of consistent usage carries inherent
logical force where, as here, the two provisions in
question are part of the same subsection, were enacted together, and use the phrase in the same way.
In that regard, the presumption of consistent usage
canon is one that directs the court to focus on how
Congress used terms within the structure of a statute, reducing the risk of judges importing a meaning of their own. “For the purpose of” in (a)(1)
clearly and undisputedly refers to the purpose of the
actor accused of violating the provision. Although
the implication in (a)(2) that third parties will use
the place in question may make the purpose clause
there less clear to some readers than in (a)(1),
courts should presume—absent context indicating
otherwise 19—that the clause carries the same
The close reader may notice that the terms “rent” and “lease”
also appear in both provisions, but context clarifies that these
terms carry different meanings in (a)(1) and (a)(2). In (a)(2), the
indication that the actor must “manage or control” the property
as an owner or lessee and then rent, lease, or make it available,
clarifies that “rent” and “lease” in that provision refer to renting
and leasing a space to others. In (a)(1), the same words refer to
renting and leasing a space for one’s own use. The legislative context reinforces this interpretation. When Congress added these
terms to the statute in 2003, it did not change the primary distinction between (a)(1) and (a)(2)—that the former applies to use
of one’s own property and the latter to making a property one
controls available to others. See Joint Explanatory Statement at
68; 149 Cong. Rec. 1849 (Statement of Senator Grassley at introduction of the Illicit Drug Anti-Proliferation Act that the bill was
“an important step, but a careful one”). Construing “rent” and
“lease” to mean the same thing in both would run counter to the
meaning the legislature gave the two sections. Proponents of the
“Latin canons” will also note that the noscitur a sociis canon,
which holds that interpreters should give related meanings to
19

107a
meaning. That is, courts should presume that (a)(2)
requires that the actor act “for the purpose of” drug
activity.
The inclusion of “and intentionally” in (a)(2) further emphasizes that the actor allowing others to
use the property must do so “for the purpose of”
drug activity. Unlike (a)(1), which requires only
that the defendant act “knowingly,” (a)(2) requires
that the defendant have “knowingly and intentionally” made the place available for the proscribed
purpose—expressly requiring not only knowledge of
the drug-related circumstances but the intention
that the proscribed purpose occur. The Government
concedes that the combination of “knowingly” and
“for the purpose of” in (a)(1) unambiguously requires that the actor “open” or “maintain” the place
in question “for the purpose of” drug activity. The
addition of “intentionally” to that combination cannot possibly signal a change in the purpose requirement from (a)(1)— particularly not a change that
would lower the requisite mental state for an (a)(2)
violation. Congress’s addition of the term “intentionally” resolves any doubt over whether the actor

words in a list, requires this interpretation. See Scalia & Garner,
supra at 195. In (a)(1), “rent” and “lease” take on meanings related to “open,” “use,” and “maintain,” and in (a)(2), their meaning must relate to “profit from” and “make available for use,” both
of which imply a third party using the property. Nothing in the
text counters the presumption that “for the purpose of” has consistent meaning in both provisions. In fact, both the statutory
and legislative context confirm that “for the purpose of” applies
to the actor in both.

108a
must act with the proscribed purpose of fostering
drug activity under (a)(2). 20
The Government would have me read a combination of “knowingly,” “intentionally,” and “for the
purpose of” to require mere knowledge of an unidentified third party’s purpose. Its requested interpretation would require judicial editing of the statutory
text, ignore a critical term, read (a)(1) and (a)(2) inconsistently, and lower the requisite mental state of
(a)(2) in a manner that directly contradicts the legislative context surrounding the provision. I am
compelled to reject the Government’s view of whose
purpose (a)(2) concerns and accept the interpretation that, as in (a)(1), the purpose requirement applies to the actor charged with violating the statute.
The Government correctly points out that more
than one circuit court has adopted the interpretation the Government advocates. But these circuit
courts do not include the Third Circuit, and upon
closer review, all of those decisions rest upon United
States v. Chen, 913 F.2d 183 (5th Cir. 1991), adopting its conclusion without critical analysis. This is
not said as a criticism of those other circuits; the
cases before them did not require rigorous analysis
of Chen. This case does, and though it may seem
presumptuous for a lone district judge to look behind so many circuit decisions, the unique facts of
this case require me to do so, and judges must not
20 Depending on the context, “intentionally” can mean either
“purposely”—having the conscious object to cause a specific result, or “knowingly”—being practically certain that one’s conduct
will cause a result. See 3d Cir. Model Crim. Jury Instructions §
5.03 cmt. (2018). In this context, it would be redundant to treat
“knowingly” and “intentionally” as synonymous when they appear together in (a)(2).

109a
shirk from their responsibility to follow where reason and logic take them.
In Chen, the Fifth Circuit analyzed the 1986 version of 21 U.S.C. § 856(a) to determine whether the
trial court had erred in giving a deliberate ignorance instruction as to the knowledge requirement
in both (a)(1) and (a)(2). The Chen court concluded
that “for the purpose of” in (a)(1) referred to the purpose of the actor charged with violating the statute,
making the deliberate ignorance instruction inappropriate, but that in (a)(2) the actor need not have
the purpose that drug activity take place. In reaching this conclusion, the Court spent little time analyzing the text of (a)(2). Rather, most of its analysis
focused on (a)(1), specifically concluding that, in
combination with “knowingly,” “for the purpose of”
unambiguously applies to the actor who opens or
maintains the place in question—a proposition with
which I agree. 21 I accept the Chen court’s conclusion
that the actor in (a)(1) must act for the purpose of
drug activity. But I see no reason why the court’s
reasoning should not extend to (a)(2).
Rather than analyze (a)(2) as it did (a)(1), however, the Chen court stated in an almost offhand
way that reading (a)(1) differently would make it
superfluous in relation to (a)(2). This conclusion
was, according to the Court, simply “[b]ased on [its]
reading” of (a)(2)—a reading that involved little to
no analysis of the text. Chen, 913 F.2d at 190. Under
the Fifth Circuit’s reading, “§ 856(a)(2) is designed
21 In that regard, the Government’s assertion that the Chen
court found (a)(2) unambiguous is inaccurate. Notably, the court
only remarked that the statute was unambiguous in its discussion of (a)(1). Chen, 913 F.2d at 190.

110a
to apply to the person who may not have actually
opened or maintained the place for the purpose of
drug activity, but who has knowingly allowed others
to engage in those activities by making the place
‘available for use . . . for the purpose of unlawfully’
engaging in such activity.” Id. at 190. Without elaboration, the court then concluded that in (a)(2), “the
person who manages or controls the building and
then rents to others, need not have the express purpose in doing so that drug related activity take
place; rather such activity is engaged in by others
(i.e., others have the purpose).”
Five concerns lead me to decline to follow Chen.
First, I cannot read (a)(1) and (a)(2) as redundant.
Second, the Chen court’s interpretation of (a)(2) is
inconsistent with its analysis of (a)(1). Third, the
court unnecessarily applied the rule against surplusage to address a redundancy that in my view
does not exist, and then violated it by failing to give
meaning to the term “intentionally.” Fourth, the
court selectively applied statutory canons, invoking
the rule against surplusage but violating the presumption of consistent usage by giving “purpose”
one meaning in (a)(1) but a different meaning in
(a)(2). Fifth, legislative evidence directly refutes the
Fifth Circuit’s construction of the statute.
First, the baseline premise of Chen, that (a)(1)
and (a)(2) overlap, is not one I can accept. Read naturally, (a)(1) addresses circumstances where the actor uses their property for their own unlawful drug
activity, whereas (a)(2) addresses circumstances
where the actor makes the property available to others for the purpose of those individuals engaging in
unlawful drug activity. As I have described above, a
violation of (a)(1) requires that “any person”

111a
“knowingly open, lease, rent, use, or maintain any
place . . . for the purpose of” drug activity. §§
856(a)(1), (b). 22 Section (a)(2) then makes it unlawful for “any person” to “manage or control any
place,” in one of a variety of capacities, “and knowingly and intentionally . . . make available for use,
with or without compensation, the place for the purpose of” unlawful drug activity. §§ 856(a)(2), (b). I
find it clear from the face of subsection (a) that
(a)(1) and (a)(2) are different: (a)(1) refers to one’s
use of their property for their own drug activity, and
(a)(2) refers to one making property available for
the purpose of others engaging in drug activity. I do
not see the redundancy that concerned the Chen
court.
Second, as to the inconsistency between the
court’s interpretation of (a)(2) and its analysis of
(a)(1), the court offered no textual reason why the
terms “for the purpose of” should apply to a different person in (a)(2) than (a)(1). In its analysis of
(a)(1), the court emphasized that the combination of
“knowingly” and “for the purpose of” clearly signified that the relevant purpose was that of the actor—the person controlling the property. To hold
otherwise would “twist the clear and plain language
of the statute.” Id. at 190. In support of that conclusion, the court noted that, in sixteen other federal
statutes combining the terms “knowingly” and “for
the purpose of,” the purpose clearly referred to that
of the actor. Id. at 190 n.9. The problem with this
analysis is that the same combination of
22 Section 856(b) delineates the criminal penalties for “[a]ny
person who violates subsection (a).” “Any person” therefore can
be fairly understood as the subject associated with the verbs in
subsection (a).

112a
“knowingly” and “for the purpose of” appears in
(a)(2), reinforced by the addition of the term “intentionally.” Yet the court offered no explanation why
its reasoning as to whose purpose matters in (a)(1)
should not apply equally if not with greater force in
(a)(2). 23
Third, the court unnecessarily altered the meaning of the statute. As discussed above, the court did
not need to change the purpose requirement to retain the key distinction that (a)(2) involves others
engaging in drug activity. It reached that result applying a statutory canon, the rule that “a statute
should be construed so that each of its provisions is
given its full effect,” id. at 190 (citation omitted),
also known as the rule against surplusage. Ironically, that same cannon requires that every word in
a statute be given meaning when possible. See Bastardo-Vale v. Attorney General, 934 F.3d 255, 26162 (3d Cir. 2019) (en banc) (Schwartz, J.) (majority
opinion); id. at 271-72 (McKee, J., dissenting);
Scalia & Garner, supra at 174-79. Yet the Chen
court read “intentionally” out of the statute.24
23 One portion of the court’s opinion even seemed to contradict
this conclusion. The court initially noted that “[t]he government
agrees both that the offense requires two mental elements—
knowledge and purpose—and that the jury had to find that Chen
maintained (§ 856(a)(1)) or operated (§ 856(a)(2)) the motel with
the specific purpose of unlawfully using, storing, or distributing
a controlled substance, and not merely that she ‘operated a motel
where drug activity was rampant.’” Chen, 913 F.2d at 188. Although the Chen court seemed to accept the Government’s concession that the actor must have the specific purpose of drug activity
under both paragraphs, the court then inexplicably interpreted
the purpose requirement as pertaining to a third party.
24 The Government concedes the responsibility of a judge to
give meaning to every word in a statute, Tr. at 28, but its briefing,

113a
Earlier in its opinion, the Chen court noted that “intention” is a synonym for purpose, id. at 189, and
quoted the trial court jury instruction stating that
“[a]n act is done ‘willfully’ or ‘intentionally’ if done
voluntarily and purposely with the intent to do
something the law forbids.” Id. at 187.25 Yet the
court failed to examine the implication of the inclusion of “intentionally” in (a)(2) before concluding
that (a)(2) requires a person to act with a significantly lower mental state than (a)(1).
The Chen court’s use of the rule against surplusage brings me to my fourth point about the selective
application of the canons of construction and underscores one of the risks of their use. 26 The rule
against surplusage generally presumes that Congress is not redundant. But it applies in different
like the Chen court, simply ignores the term “intentionally,” and
it offered no insight at argument as to how this term should be
construed.
Confusingly, the trial court’s “knowingly” instruction also
said that “[a]n act is done ‘knowingly’ if done voluntarily and intentionally, and not because of mistake or accident or other innocent reason.” Chen, 913 F.2d at 187. This is consistent with the
Fifth Circuit’s current model instruction for “knowingly.” See 5th
Cir. Model Crim. Jury Instructions § 1.37 (2015). But, in context,
the suggestion that “intentionally” is akin to “voluntarily” conflicts with the court’s immediately preceding suggestion that “intentionally” is a synonym for “willfully,” which requires one act
with a specific purpose. Chen, 913 F.2d at 187.
25

26 As indicated above, Judges and academics alike have offered
various criticisms of the canons. Katzmann, supra at 52-53; Abbe
R. Gluck & Lisa Schultz Bressman, Statutory Interpretation from
the Inside—An Empirical Study of Congressional Drafting, Delegation and the Canons: Part I, 65 Stan. L. Rev. 901 (2013);
Nourse, Misreading Law, supra at 105-06; Posner, Statutory Interpretation, supra at 806.

114a
ways. When a court deems two provisions of a statute redundant, it is the court who then proceeds to
supply meaning by means of inference. Necessarily,
there is a risk that the meaning supplied by the
court is different from that of Congress. In contrast,
when a court invokes the rule for the purpose of giving meaning to every word of a statutory provision,
the focus is on the actual term employed by Congress, reducing the risk of legislating from the
bench. In failing to assign any meaning to the term
“intentionally,” but deeming (a)(1) and (a)(2) redundant save for the court’s inferred meaning, Chen applied the rule against surplusage selectively.
Moreover, when statutory canons are applied,
what is the standard for choosing which to apply?
See Richard A. Posner, The Federal Courts: Crisis
and Reform 277 (1985) (“[T]here is no canon for
ranking or choosing between canons; the code lacks
a key.”) Along with the rule against surplusage, a
separate canon is the presumption of consistent usage, which provides that “[a] word or phrase is presumed to bear the same meaning throughout a
text.” Scalia & Garner, supra at 170. Absent some
reason, and I can identify none, the phrase “for the
purpose of” should be interpreted consistently, particularly when it appears in contiguous paragraphs
of the statute. The same sixteen federal criminal
statutes supporting the Fifth Circuit’s construction
of (a)(1) would apply equally to (a)(2). Yet the Chen
court neglected this canon in favor of a selective application of the rule against surplusage, claiming

115a
redundancy on the one hand, while simply ignoring
the term “intentionally.” 27
Finally, as reviewed above, legislative evidence
directly contradicts the Chen court’s interpretation.
The court gave life to the precise interpretation that
the sponsor of the 2003 amendment expressly rejected. Then-Senator Biden rejected the concern
that the law might allow prosecution of businesses
that knew individuals would come onto their property and use drugs. He specifically stated that the
provision would allow for prosecution of those who
“not only know that there is drug use at their
event but also hold the event for the purpose of
illegal drug use or distribution. That is quite a
high bar.” 149 Cong. Rec. at 1847, 9384. Biden further remarked that “[t]he bill provides federal prosecutors the tools needed to combat the manufacture,
distribution or use of any controlled substance at
any venue whose purpose is to engage in illegal
narcotics activity.” 149 Cong. Rec. at 9383 (Apr.
10, 2003). These statements make clear that the
event-holder or the venue—in practice the venue operator—must have the proscribed purpose.
Biden’s remarks were directed at criticisms that
the mental state required to support conviction was
too low and would allow prosecution of legitimate
businesses for knowingly allowing others to use
drugs on their property without some greater
27 This graphically illustrates Professor Llewellyn’s classic critique of statutory canons, the observation that for almost every
canon, there is a counter-canon. Karl N. Llewellyn, Remarks on
the Theory of Appellate Decision and the Rules or Canons about
How Statutes Are to Be Constructed, 3 Vanderbilt L. Rev. 395,
400 (1949-1950); see also Anita S. Krishnakumar, Dueling Canons, 65 Duke L.J. 909 (2016).

116a
involvement in the unlawful conduct. Id. Earlier in
the debate, Senator Leahy, who ultimately voted for
the Act, had voiced concerns about the Government
using the existing crack house statute, or any expanded version, to pursue legitimate business owners. 132 Cong. Rec. 9378 (addressing reports of the
Government using the statute to prosecute business
owners who take precautions against drug use rather than “solely against property owners who have
been directly involved in committing drug offenses”
and contending that business owners’ worries
“about being held personally accountable for the illegal acts of others” warranted a fuller hearing). 28
Senator Leahy noted that these concerns were raised in a
prior House Judiciary Hearing. The previous Congress’s House
Judiciary Committee hearing on the RAVE Act—the prior version of the Illicit Drug Anti-Proliferation Act— is not properly
considered as legislative evidence of the meaning of the statute.
However, Senator Leahy’s citation to the hearing gives it some
relevance. At that hearing, a witness raised concerns about what
he considered “a frightening interpretation of the law” expressed
in United States v. Tamez, 941 F.2d 770 (9th Cir. 1991), a case
that relied on Chen to conclude that “the person who manages
and controls the building and then rents it to another need not
have the express purpose in doing so that drug-related activity is
engaged in by others.” Reducing Americans’ Vulnerability to Ecstasy Act of 2002: Hearing Before the Subcomm. on Crime, Terrorism, & Homeland Security of the House Comm. on the Judiciary, 107th Cong. 56 (2002) (statement of Graham Boyd, Director,
Drug Policy Litigation Project, American Civil Liberties Union);
see also id. at 58 (statement of Boyd noting the Fifth Circuit’s
interpretation in Chen). This appeared to surprise and confuse
some members of Congress. See id. at 56-58. Even the representative from the DEA at the hearing said he was unfamiliar
with the Tamez case but “would be flabbergasted if that was the
majority opinion.” Id. He proceeded to indicate that the “knowingly” requirement sufficiently protects an innocent owner because it requires one act “purposely and deliberately.” Id. at 60.
28

117a
Senator Leahy’s comments draw attention to a risk
that law enforcement could improperly apply the
statute to actors without a purpose of unlawful drug
activity. Senator Biden’s subsequent comments
then confirm that the statute means to subject to
punishment only those who act for the purpose of
drug activity, and Senator Leahy supported the conference report that included the amendment. This
exchange reinforces the view that only actors who
make their space available for the purpose of drug
activity were meant to face criminal liability for the
activity of others on their property. 29
Of course, the Chen court—and most of the cases
following Chen for that matter—did not have the
benefit of this 2003 legislative evidence, nor did it
During comments on the PROTECT Act, Senator Leahy shared
the alarm expressed at the House Judiciary Committee hearing
in the previous Congress about a Tamez-like interpretation allowing the government to criminally prosecute property owners
and managers for drug use that occurred on their property even
if they did not act for the purpose of permitting drug use.
29 Notably, the only statement arguing that § 856 requires an
affirmative effort by business owners to prevent drug use—and
implying that they need not act “for the purpose of” unlawful activity to be liable—came from an opponent, Representative Kilpatrick, who voted against the bill, in a statement inserted into
the record after debate. 132 Cong. Rec. 9093. To take as authoritative the meaning attributed to a provision after debate by an
opponent who voted against the bill would give legal effect to the
minority view that lost the debate. Nourse, Misreading Law, supra at 74; see also Parliamentarian of the House Thomas J. Wickham, Jr., House Practice, U.S. House of Representatives, 383-84
(2017) (providing that extraneous materials, including extensions of remarks, submitted on the day of a bill’s consideration or
later are inserted into the congressional record after the general
debate on the bill and identified by a distinct typeface), available
at http://clerk.house.gov/legislative/legprocess.aspx.

118a
look to the 1986 legislative record. That is no reason, however, for this Court to ignore a clear explanation of the meaning of the most recent congressional decision as to the text. 30 The legislative evidence demonstrates that Chen misinterpreted
whether the actor in (a)(2) must act for the purpose
of drug activity. For this and the four other reasons
described above, I decline to follow Chen’s interpretation.
30 As noted above, Congress revisited the statutory text in 2003
and decided to enact the modified provision, with the original “for
the purpose of” language included. The context surrounding that
decision constitutes evidence of the most recent legislative decision about the relevant text and sheds light on its meaning. See
Nourse, Misreading Law, supra at 69, 80. To the extent one
might argue that Congress incorporated Chen and related decisions in 2003, the legislative record reveals no evidence that
Chen’s interpretation of (a)(2) was debated or considered by the
108th Congress prior to the enactment of the PROTECT Act. It
is true that courts often employ the so-called prior-construction
canon. That canon presumes that Congress, if it adopts language
used in an earlier version of the act, must also be considered to
have adopted “judicial interpretations [that] have settled the
meaning of an existing statutory provision.” Bragdon v. Abbott,
524 U.S. 624, 645 (1998); see also Berardelli v. Allied Servs. Inst.
Of Rehab. Med., 900 F.3d 104, 117 (3d Cir. 2018). Judicial interpretations are “settled” only if a word or phrase has been authoritatively interpreted by the jurisdiction’s highest court or has
been given a uniform interpretation by the lower courts. See id.
Neither has occurred here. At the time of the 2003 amendment,
the Supreme Court had not interpreted the meaning of (a)(2)’s
“purpose” clause. Nor had the courts of appeals produced anything close to a “uniform body of . . . judicial precedent.” See
Bragdon, 524 U.S. at 645. To be sure, Chen (in the Fifth Circuit)
and Tamez (in the Ninth Circuit) were on the books, but no other
court of appeals had sought to interpret (a)(2), and as discussed
below, Tamez relied exclusively “on the logic of Chen.” 941 F.2d
at 744.

119a
The other Circuits that have endorsed Chen’s interpretation have largely done so without question,
simply citing the rule against surplusage and choosing not to engage in independent analysis of the
statute. The first case to address § 856(a)(2) after
Chen was United States v. Tamez, 941 F.2d 770 (9th
Cir. 1991). Although faced with an argument from
the appellant “that the statute require[d] that he intend to use the building for a prohibited purpose under section 856(a)(2),” the Tamez court never addressed the implication of the word “intentionally”
in the statute. Id. at 774. The court rejected the appellant’s argument as to § 856(a)(2) exclusively “on
the logic of Chen,” finding that, because (a)(1) “applies to purposeful activity,” it follows that “if illegal
purpose is . . . a requirement of 856(a)(2), the section
would overlap entirely with 856(a)(1).” Id. at 774.
The Court did not explain why this was so but
simply concluded that “§ 856(a)(2) requires only
that proscribed activity was present, that [the actor] knew of the activity and allowed that activity to
continue.” Id. at 774. Inexplicably, the Ninth Circuit noted that § 856(a)(1), which does not include
the word “intentionally,” “requires purpose or intention” to engage in drug activity, id., without paying
heed to the addition of intentionally in (a)(2).
Since Tamez, several other circuit courts have
reached the same conclusion on the authority of
Chen, but the facts of the cases before them did not
require that they engage in any independent interpretation of the text. See United States v. Banks,
987 F.2d 463, 466 (7th Cir. 1993) (accepting Chen’s
conclusion without question or elaboration); United
States v. Wilson, 503 F.3d 195, 196-97 (2d Cir. 2007)
(relying on Chen and Tamez to reach the same

120a
conclusion without elaboration, despite appellant’s
argument that § 856(a)(2) required that “she herself
intended that the premises would be used for the
unlawful purpose”); United States v. Tebeau, 713
F.3d 955, 959-61 (8th Cir. 2013) (relying on the
aforementioned cases to reach the same conclusion
without question or elaboration31); see also United
States v. Ramsey, 406 F.3d 426, 429 (7th Cir. 2005)
(relying on Chen, Tamez, and Banks to conclude
that deliberate ignorance satisfies the knowledge
requirement and approving of removal of the word
“intentionally” from jury instructions on § 856(a)(2)
because the “‘intentionally’ element can be satisfied
by the government proving . . . the defendant intentionally permitted another person to use the property at issue and that the other person used it for
an illicit purpose about which the defendant
knew”). 32 Given the importance of close analysis of
the statute on the facts of this case, I cannot simply
rely upon other circuits’ uncritical embrace of Chen
when the cases before them did not require critical
reflection on its analysis.
The Government has cited only one Third Circuit
case, a non-precedential decision that, ironically,
does not support its position. In United States v.
The Eighth Circuit also cited their own model jury instructions on § 856(a)(2), but those instructions simply relied on the
authority of Chen and Banks. Tebeau, 713 F.3d at 961.
31

32 The Government further cites United States v. Bilis, 170
F.3d 88, 92 (1st Cir. 1999), as a case that supports its interpretation of “for the purpose of.” But the First Circuit in that case did
not address the “for the purpose of” clause, nor did it discuss the
implication of “intentionally.” It simply evaluated whether a willful blindness instruction was appropriate based only on a test
recognized in the First Circuit.

121a
Coles, 558 F. App’x 173, 181 (3d Cir. 2014), a panel
of the Court considered an appeal where a defendant convicted under § 856(a)(2) argued the Government had failed to establish his knowledge of drug
activity at an apartment he rented but allowed his
cousin to live in. The Court reviewed the record, including evidence that the defendant had coached his
cousin to cook crack, and concluded that “the jury
was entitled to infer [the defendant] intended that
the property be used for manufacturing and storing
controlled substances.” Id. In short, this panel of the
Third Circuit appears to have read the purpose requirement of (a)(2) as I do, referring to the purpose
of the actor in control of the property. The Government is certainly correct that this case is not binding, and that non-precedential decisions of our Circuit are not meant to involve the same depth of
analysis as precedential decisions. But in a case
where ordinary meaning is the question, I give at
least some weight to the fact that no ambiguity
arose in the minds of these jurists applying the statute to a trial record. 33
Absent any instruction from the Third Circuit to
follow Chen and its progeny, I cannot do so in good
conscience, given my own analysis of § 856(a). For
the foregoing reasons, I conclude that the actor
charged with violating § 856(a)(2)—in this case
Safehouse—must have acted “for the purpose of unlawfully . . . using a controlled substance.” I turn
next to the meaning of that phrase.

33 I have reviewed the briefs from Coles and take note that neither side advanced arguments rooted in the text of the statute.

122a
iv. Meaning of “for the purpose of unlawfully . . . using a controlled
substance”
Having determined who must act “for the purpose of” unlawful drug activity under (a)(2)—that
the actor who manages or controls the place must
make it available “for the purpose of unlawfully . . .
using a controlled substance”—does not end the inquiry. There remains a question of what it means to
make a space available “for the purpose of unlawfully . . . using a controlled substance”—and
whether Safehouse is acting for that purpose. 34 I began with the observation that, by its very nature,
the phrase “for the purpose of” can be assigned
many different meanings and can operate on multiple levels.
In the Government’s view, Safehouse plans to
make safe consumption rooms available for the
Setting aside the dispute resolved in the preceding section
about whether the actor must have the purpose in question, the
parties seem to accept that the conduct (a)(2) addresses involves
making a space available to others who use, manufacture, distribute, or store drugs. In contrast, cases brought under
§ 856(a)(1), at least in this circuit, typically center on drug activity in which the defendant is directly involved. See, e.g., United
States v. Sawyers, 2019 WL 3816940, at *1 (M.D. Pa. Aug. 14,
2019) (defendant charged under § 856(a)(1) stemming from his
“selling drugs from [his residence]”); United States v. Fuhai Li,
2019 WL 1126093, at *1 (M.D. Pa. Mar. 12, 2019) (defendant
“charged [with] violations of 21 U.S.C. § 856(a)(1)” for “maintaining locations . . . for the purpose of unlawfully distributing controlled substances”); United States v. Rice, 2017 WL 6349372, at
*1 (W.D. Pa. Dec. 13, 2017) (defendant charged under § 856(a)(1)
stemming from discovery of “grow operation” at defendant’s residence and commercial building used by defendant).
34

123a
purpose § 856(a)(2) proscribes. It argues in part that
even an ultimately lawful purpose does not suffice
to avoid liability if unlawful drug use is required to
accomplish that purpose. In that regard, the Government cites a number of cases that can accurately
be described as civil disobedience cases. Common
among those cases is a defendant deliberately violating a law to achieve some higher moral purpose.
See, e.g., United States v. Romano, 849 F.2d 812,
816 n.7 (3d Cir. 1988) (defendant broke into naval
air station and damaged government property but
argued that his conduct was justified because it
would save lives). I do not find these cases instructive. Unlike the civil disobedience cases the Government cites, Safehouse does not concede that it is violating § 856(a) or any other law. 35 Safehouse has
not argued that its ultimate purpose justifies an intermediate purpose of unlawful drug use. Rather,
Safehouse argues that it will not unlawfully make a
place available “for the purpose of . . . using a controlled substance” as that clause is properly understood under § 856(a)(2).
To determine whether Safehouse is acting with
the proscribed purpose, I must examine the scope of
the purpose requirement—what it means to act “for
the purpose of unlawfully . . . using a controlled substance.” Faced with these differing interpretations,
I again begin with the text, and where the text remains unclear, I turn to a variety of contextual
sources for guidance as to the meaning of “for the
35 Technically, certain defendants in Romano asserted they
lacked the requisite mens rea or that their actions were “necessary” and, in those ways, did not concede illegality. But there was
no dispute whether the defendants broke into the military installation and damaged government property.

124a
purpose of unlawfully . . . using a controlled substance.” I note that even in the course of determining whether the text is clear on its face, the Third
Circuit has relied on an array of extra-textual
sources. See, e.g., Pellegrino, 2019 WL 4125221, at
*5-6, *11 (citation omitted) (considering dictionaries, the broader statutory and regulatory scheme,
and Fourth Amendment case law to determine the
meaning of “execute searches” before concluding
that the statutory text was clear). Where the evidence points toward multiple interpretations, an interpretation consistent with the law’s original, ordinary meaning is the most responsible course to take
in an effort to avoid unwarranted judicial expansion
of the statute.
The text itself does not specify the scope of
§ 856(a)(2)’s purpose requirement, let alone address
the legal status of public health projects that would
make property available for drug use to facilitate
the administration of treatment. Safehouse knows
and intends that some drug use will occur on its
property, but it does not necessarily follow that the
organization will knowingly and intentionally make
the place available for the purpose of unlawful drug
activity. That is so because, as noted above, the purpose requirement in (a)(2) is susceptible of multiple
meanings. The condition that one act “for the purpose of” unlawful drug activity could refer to any
purpose (however insignificant), to one’s sole purpose, or to one’s ultimate purpose.
Although I am certain the parties would each
claim “plain meaning” on the face of the text, both
their interpretations implicitly add some meaning
to the language of the statute. The Government argues that “for the purpose of unlawfully . . . using”

125a
drugs plainly includes any intended allowance of
drug use on one’s property, even as part of an effort
to administer medical treatment. Safehouse, on the
other hand, argues that “for the purpose of unlawfully . . . using” drugs plainly does not extend to a
purpose that would allow drug use on-site only to
provide life-saving treatment to drug users.
Safehouse reads the statute to require a primary
purpose to encourage drug use, not just any purpose
that involves allowing drug use and certainly not a
purpose aimed at stopping drug use.
To determine the scope of the purpose requirement, I must initially examine whether the proscribed purpose must be the primary or principal
purpose of the actor, as Safehouse contends, or
whether it may be one of multiple purposes, as the
Government argues. I next address whether any
purpose involving the allowance of drug use satisfies the purpose requirement or whether the purpose requirement must be applied in a more discerning way.
I turn first to whether the proscribed purpose
must be the primary purpose of the actor or whether
it may be one of many purposes. To answer that
question, I consider the dictionary definition of
“purpose.” Both the Supreme Court and the Court
of Appeals cite to dictionaries as a tool of statutory
construction, observing that “[o]rdinarily, a word’s
usage accords with its dictionary definition.” Yates
v. United States, 135 S. Ct. 1074, 1082 (2015); Pellegrino, 2019 WL 4125221, at *3. Dictionary definitions offer substantial support to Safehouse’s view,
as neither party seems to dispute that, as a definitional matter, “purpose” refers to one’s objective,
goal, or end. Safehouse Response at 21; Tr. at 31;

126a
see Purpose, Merriam-Webster’s Collegiate Dictionary (11th ed. 2003) (“[S]omething set up as an object
or end to be attained.”); Purpose, Black’s Law Dictionary (7th ed. 1999) (“An objective, goal, or end.”);
Purpose, Oxford English Dictionary (1986) (“That
which one sets before oneself as a thing to be done
or attained; the object which one has in view.”). 36
Based on this definition, Safehouse insists that
the only relevant purpose under § 856(a) is the primary or principal purpose, because the term “purpose” would ordinarily refer to one’s ultimate objective. If one literally reads the dictionary definitions
into the statute—“for the [objective, goal, end] of
unlawfully using a controlled substance”—
Safehouse’s interpretation would appear to be correct, for the dictionary definitions do in fact consider purpose as referring to one’s ultimate end,
goal, or objective, rather than an intermediate step.
Those who find dictionaries sufficient to determine
the ordinary meaning of statutory language might
stop here. 37 But it remains conceivable that an
The definitions in earlier editions of the same authorities are
essentially the same. Purpose, Webster’s Deluxe Unabridged Dictionary (2d ed. 1983) (“[T]hat which a person sets before himself
as an object to be reached or accomplished; aim; intention; design.”); Purpose, Black’s Law Dictionary (5th ed. 1979) (“That
which one sets before him to accomplish; an end, intention, or
aim, object, plan, project.”).
36

37 In modern practice appellate courts have made extensive use
of dictionaries, making it necessary for district courts to employ
the same tool. This was not always the case. Learned Hand famously noted:

It is not enough for a judge just to use a dictionary. If
he should do no more, he might come out with a result
which every sensible man would recognize to be quite
the opposite of what was really intended; which would

127a
intermediate purpose could be relevant under the
statute or that one could act with more than one ultimate purpose. I therefore decline to adopt
Safehouse’s position merely on the authority of
Webster or Black.
Looking beyond the dictionary definitions of
“purpose,” I agree with the Government that requiring a sole purpose of unlawful drug use would render § 856(a)(2) inapplicable to the undisputed examples of behavior it targets. If the drug-related purpose for which the place was made available had to
be the sole purpose of the actor, the statute would
fail to reach rave promoters who encourage dancing
and drugs and crack house operators who live in the
house and use it as a crack house. Neither party disputes that the statute targets those individuals.
The conclusion that the proscribed purpose in
§ 856(a)(2) need not be the actor’s sole purpose thus
reflects the “prototypical” meaning of the statute.
See Solan, supra at 2040-42, 2044. Multiple courts
have reached this conclusion when interpreting
contradict or leave unfulfilled [the statute’s] plain purpose.
Learned Hand, How Far Is a Judge Free in Rendering a Decision?, in The Spirit of Liberty 103, 106 (Irving Dilliard ed., 1952);
see McBoyle v. United States, 283 U.S. 25 (1931) (Holmes, J.). As
modern scholars increasingly conduct empirical research into
how Congress actually operates, there is also reason to question
whether the drafters of legislation rely on dictionaries to the
same degree as the courts. See Abbe R. Gluck & Lisa Schultz
Bressman, Statutory Interpretation from the Inside—An Empirical Study of Congressional Drafting, Delegation, and the Canons:
Part I, 65 Stan. L. Rev. 901, 938-939 (2013) (noting that more
than fifty percent of legislative staffers either rarely or never consult dictionaries when drafting, and awareness of judicial citation to dictionaries has not changed staff practice.)

128a
§ 856(a)(1). United States v. Gibson, 55 F.3d 173,
181 (5th Cir. 1995); United States v. Church, 970
F.2d 401, 406 (7th Cir. 1992). It follows logically
that the proscribed purpose in (a)(2) may also be one
of multiple purposes for which the property is made
available. That is not to say, however, that any
drug-related purpose would satisfy the statute’s
purpose requirement. In fact, the Government
agreed at oral argument that an incidental purpose
would be insufficient. Tr. at 34-35.
I conclude that the proscribed purpose must be a
“significant” purpose or “one of the primary” purposes. See United States v. Soto-Silva, 129 F.3d 340,
346 n.4 (5th Cir. 1997); United States v. Verners, 53
F.3d 291, 296 (10th Cir. 1995) (finding that the purpose must be “at least one of the primary or principal uses to which the house is put”). 38 This view is
consistent with the proposition which multiple
courts of appeals have endorsed that the “‘casual’
drug user does not run afoul of § 856 because he
does not maintain his house for the purpose of using
drugs but rather for the purpose of residence, the
consumption of drugs therein being merely incidental to that purpose.” United States v. Russell,
595 F.3d 633, 642-43 (6th Cir. 2010) (citation omitted); see also United States v. Johnson, 737 F.3d
444, 449 (6th Cir. 2013); United States v. Shetler,
665 F.3d 1150, 1161 (9th Cir. 2011); Verners, 53
F.3d at 296; United States v. Robinson, 997 F.2d
884, 896 (D.C. Cir. 1993). Although the user maintains and uses the residence and has, at the time of
38 By finding that the drug-related purpose must be one of the
significant or primary purposes, I do not endorse Safehouse’s
view that the proscribed purpose must be the singular primary
or principal purpose. This is a subtle, but important distinction.

129a
the use, the purpose of unlawfully using drugs—all
within the strict language of § 856(a)(1)—courts
have found no violation of § 856(a)(1). As a matter
of logic, then, it would seem that one who makes a
place available to another for a purpose other than
drug use does not necessarily violate § 856(a)(2)
even if they know some consumption of drugs
therein occurs in addition to that other lawful purpose. Although such a limitation has not been expressly articulated in cases considering (a)(2), it is
implicit in the analysis of those circuit courts and is
reflected in practice by the fact that cases brought
under (a)(2) typically have not involved individuals
who allowed casual drug use in their homes. 39 I
therefore accept that there is a limitation on the
scope of the purpose requirement in that the proscribed purpose must bear a significant relationship
to the conduct that Congress sought to prohibit.
The statutory context supports the view that the
purpose must be a significant, not incidental, purpose. Looking to the whole statute, a requirement
that the purpose be significant enables the statutory scheme to make sense. The severity of the sentence permitted by § 856(a)(2)—up to 20 years in
prison—strongly favors such a conclusion. Those
who knowingly and intentionally allow use secondary to another lawful purpose would be subject to a
far harsher penalty than opioid users whose possession is undisputedly criminal but who would be subject to at most three years if prosecuted for possession under 21 U.S.C. § 844. Such disparity would be
39 Indeed, Safehouse represented at oral argument that, since
the statute’s inception, the Government has not brought a single
§ 856(a) case predicated solely on use. Transcript at 58. This is
consistent with the Court’s own research.

130a
inconsistent with the overall statutory scheme, particularly where courts agree that a user in his own
home could not be punished under § 856(a)(1). See
Russell, 595 F.3d at 642-43. I also find this interpretation consistent with the legislative background’s focus on predatory actors rather than casual users or friends of users. See 149 Cong. Rec.
9383 (2003). The drug-related purpose in § 856(a)(2)
must therefore be a significant purpose, even if not
the sole purpose, of the actor.
There is the additional question of whether a
purpose of unlawful drug use includes any purpose
that involves allowing drug use or only purposes to
encourage, promote, or facilitate drug use.
Safehouse assumes the latter view, while the Government’s briefing embraces the former. But the
Government conceded an important limitation on
the scope of the purpose requirement when, at oral
argument, it recognized that not every allowance of
drug use on one’s property would constitute a purpose of unlawful drug use within the meaning of the
statute.
The Government was presented with a hypothetical of parents whose adult child is using drugs,
leading the parents to have them move back home.
Tr. at 35. The parents then instruct the child to inject drugs there, in the parents’ presence, to allow
for resuscitation. Id. The United States Attorney responded that (a)(2) would not apply, because it was
not the parents’ “purpose for their son, their adult
son or adult daughter to be in the home [] to use
drugs.” Id. As an initial matter, it should be noted
that the Government’s response to the hypothetical
was inconsistent with its embrace of Chen, because
it invoked the purpose of the parents as the owners

131a
of the property. I do not raise this as a judicial admission, but only to point out that the Government’s
instinctive response to a specific factual scenario
underscores that (a)(2) is most naturally and logically read as I have analyzed it above, and as a
panel of the Third Circuit did in Coles. It also illustrates how reading (a)(2) as Chen did would lead to
an absurd result.
The Government’s answer is further instructive
because it admits there are limitations on the scope
of (a)(2) that turn on the actor’s purpose vis-à-vis
the user. Specifically, the Government replied that,
where the actor does not want the drug use to occur
or has the goal of “trying to stop that person from
using drugs,” the statute does not prohibit their actions. Id. at 35. In fairness to the Government, it
should be noted that the Court’s hypothetical also
included a statement by the parents that they would
prefer the child not use drugs, a fact the Government emphasized because the Safehouse protocol
does not reflect that participants will be actively
discouraged from use before entering the consumption room.40 But that fact’s relevance pertains to the
statute’s specific application to Safehouse, a matter
I take up below. I raise the Government’s response
to the hypothetical at this juncture as I consider the
scope of the statute’s purpose requirement. Its response supports a conclusion that a purpose
40 In the final analysis, the specific details of Safehouse’s model
only go so far in answering the statutory question. Whether to
approach opioid users confrontationally or empathetically is a
therapeutic decision. If the delivery of a lecture on the hazards of
opioid abuse would render Safehouse’s facility legal, I am confident that Safehouse would even allow the Government to supply
its content.

132a
involving some known and intended drug use may
nonetheless fall outside the reach of the statute, at
least where the actor aims to stop drug use. In
short, both parties agree that there is some limit to
the scope of the purpose requirement; I now look to
the usual tools of statutory interpretation to define
that limit.
Returning to dictionaries, the definition of “purpose” as an objective, goal, end, aim, or intention indicates that a purpose is something one seeks to advance, “something set up as an object or end to be
attained.” Purpose, Merriam-Webster’s Collegiate
Dictionary (11th ed. 2003); see also Purpose, Black’s
Law Dictionary (7th ed. 1999) (similar); Purpose,
Oxford English Dictionary (1986) (similar). An action taken “for the purpose of” unlawful drug use
would therefore refer to a purpose of facilitating
drug use, not an effort to reduce drug use. Again,
those who deem dictionary definitions sufficient to
determine a statute’s ordinary meaning might stop
here, but in my view an analysis that ends here
would be superficial. I will therefore consider the
Government’s view that an intermediate purpose of
allowing drug use on one’s property, even as one
component of an overall effort to combat drug use,
could fall within the scope of the statute, and test it
through the prism of § 856(a)(2)’s statutory and legislative context.
The context of the larger statutory scheme,
something the Supreme Court deemed relevant in
Gonzalez v. Oregon, provides support for both parties’ interpretations, albeit to different degrees. On
the one hand, as Safehouse points out, the statutory
scheme largely permits medical practice and treatment efforts. No provision in the CSA contains a

133a
broad exemption from its prohibitions for all legitimate medical practices, nor did Gonzales create any
such exemption. But the Supreme Court emphasized that the CSA generally does not regulate medical practice. 546 U.S. at 270. With respect to medical harm reduction efforts in particular, federal law
expressly permits a number of tactics that aim to
reduce harm and increase access to treatment for
drug abuse. See Appropriations Act of 2016 § 520,
129 Stat. 2652 (permitting federal funding to be
used for syringe exchange programs that address
risk of HIV or hepatitis outbreaks); Comprehensive
Addiction and Recovery Act of 2016 § 911(e)(1), 130
Stat. 759 (requiring that the Secretary of Veterans
Affairs “maximize the availability of opioid receptor
antagonists, including naloxone, to veterans”); Support for Patients and Communities Act § 3201, 130
Stat. 3894 (allowing for greater flexibility with respect to medication-assisted treatment for opioid
use disorders). 41
On the other hand, the Government emphasizes
that § 812 of the CSA expresses a congressional
judgment that Schedule I drugs have “no currently
accepted medical use in treatment in the United
States” and that “[t]here is a lack of accepted safety
for use of the drug or other substance under medical
supervision.” 21 U.S.C. § 812(b). Similarly, Schedule II reflects a congressional judgment that covered drugs, including fentanyl, cannot be used
safely without a prescription. 21 U.S.C. § 812(b).
41 Although one might then question why Congress has not
specifically authorized safe injection sites, congressional failure
to act is generally not considered a reliable tool for statutory construction. See In re Visteon Corp., 612 F.3d 210, 230 (3d Cir.
2010).

134a
The Government goes on to cite United States v.
Oakland Cannabis Buyers’ Coop., which held that
medical necessity could not be a defense to the CSA
prohibition on distribution of marijuana because
Congress had made a judgment that marijuana has
no medical use. 532 U.S. 483, 490-91 (2001). But unlike the defendant in Oakland Cannabis Buyers’ Cooperative, Safehouse does not propose to provide or
administer any prohibited substance. In that case,
there was no dispute about whether the defendants
had directly violated the CSA by engaging in distribution. Id. at 487. The Court refused to recognize a
medical necessity defense because it would require
a rejection of Congress’s judgment that marijuana
has no therapeutic purpose. Id. at 491-95. I do not
understand Safehouse in any respect to contradict
Congress’s conclusion that, even under medical supervision, heroin use remains unsafe. Rather, I understand Safehouse to assert that, when drug users
engage in the undisputedly unsafe behavior of consuming Schedules I and II drugs, providing a space
to facilitate immediate medical intervention, although insufficient to make that behavior safe, does
not violate § 856(a) of the CSA. At best, § 812 offers
limited support for the Government’s position, and
can hardly be read to criminalize harm reduction
strategies like the one proposed by Safehouse.
A review of the legislative evidence confirms that
the reach of § 856(a)(2) is limited to purposes to facilitate drug use, which would in turn exclude a purpose to curb or combat drug use that may involve
some allowance of use. I begin with the last decision-making point related to the text in question:
the 2003 agreement to the Conference Report

135a
including the amendment to the crack house statute.42 The 2003 amendment, originally called the
Illicit Drug Anti-Proliferation Act and incorporated
into the PROTECT Act, aimed to expand the crack
house statute to address events, such as raves, at
which promotors encourage use of “club drugs” and
other controlled substances by children and teens.
See 149 Cong. Rec. 9383. In determining the scope
of the amendment, is important to recognize the significance of the amendment being inserted in conference. Under both Senate and House Rules, any
addition to a bill in conference must be germane to
the subject of the legislation, in this case the protection of children. See Senate Rule XXVIII; House
Rule XXII. 43 It is for that reason that the joint
42 A conference committee report contains the final proposed
text of a bill, which emerges from the conference committee,
where members of both houses have resolved differences between
versions of the bill passed by the House and the Senate. Davis,
supra at 1. Each chamber then votes on whether to agree to the
conference report. Christopher M. Davis, The Legislative Process
on the House Floor: An Introduction, Congressional Research
Service 9 (2019). The decision to agree to the conference report is
therefore the final legislative act with respect to the text, and the
debate prior to the vote on whether to agree offers proximate evidence of the legislature’s decision. See Nourse, Misreading Law,
supra at 80.
43 Both Houses’ rules require that any changes made in conference be germane to the matters committed to conference. Id. It
bears mention that the addition of an entirely new provision in
conference pushes the limits of the matters properly before the
conferees under the rules of both Houses. Senate Rule XXVIII,
¶ 3; House Rule XXII, cl. 9. Nonetheless the § 856 amendment
was included in the Protect Act without objection. See Senate
Rule XXVIII, ¶ 3 (providing members with recourse to raise a
point of order in objection to non-germane additions); House Rule
XXII, cl. 10 (same). Both Houses then agreed to the conference

136a
explanation to the Conference Report emphasized
the amendment’s goal of protecting children. Joint
Explanatory Statement at 68. Prior to the vote on
the Conference Report, then-Senator Biden, sponsor
of the original bill, expressly noted that “[t]he bill is
aimed at the defendant’s predatory behavior, regardless of the type of drug or the particular place
in which it is being used or distributed.” 149 Cong.
Rec. 9383 (2003) (emphasis added). This evidence
makes clear that, when Congress decided to amend
the statute, it expanded the meaning of the law to
include a larger category of “predatory behavior”
that involved increasing access to illicit drugs at a
variety of events, particularly those attracting
young people. It broadened the meaning of the statute from targeting crack houses to targeting events,
like raves, that encourage drug use and prey on potential drug users.
Although the Government is correct that Congress expanded the statute, that expansion was
minimal. The change to the statute clarified that
single events as well as ongoing operations were included, that the place involved need not be a building or enclosure, and that renters and lessees could
also be liable.44 See Conference Report to S. 151 at
43; 149 Cong. Rec. 9383 (statement of then-Senator
Biden). At the introduction of the Illicit Drug Antireport, and the legislative evidence pertaining to debate on that
decision is therefore relevant.
44 The Government also references the change in title to “maintaining drug-involved premises.” I do not reject looking to titles
for guidance, but in this instance the wording is not particularly
enlightening. The statute cannot possibly apply to all “drug-involved premises,” just as under the previous title it could not
have applied only to “manufacturing operations.”

137a
Proliferation Act, co-sponsor Senator Grassley commented on the limited nature of the change. 149
Cong. Rec. 1849. He described the amendment as an
effort to “update our laws so they can be used effectively against drug dealers who are pushing drugs
on our kids.” 149 Cong. Rec. 1848. His comments
specifically focused on raves and other temporary
events. One statement, which referred to “illegal
drug use in any location,” could lend support to the
Government’s position, but the remainder of his remarks do not support such a broad interpretation.
Senator Grassley referred to “cover activity” created
to hide drug transactions and emphasized that the
amendment was not designed to hamper “legitimate” activities. Id. He noted that § 856 would be a
means for law enforcement to target events at which
dealers “push their product,” and addressed the
party drug Ecstasy at length. Id. at 1848-49. He specifically referred to drug reduction efforts as an example of conduct that would be inconsistent with
criminal intent. Id. at 1849. He closed his remarks
by characterizing the amendment as a “careful
step,” with a recognition that drug abuse must be
addressed “not only through law enforcement but
education and treatment as well.” Id. at 1849. Similarly, although the legislative evidence includes a
description of the statute applying to “any type of
event for the purpose of drug use or distribution,”
149 Cong. Rec. 9384 (statement of then-Senator
Biden), nothing in the legislative record reveals an
expansion of the statute’s meaning beyond events
and operations to facilitate drug use, and certainly

138a
not an expansion to reach activities designed to stop
drug use. 45
The Government cites a statement from Senator Biden in
which he said, “section 856 has always punished those who knowingly and intentionally provide a venue for others to engage in
illicit drug activity.” 149 Cong. Rec. 20539. Safehouse cites to another portion of the same statement in support of its position. The
statement in question was made in July 2003, several months
after the April passage of the PROTECT Act.
45

Courts generally reject such “post hoc” statements as unreliable tools for construing a statute. See, e.g., Blanchette v. Connecticut General Ins. Corps., 419 U.S. 102, 132 (1974); Pa. Med. Soc.
v. Snider, 29 F.3d 886, 898 (3d Cir. 1994). In part this is because
they were not part of the consideration or debate in which the
legislature engaged prior to voting to enact the law in question.
See James J. Brudney & Lawrence Baum, Oasis or Mirage: The
Supreme Court’s Thirst for Dictionaries in the Rehnquist and
Roberts Eras, 55 Wm. & Mary L. Rev. 483, 568 (2013); Nourse,
Misreading Law, supra at 155 (arguing that to the extent “group
process determines the legitimacy of legislative evidence . . . evidence incapable of influencing the group, should be rejected”).
Statutory interpreters largely agree that “post-enactment history” is therefore minimally helpful in determining the meaning
of legislative decisions. See John F. Manning, Separation of Powers as Ordinary Interpretation, 124 Harv. L. Rev. 1939, 2035
(2011) (suggesting that a rule considering post-enactment evidence authoritative would be unconstitutional); Jonathan R.
Siegel, The Use of Legislative History in a System of Separated
Powers, 53 Vanderbilt L. Rev. 1457, 1522-23 (2000) (describing
general agreement that post-enactment legislative history deserves less weight); see also § 48:20. Post-enactment history, 2A
Sutherland Statutory Construction § 48:20 (7th ed.). In part, this
is a recognition that legislators are also politicians, whose statements after a bill becomes law may serve other purposes.
But to the extent that the Government focuses on this specific
comment, it must be reviewed in the context of Biden’s immediately preceding remarks clarifying that his amendment to § 856
in the PROTECT Act did not greatly expand that statute. He
sought to emphasize the point that the crack house statute has

139a

always been used, not only against traditional crack houses, but
also against “seemingly ‘legitimate businesses’ used as a front for
drug activity,” such as motels, car dealerships, and bars. 149
Cong. Rec. 20539. Later in his remarks he referred to the same
venues as “non-traditional crack house[s].” Id. What Safehouse
proposes, whether within the scope of the statute or not, is certainly different from a “non-traditional crack house.”
The remainder of these post-hoc remarks would lend no support to the Government. First, Senator Biden clarified the limited
effect of the bill’s changes to the statute, contradicting the Government’s assertions that the amendment significantly broadened § 856. Id. Next, Biden repeatedly emphasized that the
amended statute only targets those who intentionally hold or promote events for the purpose of unlawful drug activity. Id. Third,
during a lengthy discussion of the “‘knowledge’ and ‘intent’” requirement and the “requirement that the defendant make their
property available ‘for the purpose’ of illicit drug activity,” Biden
made no distinction between how the purpose requirement
should be understood in (a)(1) and (a)(2), undercutting the Government’s argument for a lower mental state requirement in
(a)(2). Id. at 20539. In a discussion clearly considering (a)(2),
given references to the “knowingly and intentionally” requirement and the language about making a property available, Biden
cited the Chen court’s discussion of (a)(1)’s purpose requirement,
evidently assuming it applied to (a)(2) as well. Id. Specifically, he
noted that a purpose is “that which one sets before him to accomplish; an end, intention, or aim, object, plan, project” and that “it
is strictly incumbent on the government to prove beyond a reasonable doubt that a defendant knowingly maintained a place for
the specific purpose of distributing or using a controlled substance.” Id. (quoting Chen, 913 F.2d at 189). In discussing
knowledge and intent, he clarified that actual knowledge is required and referred to the portion of Chen in which the court
quoted the trial court’s instructions, including the instruction
that an act is done “‘intentionally’ if done voluntarily and purposely with the intent to do something the law forbids.” Id. (quoting Chen, 913 F.2d at 187). These statements indicate that Biden
understood the purpose requirement to refer to the actor’s purpose and to set a high bar for the Government to clear. Fourth,
in a point that Safehouse emphasizes as part of its analysis,

140a
The 1986 legislative record related to the provision reveals that the original meaning of the statute, prior to any expansion in 2003, contemplated
only purposes to facilitate drug use. The 1986 act
focused specifically on crack houses. For instance,
the section-by-section description read: “Outlaws
operation of houses or buildings, so-called ‘crack
houses,’ where ‘crack’ cocaine and other drugs are
manufactured and used.” 132 Cong. Rec. 26474. The
original meaning of places made available “for the
purpose of unlawfully . . . using a controlled substance” referred to spaces designed to facilitate drug
use.
The legislative focus on making places available
for such illicit purposes does not limit the provision’s applicability to only crack houses and raves,
but it does caution against extending the statute too
far beyond similar circumstances. The evidence indicates that the statute targets exploitive behavior
like that of crack house operators, rave promoters,
and others creating spaces to facilitate drug use and
access to drugs. A common denominator among the
actions of these individuals is the goal of enabling
Biden explicitly endorsed the view that the purpose must be the
primary purpose of the place in question, id. at 20538, 20539,
quoting a DEA memo that likewise stated that the activity on the
property must be “primarily for the purpose of drug use.” Id. at
20538. Finally, the remarks expressed that the bill’s only goal
was to “deter illicit drug use and protect kids” and made repeated
references to crack houses, “non-traditional crack houses,” raves,
and other events that perpetuate illicit drug activity. Id. at
20538-39.
Thus, even if properly considered, nothing about this post-hoc
statement suggests contemplation of efforts to facilitate medical
care and access to drug treatment.

141a
drug use and supporting the market for unlawful
drugs. To read § 856(a)(2) to apply to medical purposes and efforts to combat drug abuse would take
the statute well beyond what it aimed to criminalize. As employed by Congress, the words “for the
purpose of unlawfully . . . using a controlled substance” in § 856(a) are properly understood as referring to significant purposes to facilitate, rather than
reduce, unlawful drug use.
V. Application of (a)(2) to Safehouse
I cannot conclude that Safehouse has, as a significant purpose, the objective of facilitating drug
use. Safehouse plans to make a place available for
the purposes of reducing the harm of drug use, administering medical care, encouraging drug treatment, and connecting participants with social services. None of these purposes can be understood as
a purpose to facilitate drug use.
The Government contended at oral argument
that Safehouse’s purpose cannot be to stop or reduce
drug use. Tr. at 32-34. But its own Complaint belies
that argument. It acknowledges that Safehouse will
offer all its participants treatment referrals and onsite initiation of medication-assisted treatment.
Pl.’s Am. Compl. at 4. Treatment, along with a variety of other services, will be offered during at least
three stages of Safehouse’s protocol. Pl.’s Am.
Compl. Ex. A at 4-5; see also The Safehouse Model,
https://www.safehousephilly.org/about/thesafehouse-model (last visited Oct. 1, 2019). One offer of services will be made before any participant
enters the consumption room. Id. Any participant
who then chooses to use the medically supervised
consumption room will, in the subsequent medically

142a
supervised observation room, meet with peer specialists, recovery specialists, social workers, and
case managers who will specifically encourage
treatment. Id. The Court is hardly being “anti-factual,” as the Government accuses, Tr. at 34, when it
construes the pleadings as describing a program
that ultimately seeks to reduce unlawful drug use.
Within the consumption rooms themselves,
Safehouse will engage in the legal acts of providing
sterile injection equipment and administering
emergency medical care. The Government has not
contended that the provision of medical treatment
facilitates or advances drug use. In fact, other federally supported initiatives recognize that such services prevent fatalities from drug use. The use that
will occur is subsidiary to the purpose of ensuring
proximity to medical care while users are vulnerable to fatal overdose. The Government has conceded
that similar harm reduction strategies would be
lawful if executed through mobile vans or if
Safehouse personnel monitored drug use in public
places. The Government seeks to distinguish consumption rooms from the ways in which other entities currently engage in harm reduction (and ways
that they could, such as through use of a mobile van)
by observing that in those efforts no real property is
used, and “what matters [is] the statutory language.” Tr. at 39. This is myopic textualism that
seeks to avoid the central issue. The statutory language that matters most is “purpose,” and no credible argument can be made that a constructive lawful purpose is rendered predatory and unlawful
simply because it moves indoors. Viewed objectively, what Safehouse proposes is far closer to the
harm reduction strategies expressly endorsed by

143a
Congress than the dangerous conduct § 856(a) seeks
to prohibit. Safehouse therefore is not making a
place available “for the purpose of unlawfully . . .
using a controlled substance” within the meaning of
§ 856(a)(2).
When pointedly asked — twice — whether
Safehouse was promoting drug use, the Government
could only respond obliquely. Tr. at 36-37. It replied
that because Prevention Point, an existing program
run by Safehouse’s President and Treasurer, Jose
Benitez, is already successfully moving some of its
clients into treatment, in the absence of proof that
Safehouse will accomplish more, the net effect of
Safehouse will simply be more drug use. Id. at 37.
Specifically, the Government replied that “the logical implication of setting up Safehouse is there’s going to be more drug use. So yes, they are promoting
drug use.” Id. In a case that turns on “purpose,” the
nature of the Government’s response is revealing.
Rather than attribute any unlawful purpose to
Safehouse, it pointed instead to what it presumes
will be a deleterious outcome. 46 And as observed at
the beginning of this opinion, the wisdom or effectiveness of safe injection sites is not the issue before
me. One might criticize the Safehouse model from
46 For the sake of completeness, it must be mentioned that the
Government’s rebuttal was not as carefully nuanced. Referring
to Safehouse’s description of its program, counsel derided it as
“Bizarro World,” urged the Court to “be real,” and seemingly rejected any therapeutic purpose, stating, “They’re not inviting
people onto their property just to get treatment or whatever other
services they’re offering. The whole purpose here is for people to
use drugs.” Tr. at 71-72. My inclination is to discount these remarks as a moment of overly zealous advocacy. But in any case,
no plausible reading of the pleadings before me supports such a
caricature of what Safehouse proposes.

144a
the standpoint of therapeutic soundness or effectiveness, but again that is not the issue before me.
It would be an issue for Congress, but there can
be no question that Safehouse’s approach to harm
reduction and increasing access to treatment was
not within the contemplation of Congress when it
enacted or amended this statute. The records of
Congress are now searchable electronically, and a
global search of the legislative record prior to the
statute’s amendment in 2003 reveals a single passing reference to a 1998 article in Foreign Affairs
magazine discussing safe injection facilities as a potential harm reduction strategy. See The Decriminalization of Illegal Drugs: Hearing Before the Subcomm. on Criminal Justice, Drug Policy, and Human Resources of the H. Comm. on Gov’t Reform,
106th Cong. 8 (1999) (statement of Thomas A. Constantine, Former Administrator, Drug Enforcement
Administration (citing Ethan A. Nadelmann, Commonsense Drug Policy, Foreign Affairs, Jan.–Feb.
1998)). Even then, the article cited by the witness
discussed safe injection facilities as a “[h]arm reduction innovation . . . to stem the spread of HIV,”
not in relation to an opioid crisis. Id.
Aside from the legislative record, there is an additional governmental source to consult that sheds
light on when safe injection sites became a subject
of public debate. The National Center for Biotechnology Information, in collaboration with the
United States National Library of Medicine and National Institutes of Health, maintains a searchable
database of medical literature, PubMed, which includes articles that cut across multiple disciplines,
including public health. The statute here was last
amended in April 2003. If one conducts a search

145a
using the term “safe injection sites,” multiple publications appear, none having to do with management
of opioid addiction prior to 2003. 47 If one adds the
limiting term “opioid,” there are still no relevant results. A search for the related term “supervised injection” through the end of 2003 reveals only two
relevant articles published within five months of
the amendment, both in a Canadian specialty law
review focusing on HIV and AIDS prevention efforts. Simply put, supervised injection sites as a
harm reduction strategy for opioid abuse were not a
subject of public discourse when the statute was last
amended.
At argument, the Government was invited multiple times to point to any legislative evidence that
supervised injection programs were specifically considered by Congress, but counsel skillfully avoided
giving a direct answer to the question. Tr. at 7-12.
The most the Government could offer as to a specific
focus on safe injections sites was for the Court to go
back in time to reconstruct what Congress might
have thought had the subject actually been considered at the time. Tr. at 7. This method is mentioned
in the scholarly literature and termed “imaginative
reconstruction.” Posner, Statutory Interpretation,
supra at 817. Such an approach is inherently

47 Judges are rightly cautioned to limit internet research. I am
not concerned with doing so here because the exercise is akin to
judicial notice. The search conducted can be objectively replicated by anyone, with the results speaking for themselves. And
the purpose is not to garner substantive input for the Court to
consider without the perspective of the litigants, but simply to
test what resources were publicly available at the time Congress
was deliberating.

146a
speculative and has not been endorsed by case
law.48 As Justice Gorsuch has noted, although new
applications of statutes may arise, “every statute’s
meaning is fixed at the time of enactment.” Wisconsin Central, Ltd. v. United States, 138 S. Ct. 2067,
2074 (2018). Accordingly, I confine myself to the
documented evidence of what Congress did, in fact,
mean to accomplish at the time of enactment.
The Government’s refusal to concede that there
was not specific consideration by Congress reveals
its concern over a core weakness in its position. It
urges me to hold that even though harm reduction
efforts like safe consumption facilities were indisputably beyond the contemplation of Congress, I
should apply the language of the statute in the
broadest possible way, leaving it to Congress to clarify if it does not wish to criminalize safe consumption facilities. But the law does not default to criminalization, requiring Congress to clarify when it
wishes not to incarcerate citizens. Rather, as Chief
Justice John Marshall explained, “penal laws are to
be construed strictly” because “the power of punishment is vested in the legislative, not the judicial department. It is the legislature, not the Court, which
is to define a crime, and ordain its punishment.”
United States v. Wiltberger, 18 U.S. (5 Wheat.) 76,
95 (1820). Modern cases echo those same principles:
“[B]ecause of the seriousness of criminal penalties,
48 To adopt the Government’s suggestion would fly in the face
of the admonition that courts should “not interpret a federal
criminal statute so as to increase the penalty that it places on an
individual when such an interpretation can be based on no more
than a guess as to what Congress intended.” Ladner v. United
States, 358 U.S. 169, 214 (1958); accord Reno v. Koray, 515 U.S.
50, 65 (1995) (Rehnquist, C.J.).

147a
and because criminal punishment usually represents the moral condemnation of the community,
legislatures and not courts should define criminal
activity.” United States v. Bass, 404 U.S. 336, 348
(1971).
Congress here determined that making places
available to facilitate drug use, supporting the drug
market as crack houses and raves do, warranted
moral condemnation and punishment. Congress has
not had the opportunity to decide whether such
moral condemnation and punishment should extend
to consumption facilities that are components of
medical efforts to facilitate drug treatment. By any
objective measure, what Safehouse proposes is not
some variation on a theme of drug trafficking or conduct that a reasonable person would instinctively
identify as nefarious or destructive. Even if one believes it to be misguided, the nature and character
of what it proposes is not prototypically criminal.
A consistent theme in the Government’s case is
what it describes as the “hubris” of Safehouse in
seeking to open its safe injection site without first
securing some form of official approval from federal
authorities. There is, however, no mechanism under
the CSA for seeking review from any governmental
entity for the activity that Safehouse proposes,
which the Government conceded at oral argument.
Tr. at 43. Physicians and researchers can seek exemptions from the prohibition against administering Schedule I and Schedule II drugs. Safehouse
does not seek to administer prohibited drugs but rather to ameliorate the harm from their unlawful
use. In the Government’s view, Safehouse literally
needs an Act of Congress to proceed. But that begs
the question. The question is whether current law

148a
criminalizes Safehouse’s proposed conduct. As Justice Rutledge memorably phrased a core tenet of
federal law, “[b]lurred signposts to criminality will
not suffice to create it.” United States v. C.I.O., 355
U.S. 106, 143 (1968) (Rutledge, J., concurring).
Although irrelevant for the Court’s purposes, the
numerous policy arguments raised by the parties
and amici indicate that there is a vibrant debate to
be had about the possible advantages, risks, and
costs of safe consumption sites. 49 A narrow
The Court received thirteen amicus briefs from various individuals and groups from around the nation. Brief of and by Professors of Religious Liberty Law as Amici Curiae; Brief of Amici
Curiae Harrowgate Civic Association, Bridesburg Civic Association, Juniata Park Civic Association, Kensington Independent
Civic Association, Port Richmond on Patrol and Civic, South Port
Richmond Civic Association, and Fraternal Order of Police,
Lodge 5; Brief of Amici Curiae Philadelphia-Area Community
Organizations; Brief of Current and Former Prosecutors, Law
Enforcement Leaders, And Former Department of Justice Officials and Leaders as Amici Curiae; Amicus Curiae Brief of Homeless Service Providers; Amicus Curiae Brief of Friends and Family of Victims of Opioid Addiction in Support of Defendant’s
Safehouse and Jose Benitez; Proposed Brief of Amici Curiae Aids
United, Association for Multidisciplinary Education and Research in Substance Use and Addiction, Association of Schools
and Programs of Public Health, California Society of Addiction
Medicine, Drug Policy Alliance, Harm Reduction Coalition, National Association of State and Territorial Aids Directors, The
Foundation for Aids Research, Positive Women’s Network, Treatment Action Group, Vital; Amici Curiae Brief of Religious Leaders in the Philadelphia Community and Beyond; Amici Curiae
Brief of Constitutional Law Scholar and Commerce Clause Expert Professor Randy Barnett; Brief of Amici Curiae King
County, WA; New York, NY; San Francisco; Seattle, WA; Pittsburgh, PA; and Svante L. Myrick, Mayor of Ithaca, NY; Brief
Amici Curiae of the American Civil Liberties Union and The
American Civil Liberties Union of Pennsylvania; Brief of Amici
49

149a
interpretation of § 856(a)(2) appropriately defers to
Congress to engage in this debate and determine
whether and how it wants to criminalize the conduct of medical providers and recovery specialists
who seek to manage safe consumption facilities. A
narrow interpretation of § 856(a)’s purpose requirement and restrained application of that statute also
protects the important separation of powers principles discussed above. Such principles are one of the
foundations of the longstanding rule of lenity, 50
which Safehouse invokes here. I do not rely on the
rule of lenity as the basis for this decision. Nonetheless, the separation of powers principles underlying
the rule carry substantial weight in this case, where
the Executive has invited the Judiciary to expand
the reach of a criminal statute to include conduct
that I am convinced was never contemplated by the
Legislature.
VI. Application of (a)(1) to Safehouse
The Government has only brought this action
under (a)(2), but in its Counterclaim Safehouse
Curiae Mayor Jim Kenney and Health Commissioner Dr.
Thomas Farley.
50 Another policy underlying the rule of lenity is that the law
must provide fair notice of the punishment imposed “if a certain
line is passed,” and “[t]o make the warning fair, . . . the line
should be clear.” Bass, 404 U.S. at 348. This policy is somewhat
less applicable here, where the Government seeks a declaratory
judgment, which by definition will provide notice as to whether
the law prohibits the conduct in question. It bears mention, however, that courts have applied the rule of lenity in declaratory
judgment cases. See, e.g., Bingham, Ltd. v. United Sitates, 724
F.2d 921, 924-25 (11th Cir. 1984) (noting the rule of lenity applies
“even though we construe the [statute] in a declaratory judgment
action, a civil context”).

150a
seeks a declaratory judgment as to § 856(a) as a
whole. However, no motion for relief on that aspect
of the Counterclaim is pending before me.
VII. Religious Freedom Restoration Act
Because I have determined that § 856(a)(2) does
not apply to Safehouse’s proposed conduct, I need
not consider whether the Government’s effort to enforce the statute violates Safehouse’s rights under
the Religious Freedom Restoration Act (RFRA), 42
U.S.C. § 2000bb. In connection with that claim,
Safehouse sought: (1) a declaration that any prohibition or penalization of Safehouse would violate
RFRA and (2) an injunction permanently enjoining
the Third-Party Defendants from enforcing or
threatening to enforce 21 U.S.C. § 856 against
Safehouse. Defs.’ Answer at 43-44. Because I have
concluded that § 856(a)(2) does not criminalize
Safehouse’s proposed actions, the RFRA claim is
now moot.
VIII. Conclusion
Both sides skillfully argue that Congress’s meaning in § 856 is consistent with their own, and further
argue that to conclude otherwise would be a judicial
usurpation of legislative power. Here, however, the
Government asks the Court to apply statutory language to a set of facts beyond the comprehension of
Congress when the bill was passed. I find the most
conservative, circumspect approach to favor the
original, ordinary meaning of the statute. On the
record before me, having applied multiple tools of
construction, I find that the purpose at issue under
§ 856 must be a significant purpose to facilitate
drug use, and that allowance of some drug use as
one component of an effort to combat drug use will

151a
not suffice to establish a violation of § 856(a)(2). The
ultimate goal of Safehouse’s proposed operation is
to reduce drug use, not facilitate it, and accordingly,
§ 856(a) does not prohibit Safehouse’s proposed conduct.
The Government’s Motion will be denied as to its
claim for declaratory judgment as well as
Safehouse’s counterclaim for declaratory judgment.
I need not consider Safehouse’s Religious Freedom
Restoration Act claim, which is now moot.
/s/ Gerald Austin McHugh
United States District Judge

